      Department of Homeland Security




            Allegations of Misconduct and Illegal 

            Discrimination and Retaliation in the 

                 Federal Air Marshal Service 





OIG-12-28                                             January 2012

January 20, 2012
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Review ................................................................................................................6


     The Orlando Field Office “Jeopardy!” Board................................................................8 


     Several Workforce Issues Have Led to Allegations ....................................................12 

     Recommendation .........................................................................................................15 

     Management Comments and OIG Analysis ................................................................16 

     Recommendations........................................................................................................26 

     Management Comments and OIG Analysis ................................................................27 

     Recommendations........................................................................................................46 

     Management Comments and OIG Analysis ................................................................47 


     Results of Workforce Survey.......................................................................................50 

     Recommendation .........................................................................................................64 

     Management Comments and OIG Analysis ................................................................64 


     FAMS Leadership Is Addressing Workforce Issues ....................................................64 


Appendices
     Appendix A: Purpose, Scope, and Methodology.......................................................68 

     Appendix B: Recommendations................................................................................70 

     Appendix C: Management Comments to the Draft Report .......................................72 

     Appendix D: Selected EEO Laws, Regulations, and Executive Orders....................82 

     Appendix E: Factors to Consider in Determining Discipline ...................................84 

     Appendix F: Survey Questions and Responses.........................................................85 

     Appendix G: Select Survey Responses by Location .................................................98 

     Appendix H: Survey Questions – OIG FAMS Survey Compared to 

                 2010 DHS-wide Survey .....................................................................107 

     Appendix I: Survey Demographics........................................................................110 

     Appendix J: Major Contributors to this Report......................................................111 

     Appendix K: Report Distribution ............................................................................112 

Abbreviations
  ASAC          Assistant Supervisory Air Marshal in Charge
  CRCL          Office for Civil Rights and Civil Liberties (DHS)
  DHS           Department of Homeland Security
  EEO           Equal Employment Opportunity
  EEOC          Equal Employment Opportunity Commission
  FAMS          Federal Air Marshal Service
  FY            fiscal year
  GAO           Government Accountability Office
  MIU           Management Inquiries Unit
  MSPB          Merit Systems Protection Board
  NMS           non-mission status
  OHC           Office of Human Capital (TSA)
  OIG           Office of Inspector General
  OOI           Office of Inspections (TSA)
  OPA           Office of Professional Accountability
  OPM           Office of Personnel Management
  OPR           Office of Professional Responsibility (TSA)
  RDO           regular day off
  SAC           Supervisory Air Marshal in Charge
  SFAM          Supervisory Federal Air Marshal
  TSA           Transportation Security Administration
  TSES          Transportation Senior Executive Service
  USERRA        Uniformed Services Employment and Reemployment Rights Act
  USSS          U.S. Secret Service
  VIPR          Visible Intermodal Prevention and Response
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                         In January 2010, CNN reported allegations of misconduct and
                         illegal employment discrimination and retaliation in the Federal
                         Air Marshal Service’s Orlando field office. The reports included
                         descriptions of an agency rife with cronyism; age, gender, and
                         racial discrimination; and unfair treatment in promotions,
                         assignments, and discipline. Also included were photographs of a
                         game board modeled after the television show “Jeopardy!” created
                         and displayed by supervisors there, with categories containing
                         derogatory nicknames referring to veterans, females, African-
                         Americans, Hispanics, and lesbians and gays. Senator Bill Nelson
                         and Congressmen Edolphus Towns and Darrell Issa asked us to
                         review the allegations in Orlando and throughout the agency as
                         well as the circumstances surrounding the game board.

                         Although individual employees may have experienced
                         discrimination or retaliation, our review does not support a finding
                         of widespread discrimination and retaliation within the Federal Air
                         Marshal Service. However, employees’ perceptions of
                         discrimination and retaliation are extensive, and we heard too
                         many negative and conflicting accounts of events to dismiss them.
                         Many Federal Air Marshals and some supervisors think they have
                         been discriminated against, fear retaliation, and believe there is
                         much favoritism. There is a great deal of tension, mistrust, and
                         dislike between non-supervisory and supervisory personnel in field
                         offices around the country. We identified factors that contributed
                         to strained relations and became the basis for the allegations.
                         Limited transparency in management decisions is also at the center
                         of fears of retaliation and perceptions that management is
                         mistreating its workforce.

                         These issues pose a difficult challenge for the agency, but they do
                         not appear to have compromised the service’s mission.
                         Transportation Security Administration and Federal Air Marshal
                         Service senior leadership are committed to addressing these issues
                         and have implemented several proactive initiatives to address
                         them. We are making several recommendations to help the agency
                         mitigate these issues.



  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 1
Background
                        On September 11, 2001, there were 33 Federal Air Marshals. In
                        November 2001, the Transportation Security Administration
                        (TSA) was created within the U.S. Department of Transportation,
                        and the Federal Air Marshal Service (FAMS) moved from the
                        Federal Aviation Administration to TSA. At that time, the Deputy
                        Secretary of Transportation issued a mandate to recruit, hire, and
                        train thousands of Federal Air Marshals by July 1, 2002.

                        FAMS met this mandate. To help achieve it, FAMS hired numerous
                        U.S. Secret Service (USSS) retirees because of their experience
                        working in a protective-oriented agency. This was made easier by a
                        provision regarding their federal retirement, which allowed them to
                        continue receiving their federal retirement annuity and a federal law
                        enforcement salary at the same time. TSA also sought experienced
                        retirees from other federal law enforcement agencies. To hire them,
                        TSA requested and obtained waivers of the general restriction
                        prohibiting employees from receiving two federal paychecks at the
                        same time. FAMS eventually received 5-year waivers of the
                        prohibition, and then hired experienced managers from other federal
                        law enforcement agencies. FAMS received more than 175,000
                        applications and hired Federal Air Marshals from state and local
                        police departments, the Bureau of Prisons, the U.S. military, the
                        U.S. Border Patrol, and other federal law enforcement agencies.

                        Between 2003 and 2005, FAMS underwent three organizational
                        changes. In March 2003, TSA, including FAMS, moved from the
                        Department of Transportation to the Department of Homeland
                        Security (DHS). In November 2003, FAMS moved within DHS
                        from TSA to U.S. Immigration and Customs Enforcement. In
                        October 2005, it returned to TSA. In June 2008, TSA promoted
                        Robert Bray to Director of FAMS.

                        FAMS operates many field offices throughout the United States.
                        Field office locations and staffing levels are determined based on
                        intelligence, the FAMS Concept of Operations, and proximity to
                        airports. A Supervisory Air Marshal in Charge (SAC) manages
                        each office, assisted by a Deputy Supervisory Air Marshal in
                        Charge or Assistant Supervisory Air Marshals in Charge (ASACs),
                        depending on the size of the field office, and Supervisory Federal
                        Air Marshals (SFAMs). Federal Air Marshals make up the
                        majority of staff in each field office. Most Federal Air Marshals
                        are deployed on commercial domestic and international flights. A
                        few work in ground-based positions in the field offices to support
                        flying Federal Air Marshals and carry out other responsibilities.

 Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 2
                           As the size of FAMS increased, workforce issues also increased.
                           The rapid buildup of FAMS, coupled with the task of merging the
                           cultures of the many law enforcement agencies from which Federal
                           Air Marshals were hired, proved to be a challenge. In May 2006,
                           the House Judiciary Committee released an investigative report
                           stating that FAMS encountered numerous problems during the
                           rapid buildup that severely affected morale and potentially national
                           security. The committee reported that Federal Air Marshals in
                           many field offices expressed concerns with policies and reluctance
                           to approach managers due to fear of retaliation. Following the
                           release of this report, the Ranking Member of the House Committee
                           on Homeland Security issued a statement that his committee,
                           which has primary jurisdiction over FAMS, had worked closely
                           with TSA to address flawed policies and practices since FAMS
                           returned to TSA in October 2005. He noted that many of the
                           claims in the report had been or were in the process of being
                           corrected.

                           In 2009, the U.S. Government Accountability Office (GAO)
                           assessed actions taken by the FAMS to fulfill its mission and
                           address workforce issues. It determined that Director Brown had
                           implemented processes such as working groups and listening
                           sessions to address workforce issues, and Federal Air Marshals
                           were satisfied with these efforts.

                           FAMS EEO and MSPB Activity

                           Individual Federal Air Marshals have filed informal and formal
                           Equal Employment Opportunity (EEO) complaints, Merit Systems
                           Protection Board (MSPB) appeals, and lawsuits alleging
                           discrimination, retaliation, or improper personnel actions of one
                           form or another. The majority of cases were decided in the
                           agency’s favor. Some were settled prior to the issuance of a
                           decision by the MSPB or the Equal Employment Opportunity
                           Commission (EEOC).

                           FAMS employees filed 280 informal EEO complaints from
                           September 2006 through May 2010 and 174 formal EEO
                           complaints from September 2006 through April 2011 (see table 1).1
                           In fiscal year (FY) 2010, the number of formal complaints rose
                           sharply. For both informal and formal complaints, the primary
                           areas on which employees based their complaints were nonsexual

1
 An informal complaint must be filed initially. Complaints that are not resolved informally may be
elevated to the formal complaint process.

    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 3
                       harassment, promotion or nonselection, and reprisal. There were
                       three findings of discrimination against FAMS in FY 2009 from
                       claims initiated in 2002, 2004, and 2006, respectively. There was
                       one finding of discrimination against FAMS from September 2009
                       through January 2010, stemming from a claim initiated in 2004.

                                Table 1. EEO Complaints Filed by FAMS Employees,
                                                FY 2007–FY 2011
                             Fiscal Year    Informal Complaints    Formal Complaints
                                2007                 39                   18
                                2008                 45                   34
                                2009                 49                   41
                                2010                 92                   71
                                20111                55                   10
                            Total                   280                   174
                       1
                           Informal and formal complaints through April 30, 2011.


                       From January 2005 through June 2011, FAMS employees filed
                       161 MSPB appeals. Table 2 provides a breakdown of MSPB
                       appeals filed by calendar year.

                                  Table 2. MSPB Appeals Filed by FAMS Employees,
                                                   2005–2011
                              Calendar Year                Number of Appeals
                                    2005                           10
                                    2006                           23
                                    2007                           29
                                    2008                           26
                                    2009                           18
                                    2010                           38
                                   20111                           17
                            Total                                 161
                       1
                           Number of appeals through June 15, 2011.


                       Of the 109 cases that had received decisions, 103 (94%) were
                       decided in favor of the agency and 6 (6%) against the agency.
                       Twenty-five cases were settled prior to a decision, and 27 were
                       pending as of June 2011. In July 2011, the MSPB upheld the
                       agency’s removal of a Federal Air Marshal in a whistleblower
                       case.

                       Some Federal Air Marshals have also filed federal lawsuits in U.S.
                       District Courts alleging discrimination and retaliation. From
                       September 2005 to August 2011, 40 lawsuits alleging discrimination
                       by FAMS were filed in U.S. District Courts. The agency won
                       summary judgment or dismissal at the district court level in 22 of
                       the 40 cases. The complainant in one case appealed the district
                       court’s decision to summarily dismiss the case, and FAMS then
                       settled the case. Complainants in three other cases also have

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                      Page 4
                           appealed the district courts’ decisions; the appeals are pending. In
                           addition, 10 cases were settled and 8 are pending.

                           Discrimination, Retaliation, and Favoritism

                           Discrimination and retaliation are commonly used terms that when
                           used in legal contexts involve complex matters. Each requires
                           specific elements of evidence to meet its respective legal
                           thresholds. Federal employees and job applicants are protected
                           against discrimination in employment on the basis of race, color,
                           religion, sex (including pregnancy), sexual orientation, national
                           origin, age (40 or older), disability, or genetic information. In
                           addition, federal employers are required to provide a reasonable
                           workplace accommodation for individuals with disabilities and for
                           religious purposes.2

                           Employees are protected against retaliation for two categories of
                           activities—whistleblowing and exercising their right to engage in
                           certain protected activities. The whistleblower category protects
                           employees, former employees, and applicants for employment
                           against reprisal for lawfully disclosing information they reasonably
                           believe is evidence of a violation of law, rule, or regulation in the
                           workplace or by federal employees. It also protects against
                           reprisal for disclosing gross mismanagement, gross waste of funds,
                           abuse of authority, or substantial or specific danger to public health
                           or safety. The second category protects employees from reprisal
                           for exercising their right to engage in certain protected activities,
                           including the following:

                                    Filing an appeal, complaint, or grievance;
                                    Testifying for or assisting another in exercising such a
                                    right;
                                    Cooperating with or disclosing information to the Special
                                    Counsel or to an Inspector General; or
                                    Refusing to obey an order that would require the individual
                                    to violate a law.

                           Sometimes employees believe supervisors have discriminated or
                           retaliated against them by giving preferential treatment to other
                           employees based on biases or personal relationships. If a
                           supervisor gave an assignment to one employee over another
                           because of a personal friendship with that employee, rather than
                           basing the assignment on legitimate business factors such as

2
 See appendix D for a list of selected laws that protect employees and job applicants against employment
discrimination.

    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 5
                         expertise, workload, or performance, that would be favoritism.
                         Although what we refer to as favoritism in this report is not the
                         same as discrimination or retaliation, employees are still protected
                         against it; employment decisions must be based on objective
                         factors. An employee might interpret as favoritism what in reality
                         could be fair, merit-based behavior by a supervisor in a given
                         instance. Differentiating among employees based strictly on
                         performance would not be favoritism.

                         The Allegations

                         In January 2010, CNN reported allegations of misconduct, illegal
                         discrimination, and retaliation in the FAMS Orlando field office.
                         The reports included descriptions of an agency rife with cronyism;
                         age, gender, and racial discrimination; and unfair treatment in
                         promotions, assignments, and discipline. Also included were two
                         photographs of a “Jeopardy!”-style game board purportedly
                         created and displayed by supervisors in the Orlando field office.
                         One photo depicted the board as it appeared on display in the
                         office; the other was a re-creation of the board with additional
                         descriptions of what the maker believed the game board categories
                         meant. According to the recreated board, categories included
                         derogatory nicknames for a number of groups, including veterans,
                         females, African-Americans, Hispanics, and lesbian and gay
                         employees. After the allegations surfaced, three members of
                         Congress asked us to review allegations of illegal discrimination
                         and retaliation in the Orlando field office and throughout FAMS,
                         as well as the specific circumstances surrounding the creation and
                         use of the offensive game board in Orlando.


Results of Review
                Although individual employees may have experienced discrimination or
                retaliation, our review does not support a finding of widespread
                discrimination and retaliation within FAMS. However, employees’
                perceptions of discrimination, retaliation, and favoritism are extensive.
                Based on personal testimony and data we collected, the agency is facing a
                difficult challenge. Tension and limited trust between non-supervisory
                and supervisory personnel, poor communication, and limited transparency
                are not only damaging morale, but are also are at the center of fears of
                retaliation and perceptions that management is mistreating its workforce.

                We did not review individual allegations against supervisors brought to
                our attention by non-supervisory Federal Air Marshals. Determining
                whether one employee retaliated or discriminated against another is a

  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 6
              complex matter that may not be resolved until reviewed by the EEOC,
              MSPB, or a court of law. Beginning in the Orlando field office, we
              engaged FAMS employees at all levels and at multiple locations around
              the country to gain a better understanding of how the organization
              operates and obtain their insights into incidents that have fueled the
              allegations. One of our challenges was discerning the views of non-
              supervisory and supervisory Federal Air Marshals and FAMS’ senior
              leadership.

              We heard too many negative and conflicting accounts of events to dismiss
              them. Federal Air Marshals repeatedly portrayed their supervisors as
              vindictive, aggressive, and guilty of favoritism. At the same time, Federal
              Air Marshals occasionally appeared to take certain management actions
              out of context, such as feeling victimized by a policy decision that applied
              to the entire field office, failing to tell us what we would later discover
              was the “whole story,” or misinterpreting a management decision as
              harassment. Based on our discussions with senior leadership, supervisors,
              and non-supervisors, we believe many of the incidents described to us
              could have been avoided.

              We identified numerous factors that contributed to strained relations and
              became the basis for many allegations of management misconduct (see page
              12). We also conducted a survey of the entire FAMS workforce. The
              survey results echoed what we observed during our site visits (see page 50).
              One-quarter of respondents feel they have been discriminated against, 47%
              of respondents fear retaliation, and 55% believe favoritism is tolerated. The
              survey also revealed that most, but not all, supervisors disagree with non-
              supervisory Federal Air Marshals’ perceptions of these issues.

              These issues do not appear to have compromised the FAMS mission.
              Despite the concerns expressed in field offices, 76% of survey respondents
              either agreed or strongly agreed that people they work with cooperate to
              get the job done. However, these allegations add unnecessary distraction
              at all levels at a time when mission tempo is high and many in the agency
              are becoming increasingly concerned about workforce burnout and
              fatigue. Management may not have attained a sufficient degree of
              transparency yet to mitigate these perceptions, but it has not been for lack
              of effort. Management has been addressing workforce issues for several
              years, and continues to take a very proactive approach to solving them
              (see page 64).

              We are making 12 recommendations to address these issues. TSA
              concurred with all of the recommendations and is formulating plans to
              implement them. TSA provided written comments on our draft report.
              We evaluated TSA’s comments and made changes to the report where we


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                Page 7
              deemed appropriate. A copy of TSA’s response is included as
              appendix C.

     The Orlando Field Office “Jeopardy!” Board
              CNN reported that managers within the FAMS Orlando field office had
              created a game board styled after the television game show “Jeopardy!”
              The content of the game board, and a Federal Air Marshal’s interpretation
              of it in the form of a second game board containing more explicit
              descriptions, was extremely offensive and outraged many Federal Air
              Marshals, who alleged that field office managers were targeting them.
              Even though the incident occurred several years ago, news of it brought
              the agency under further scrutiny and ultimately resulted in changes within
              the Orlando field office.

              We assessed the circumstances surrounding the game board and the field
              office’s response. We conducted interviews of 66 personnel in Orlando
              and Tampa, including the SAC, every supervisor, one of the employees
              who created the game board, and numerous non-supervisory Federal Air
              Marshals. Based on their recollections, the news report appeared to
              surprise the field office’s senior managers. The game board existed only
              in Orlando, and was not the source of allegations of retaliation and
              discrimination in other field offices. Federal Air Marshals we interviewed
              in other field offices had limited knowledge of it.

              The game board was created by an SFAM, a Federal Air Marshal, and a
              civilian training officer in the training office. All three of these
              individuals have since left FAMS. The Federal Air Marshal, who later
              became an SFAM and is no longer a Federal Air Marshal, asserted that the
              game board was used only for several weeks in the spring of 2007, but
              another employee said it was on display frequently over many months and
              he last saw it in 2008. The Federal Air Marshal said he and a few
              others—some but perhaps not all members of the training staff—played
              the game and that it was used to make fun of those on the training staff,
              not others. We asked him to explain each of the game board’s categories.
              He could not remember some, and he provided relatively innocuous
              explanations for others. We interviewed three additional members of the
              training staff who were knowledgeable about the game board at the time it
              was displayed. One said the training staff used the game board to make
              fun of Federal Air Marshals they disliked, including African-Americans,
              gays and lesbians, and others who had filed complaints against the office.
              The other two said they saw the board but did not do anything about it.

              The former Federal Air Marshal who photographed the game board while
              it hung in the training office did not show it to members of Congress or
              the media until after FAMS removed him in December 2009. He said he

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                Page 8
              drew a second game board, which contained more patently offensive
              categories, to help the congressional staff understand the original game
              board’s categories better. He emailed images of both game boards to a
              few Federal Air Marshals in Orlando and Tampa. One or more of those
              Federal Air Marshals forwarded the email to others on staff. An
              unidentified Federal Air Marshal distributed paper copies to several
              Federal Air Marshals via office mailboxes. The recreated game board
              generated outrage, anger, and sadness. The removal of the Federal Air
              Marshal who drew the second game board was upheld by the MSPB.

              Most of the Orlando field office did not see the game board until it
              appeared in news media, because the training offices were usually locked
              and most Federal Air Marshals did not have access to them. Federal Air
              Marshals felt belittled by the game board because they interpreted one or
              more of the categories as representing groups to which they belonged. For
              example, some Federal Air Marshals said the category “Our Gang”
              referred to African-Americans. They and others who felt targeted by the
              game board said it provided more proof that management disliked them
              and it helped explain why they had not received promotions, awards, or
              international flight assignments, or had been disciplined unjustly. The
              training staff may have targeted people on the game board, but we found
              no evidence that using the game board resulted in passing individuals’
              names to other managers for harsh or inequitable treatment.

              We asked personnel in the field office how management responded to the
              situation. The SAC and the ASACs held a series of briefings about the
              game boards. Supervisors and non-supervisors confirmed that supervisors
              described the game board as an improper, sophomoric joke by training
              staff. However, accounts of managers’ attitudes while addressing the
              matter varied. According to many we interviewed, senior leaders focused
              on the facsimile game board and were angered that the second game board
              had been distributed to certain Federal Air Marshals. Managers felt they
              had responded appropriately. Non-supervisory Federal Air Marshals
              recalled being disappointed by the briefings because managers came
              across as insensitive for not expressing accountability, contrition, or
              appropriate outrage. Several Federal Air Marshals alleged that during one
              meeting a senior leader commented that 20% of the office staff were
              excellent, 20% were poor performers and always would be, and the other
              60% could go either way. If true, the comment was inappropriate and
              might suggest there was animosity toward Federal Air Marshals.

              This was not the first or only incident driving Federal Air Marshals’
              allegations of retaliation and discrimination in the Orlando field office.
              The Orlando field office was under scrutiny prior to the CNN report and
              the start of our review. In October 2009, TSA’s Office of Inspections
              (OOI) had begun investigating numerous allegations concerning

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                Page 9
              supervisors’ conduct. The basis for its investigation was allegations of
              misuse of authority or position. TSA OOI completed its Report of
              Investigation in March 2010 and provided it to TSA and FAMS senior
              leadership. In February 2010, TSA OOI began a follow-up investigation
              and completed its Report of Investigation in April 2010. TSA OOI
              substantiated the allegation that personnel in the Orlando field office
              training division played the game board. TSA OOI investigators briefed
              us and we reviewed their reports.

              In March 2009, TSA OOI conducted a Management Assessment Program
              inspection of the Orlando field office, covering the office’s activities for
              2008. Field offices undergo this inspection every 3 years. As part of the
              inspection, investigators conducted dozens of interviews in Orlando, and
              no one mentioned the game board to them.

              The environment in the Orlando field office, specifically working
              relationships between management and non-supervisory Federal Air
              Marshals, appeared tense. We noted much anxiety among its workforce,
              and the degree of animosity and mistrust that supervisors and non-
              supervisors described in interviews was unsettling. Although we spoke to
              some individuals who said they did not experience or know of any
              retaliatory actions in the Orlando and Tampa field offices, the majority of
              non-supervisory Federal Air Marshals expressed fears of retaliation, said
              they were retaliated against, or cited knowledge of retaliation against
              others. Many Federal Air Marshals said they feared retaliation from
              managers for speaking with us and requested anonymity. In addition, at
              their request we conducted numerous interviews at offsite locations
              because interviewees did not want to be seen talking to us. One Federal
              Air Marshal said the last time an Office of Inspector General (OIG) team
              was there, they thought management retaliated against them for their
              involvement in those matters. Another Federal Air Marshal believed
              management was out to “get” him and he would be suspended soon for
              something, but discipline records do not indicate that a suspension
              occurred.

              Very few Federal Air Marshals in the Orlando field office complained of
              discrimination. More Federal Air Marshals felt they had been, or feared
              being, retaliated against by one of the supervisors. Several Federal Air
              Marshals described the field office as a hostile work environment in which
              management focuses more on detecting mistakes or violations and
              punishing Federal Air Marshals rather than supporting and developing
              staff. The field office has a contingent of Federal Air Marshals who
              believe they work in a culture in which senior management and
              supervisors grant promotions, cash awards, pay increases, flight and
              ground-based assignments, and discipline on the basis of favoritism.


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 10
              In addition, Federal Air Marshals in Orlando raised concerns that are
              addressed later in the report, including the need for clear and transparent
              management decisions. For example, Federal Air Marshals complained
              about not receiving cash or time-off awards and in-position increases.
              Federal Air Marshals believe there is no logic to who gets them, and
              without receiving feedback on their own performance they perceive them
              to be prejudicial and given to the favorites, especially those in ground-
              based assignments. It is difficult for flying Federal Air Marshals to
              demonstrate their abilities because their actual job performance is seldom
              observed.

              Federal Air Marshals also alleged a need for transparency and constructive
              comments in the promotion process. There were allegations of individuals
              who were promoted because they were part of management’s clique even
              though they were not as qualified as others or had a record of discipline
              against them. Some Federal Air Marshals feel they are more qualified
              than some of those who were promoted and do not understand why they
              were passed over. Many Federal Air Marshals are disappointed after not
              being promoted. In addition, Orlando field office managers were the first
              to describe problems with the promotion process. Without a transparent
              process and feedback, Federal Air Marshals will continue to feel that
              favoritism plays a part in management’s decisions.

              We encountered many instances in which managers and Federal Air
              Marshals provided conflicting accounts of events and how the agency
              operates. Like the TSA OOI investigators, we found inconclusive results
              in several areas. However, the tension between supervisors and Federal
              Air Marshals was apparent. For example, we reviewed circumstances
              involving the investigation of a group of Federal Air Marshals for alleged
              voucher fraud. Many Federal Air Marshals claim the group was
              ostracized. One manager believes Federal Air Marshals avoided the group
              because of the ongoing investigation and not because they feared
              retaliation. In another case, a Federal Air Marshal believes he was
              coerced into not filing a complaint against a former supervisor.
              Management denied any coercion.

              While we were conducting our site visit, FAMS leadership met with the
              Orlando SAC at headquarters. In July 2010, the Orlando field office
              underwent some personnel changes. These included the SAC being
              reassigned to a position in headquarters. In August 2010, Director Bray
              met with the entire Orlando field office to address workforce issues. We
              also met with FAMS senior leadership to discuss the status of disciplinary
              action within the field office. The individuals who created the game board
              no longer work for FAMS. In January 2011, the former Orlando SAC
              retired from FAMS.


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 11
     Several Workforce Issues Have Led to Allegations
              In the past several years, numerous workforce issues have undermined
              relationships between managers and Federal Air Marshals, created tension
              and mistrust within the work environment, and led to many complaints
              and allegations against managers. These issues have spawned an “us
              versus them” mentality among non-managers, immediate managers, and
              senior managers. We noted different leadership styles and attitudes
              among managers and supervisors in the field offices we visited, but most
              acknowledged that relationships could be better and said they are trying to
              communicate better with the workforce to address these issues. At the
              same time, many Federal Air Marshals seemed unwilling or unable to
              adapt to changes or to acknowledge that senior management has made
              efforts to address work-life issues brought to its attention. The inability of
              both supervisors and Federal Air Marshals to “let go” of past incidents that
              were previously addressed was a recurring theme during our review.

              Non-supervisory Federal Air Marshals were far more vocal in their
              animosity toward their supervisors than supervisors were toward non-
              supervisory Federal Air Marshals. Numerous Federal Air Marshals told
              us they do not trust their supervisors, whether they feel they have been
              discriminated or retaliated against or not. Some Federal Air Marshals
              believe managers have not adapted adequately to their unique mission, in
              which the workforce spends the majority of its time outside the office.
              Some Federal Air Marshals harbor strong feelings against managers who
              worked previously at USSS. In their opinion, former USSS employees
              who are now FAMS managers have created their own elite culture within
              the organization that is not held accountable. One Federal Air Marshal
              opined that management has underestimated how much this has affected
              morale. According to our survey, 52% of the respondents believe senior
              managers in FAMS will not be held accountable if they engage in
              misconduct. When management does hold a senior manager accountable,
              it still might not mitigate perceptions because management cannot disclose
              disciplinary action taken in response to employee misconduct except in
              limited circumstances. TSA and FAMS leadership have held former
              USSS employees accountable. FAMS recently reassigned three high level
              officials who are former USSS employees.

              We observed that managers and supervisors also have opinions about
              Federal Air Marshals that illuminate their tense relationship. We
              concluded that supervisors feel they have a bad reputation among Federal
              Air Marshals because they must enforce the rules and make decisions that
              may be unpopular. Supervisors also seemed to wonder why Federal Air
              Marshals are so inclined to file complaints in response to actions that were
              management’s prerogative. Many supervisors denied knowledge of any
              discrimination or retaliation. We determined that supervisors share the

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 12
              belief that Federal Air Marshals call attention to themselves by not
              following the rules. They also feel that the brunt of Federal Air Marshals’
              criticism is directed toward them because they were promoted or hired
              into positions that Federal Air Marshals want. Managers and supervisors
              did not hide their views that TSA hired many Federal Air Marshals that it
              should not have hired.

              Other factors have also led Federal Air Marshals to complain or allege
              management misconduct. Due to the nature of the agency’s mission,
              Federal Air Marshals have limited interaction with their supervisors.
              Evaluating Federal Air Marshals based on such limited interaction is
              difficult and may lead to disagreements. We noted inconsistency and the
              need for greater transparency and expediency in the agency’s handling of
              employee misconduct. In addition, several other operational and
              administrative aspects of FAMS, such as how it administers ground-based
              assignments, promotions, and restriction from flying international
              missions, need more clarity.

              One field office we visited had an overwhelmingly different opinion about
              the nature of the relationship between management and Federal Air
              Marshals. Federal Air Marshals in this field office reported that they are
              comfortable bringing issues to management because there is an open door
              policy and good communication. Another Federal Air Marshal in this
              field office, where the SAC was a former USSS employee, said he was
              aware of the perceptions about USSS but that in his field office managers
              and Federal Air Marshals have open communications and everyone gets
              along. A manager in this field office also highlighted that people come
              first within the scope of the mission. Another manager acknowledged the
              “us versus them” problem and said that “it’s a tough hill to climb,” even
              though a lot of managers, who are believed to be responsible for the
              problem, have left. Some of these issues may dissipate over time as
              current Federal Air Marshals are promoted and become the agency’s new
              leaders. Since January 2009, all FAMS vacancies at the J- and K-band
              level have been filled by current FAMS employees, either as promotions
              or lateral reassignments.

                       Managers Do Not Interact Often With Federal Air Marshals,
                       Which Makes Trusting and Evaluating Them More Difficult

                       The nature of the job limits interaction between Federal Air
                       Marshals and management. Federal Air Marshals fly missions
                       several hundred days per year, and may be out of the office for half
                       or more of every month. Managers spend most of their time in the
                       office, which means they see only ground-based Federal Air
                       Marshals regularly. Flying Federal Air Marshals are usually in the
                       office only on their non-mission status (NMS) and training days.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 13
                       The limited interaction between flying Federal Air Marshals and
                       managers makes establishing trusting relationships more difficult.

                       Former FAMS Director Brown said the relationship between
                       Federal Air Marshals and managers comes down to trusting the
                       Federal Air Marshal. He noted that Federal Air Marshals are some
                       of the least supervised personnel in the entire law enforcement
                       community. Some Federal Air Marshals said the nature of the job
                       makes it difficult to maintain connections with colleagues and
                       asserted that team building and camaraderie do not exist.

                       Most Federal Air Marshals are professional and responsible, but
                       measuring actual performance is difficult. The autonomous nature
                       of the job and the limited interaction between Federal Air Marshals
                       and management make it difficult for managers to evaluate Federal
                       Air Marshals objectively for in-position increases, awards,
                       promotions, and ground-based assignments. We discuss these
                       issues further beginning on page 29. In some field offices, a 23-
                       point evaluation tool is used to complete Federal Air Marshals’
                       performance appraisals, although headquarters officials said this tool
                       has not been used since 2009. Many managers and Federal Air
                       Marshals told us they are frustrated with this tool because it is
                       difficult to use and does not adequately measure performance. For
                       example, the only quantifiable scores in the tool are physical fitness
                       and firearms scores. One manager explained how he dreads award
                       time because Federal Air Marshals get angry when they do not
                       receive an award. He also explained that it was difficult for a
                       Federal Air Marshal to demonstrate that he or she went “above and
                       beyond.” Similarly, Federal Air Marshals in multiple field offices
                       reported inconsistencies in how managers use the tool to make
                       competitive selections because some managers focus more heavily
                       on training and firearms scores than others.

                       The 23-point tool is subjective. For example, the Readiness for
                       Duty and the Operational Abilities sections of the tool include the
                       following elements:

                                Maintains a professional appearance and demeanor
                                Professionally interacts with airlines and federal, state, and
                                local agencies as necessary to accomplish specific mission
                                objectives
                                Identifies issues, reports discrepancies, and distinguishes
                                problem areas for resolution through appropriate measures
                                Provides realistic, logical, and prudent recommendations
                                and suggestions


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 14
                       Without proper guidance, supervisors may interpret each of these
                       elements differently. Rating some areas without physically
                       observing a Federal Air Marshal would not yield results indicative
                       of true performance. TSA developed new performance plans for
                       all personnel in FY 2010. The common belief among Federal Air
                       Marshals is that there are limitations to differentiating among
                       Federal Air Marshals when incidents do not occur on flights. As a
                       result of the subjectivity in performance evaluations, managers
                       tend to accentuate negative issues.

                       Our survey results indicated ambiguity about performance
                       standards:

                                Fifty percent believe the performance standards upon which
                                their rating is based are appropriate for the work they do;
                                Fifty-one percent believe their supervisor has enough
                                information concerning the performance of their duties to
                                accurately rate;
                                Forty-seven percent believe personal favoritism is not a
                                factor their supervisor considers when rating them;
                                Fifty-one percent believe their current performance
                                appraisal is an accurate reflection of their performance; and
                                Forty-six percent believe their supervisor provides
                                constructive suggestions to improve job performance.

                       The physical layout of a field office may affect how non-managers
                       perceive managers, to what extent managers interact with non-
                       managers, and the quality of those working relationships. For
                       example, in one field office, managers and administrative staff
                       occupy one side of the building and Federal Air Marshals and first-
                       line supervisors occupy the other side. Federal Air Marshals and
                       managers referred to upper management’s section as the “West
                       Wing.” Given the level of tension we noted in this field office, the
                       layout (which the Director acknowledged is not ideal) may be
                       compounding issues there, and the connotation should not be taken
                       lightly. In another field office, management offices could only be
                       accessed with cipher locks until the door was eventually removed.
                       In contrast, in another field office that is not experiencing these
                       issues, the SAC’s office is the first one visitors see when entering.

              Recommendation
                       We recommend that the TSA Administrator:




Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 15
                       Recommendation #1: Identify other means to obtain information
                       on Federal Air Marshals’ performance that could assist supervisors
                       when preparing evaluations.


              Management Comments and OIG Analysis

                       Management Comments to Recommendation #1

                       TSA concurred with the recommendation. TSA noted the
                       challenges in supervising and managing a largely mobile
                       workforce. TSA and FAMS believe an external assessment of the
                       issue would be beneficial to FAMS, and are in the process of
                       identifying an independent entity to assess the issue and make
                       recommendations for more effectively evaluating Federal Air
                       Marshals’ performance.

                       OIG Analysis

                       We concur with TSA’s response. In its action plan, TSA should
                       identify the assessment’s targeted completion date. We will close
                       the recommendation pending review of the results of the external
                       assessment and FAMS’ plan for implementing actions to assist
                       supervisors in evaluating their employees.

                       This recommendation is Resolved – Open.


                       Inconsistencies, Need for Transparency Permeate Handling of
                       Employee Misconduct Cases

                       Although TSA has a discipline policy that covers FAMS, it
                       appeared that senior field office managers interpret and apply
                       certain aspects of the policy differently. This has resulted in
                       inconsistencies across offices with respect to the types of conduct
                       or incidents that are reported as misconduct and the discipline
                       imposed for similar infractions, including when prior misconduct
                       incidents can be considered. Everyone we spoke with, regardless
                       of their position, agrees that it takes too long to reach a decision on
                       discipline.

                       Discrepancies in the application of discipline have affected morale
                       and contributed to tension between Federal Air Marshals and
                       management. Some Federal Air Marshals believe management
                       uses the discipline process to “go after” Federal Air Marshals they
                       do not like, rendering them ineligible for raises, awards, or

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 16
                       promotions. In addition, discipline activity can cause a Federal Air
                       Marshal’s removal from the international flight schedule for
                       varying lengths of time. We heard repeatedly from Federal Air
                       Marshals who said they constantly felt they were “walking on
                       eggshells” to avoid being “written up for something.” TSA has
                       implemented changes to the process of handling misconduct cases;
                       however, these changes were not in place during our fieldwork.
                       Therefore, much of our discussion of the discipline process that
                       follows describes the process in place when we visited offices in
                       the field.

                       Discrepancies Across Field Offices

                       We heard complaints regarding disparate treatment of similar
                       incidents that field offices cite for possible discipline. We also
                       heard that field offices do not notify headquarters consistently for
                       the same types of incidents.

                       Addressing an incident of employee misconduct begins at the field
                       office level. In most cases, the employee’s immediate supervisor
                       reports the incident to the SFAM for Administration, who is the
                       designated proposing official for the field office, unless the
                       offending employee is an SFAM or higher ranked official. The
                       proposing official then reviews the facts of the incident, obtains a
                       statement from the involved employee(s), and prepares an incident
                       tracking report to document the incident. Until recently, the incident
                       tracking report usually was forwarded to the Office of Professional
                       Accountability (OPA) at FAMS headquarters, which was
                       responsible for facilitating the misconduct process. OPA also
                       ensured that all required TSA offices were involved as necessary,
                       including the Office of Employee Relations, Office of Chief
                       Counsel, and field office management. The TSA OOI or DHS OIG
                       Office of Investigations investigates incidents of serious
                       misconduct. If discipline was considered, OPA guided the
                       decisionmaking, but ultimately, the field office proposed and
                       decided the form and amount of discipline. Not all incidents
                       reported to OPA led to discipline.

                       Field office management said they use the standards of behavior
                       outlined in FAMS policy OMS 3700 as a guide in determining
                       when to report an incident as misconduct. However, some
                       managers interpret the policy more strictly than others and may
                       report more incidents, resulting in differences across field offices
                       in the types and number of incidents of alleged misconduct
                       reported to OPA. Some said they referred all incidents to OPA,
                       while others said they do not because they take other factors into

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 17
                       consideration, provide warning(s), or offer general leniency for
                       first-time offenders. Specifically, one field office sent
                       approximately 90% of its incident tracking reports to OPA, and the
                       remainder were maintained at the field office without further
                       action. All policy violations in another field office are recorded in
                       an incident tracking report, but not all incident tracking reports
                       were sent to OPA because extenuating circumstances and past
                       work performance are considered first. Management in a third
                       field office said they tended to give out many warnings to
                       employees before referring a matter to OPA. By contrast, a fourth
                       field office forwarded all discipline cases to OPA.

                       We heard complaints in some field offices that management was
                       targeting Federal Air Marshals for punishment rather than
                       supporting them. In one field office we visited, managers had
                       clearly found the right balance between administering discipline
                       and supporting Federal Air Marshals by attempting to address
                       matters locally. In another example, incident tracking reports were
                       prepared and forwarded to OPA for Federal Air Marshals in some
                       field offices who reported for a flight 5 to 10 minutes late even
                       when they did not miss the flight and there was a justified reason,
                       such as being delayed by a car accident on the way to the airport.
                       In another office, we were told that such instances usually result in
                       verbal counseling without documenting the incident.

                       Federal Air Marshals also alleged that their field office would
                       forward incident tracking reports to OPA for some Federal Air
                       Marshals but not others who committed the same infraction. For
                       example, two Federal Air Marshals in the same office made similar
                       mistakes on travel vouchers and received higher reimbursements
                       then they should have. One was allowed to repay the amount and
                       the issue ended; the other also repaid the amount but was then the
                       subject of an extensive investigation.

                       Following changes to the discipline process, which are discussed
                       further on page 25, incident tracking reports are forwarded to TSA
                       OOI’s Management Inquiries Unit (MIU). In addition, the FAMS
                       entity submitting the incident tracking report will now ensure that
                       all required TSA offices are involved as necessary, including the
                       Office of Employee Relations and Office of Chief Counsel. This
                       function will no longer be facilitated by a central headquarters
                       office such as MIU.

                       Clarifying the types of incidents that should be reported as
                       misconduct to MIU should improve consistency and equity across
                       offices. Field offices need guidance on the types of incidents that

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 18
                              should be reported to MIU in an incident tracking report and
                              should take steps to ensure that misconduct incidents are reported
                              consistently. In addition, TSA should provide guidance regarding
                              the TSA offices required to be involved in the discipline process.

                              Determining the Discipline for Employee Misconduct

                              We heard complaints at all levels regarding inconsistency and
                              differences in the severity of the final discipline for employee
                              misconduct. Many of the criteria and rules for disciplining a
                              federal employee arise from an MSPB decision, Douglas vs.
                              Veterans Administration.3 That case established 12 criteria—
                              commonly referred to as “Douglas factors”—to be considered in
                              determining an appropriate penalty to impose for employee
                              misconduct.4 TSA’s penalty factors are based on the Douglas
                              factors. Among the factors to be considered are an employee’s
                              past disciplinary record and the consistency of the penalty with
                              those imposed upon other employees for the same or similar
                              offense. We heard numerous complaints regarding how TSA and
                              FAMS considered these two factors in determining the form and
                              amount of discipline.

                              TSA uses a system of progressive discipline wherein the least
                              severe penalty for an offense is assessed first, followed by
                              increasingly harsher penalties until the performance or conduct is
                              corrected or the employee is removed. Often the first action taken
                              is a letter of counsel. The letter notifies the employee that future
                              incidents will result in more severe action. According to TSA
                              policy, letters of counsel may be retained in the employee’s local
                              personnel file indefinitely. Policy does not indicate how long
                              managers may consider a prior letter of counsel or how similar the
                              prior incident must be when determining subsequent discipline. As
                              a result, field offices implemented their own practices.

                              Management at the field offices we visited differed in how long
                              they would consider a prior letter of counsel when determining
                              discipline for a subsequent incident and what types of prior
                              incidents they would consider. In some field offices, if an
                              employee had no new incidents during the year after receiving a
                              letter of counsel, the letter of counsel would not be considered if a
                              new incident occurred. In other field offices, managers would
                              factor in a prior letter of counsel for varying lengths of time if the
                              new incident was similar to or the same as the prior incident.

3
    5 MSPR 280 (1981).

4
    See appendix E for a list of the factors to be considered in determining discipline. 


      Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                      Page 19
                       Another office considers prior letters of counsel indefinitely,
                       regardless of similarity. A senior manager in one field office said
                       they can consider infractions from an employee’s first day with the
                       agency, whether or not the infractions are related.

                       We concur with OPA officials’ suggestion that FAMS needs to
                       provide guidance regarding a timeline for consideration of prior
                       offenses, particularly how long prior corrective actions, such as
                       letters of counsel, or discipline actions, such as letters of
                       reprimand, can be considered and for which types of incidents.
                       For example, suppose a Federal Air Marshal received a letter of
                       counsel for a missed mission 5 years ago. Assuming no further
                       misconduct issues, should that event be considered a prior offense
                       for purposes of determining discipline if the Federal Air Marshal
                       missed a mission today? What if the current offense was failing to
                       pay a government travel card bill instead? The mitigated penalty
                       range for each of these offenses includes a letter of counsel, and
                       the base penalty range for each starts with a letter of reprimand.
                       Although every misconduct case is considered individually, all
                       other factors being equal, management in the field offices we
                       visited would differ in how they considered the 5-year-old letter of
                       counsel, potentially resulting in a different action being taken by
                       each office. Guidance on this issue would ensure greater equity
                       within FAMS. FAMS, the TSA Office of Professional
                       Responsibility (OPR), and the TSA Office of Human Capital
                       (OHC) should work together to provide guidance and clarification
                       regarding how long prior corrective or discipline actions should be
                       considered and for which types of incidents.

                       Efforts To Ensure Similar Discipline for Similar Infractions

                       To ensure that discipline was issued consistently across field
                       offices, OPA provided the proposing official with a range of
                       possible penalties for an infraction. OPA officials said they used
                       their database to review the employee’s prior discipline and
                       determine a possible range of penalties. However, they often
                       relied on institutional knowledge to identify possible penalties for
                       similar infractions rather than solely relying on the database. In
                       some cases, OPA conferred with the TSA Office of Employee
                       Relations and Office of Chief Counsel to determine an appropriate
                       penalty.

                       Once OPA provided the penalty range to the proposing official,
                       that official determined what discipline to propose. This usually
                       occurred in consultation with OPA, but ultimately the proposing
                       official had the discretion to select a penalty within the range.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 20
                           Each field office we visited maintains records of discipline it
                           issued and consults those records to ensure consistency for the
                           same or similar offense.

                           Given the proposing officials’ discretion, a proposing official in
                           one field office could select less severe penalties while a proposing
                           official in another field office could select harsher penalties for the
                           same offense. An OPA official said some field offices tend to
                           select more severe penalties than others. Allowing selection
                           anywhere in the penalty range increases the possibility of penalties
                           being issued inconsistently across field offices for similar
                           infractions. It also provides the opportunity for field office
                           management to favor some employees by imposing less severe
                           discipline, target others with more severe discipline, or use
                           discipline to retaliate against employees.

                           According to our survey, employees perceive this to be the case.
                           Only 15% of respondents felt disciplinary actions are applied
                           consistently for similar offenses, whereas 57% felt the actions are
                           not applied consistently. Only 16% of respondents overall felt
                           disciplinary actions are at the appropriate level of severity for a
                           given offense, and 49% felt they are not. The remainder answered
                           that they were neutral or did not know.5 In addition, 43% of
                           respondents felt disciplinary actions are used as a tool to retaliate
                           against employees (see figure 1).6 It is likely, and even reasonable
                           to assume, that because of privacy rules, respondents are not fully
                           informed of the agency’s reason for disciplining an employee or
                           the basis upon which a penalty is assessed.
                                        Figure 1: Disciplinary actions are not used as a tool
                                           to retaliate against employees, by pay band.
                                                      Positive        Neutral        Negative

                                        All Respondents          22              26                   43
                                Pay bands K, L, and TSES                        63                    15    15
                                              Pay band J                 45                     27         20
                                           Pay bands D-I         17           26                     46


                           We were unable to use OPA’s database to determine whether TSA
                           or FAMS issued comparable penalties for common infractions. The

5
  See appendix E for definitions of the survey terms “positive,” “neutral,” and “negative,” which are used in 

figures throughout this report.

6
  Percentages in figure 1 and subsequent figures may not add up to 100% because results for respondents 

who selected “do not know” are not included. 


    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                   Page 21
                       database allows only one allegation to be selected and does not
                       track the allegation upon which the final discipline is based. In
                       addition, without manually reviewing the note fields for each
                       individual database record, we could not determine whether
                       mitigating or aggravating factors were part of the discipline
                       decision.

                       To generate reliable comparisons in a timely manner, the database
                       should be capable of tracking and searching multiple allegations
                       for each case, as well as the allegation(s) upon which the final
                       disposition was based. In addition, including whether mitigating
                       or aggravating factors such as prior discipline were present would
                       help establish comparable penalties. FAMS should be able to track
                       disciplinary data consistently and comprehensively.

                       Discipline Process Should Be Expedited

                       The length of time it takes to reach a decision regarding discipline
                       is a source of frustration and tension at all levels of FAMS, and has
                       become a priority for TSA senior leadership. Numerous Federal
                       Air Marshals and managers complained about how long it takes to
                       complete the disciplinary process. Many employees told us they
                       believe management is retaliating against them by keeping
                       discipline cases open for so long, thus keeping them ineligible for
                       in-position increases, awards, and promotions. The issue is
                       compounded because many Federal Air Marshals do not fully
                       understand the discipline process or TSA policies.

                       Current TSA policy regarding in-position increases and awards do
                       not prohibit employees with a discipline action in the previous 12
                       months from receiving either. However, policy indicates that
                       management should assess the severity of the event that led to the
                       discipline, the type of discipline, the length of time since the event
                       or discipline, and the performance and conduct of the employee
                       since the event before deciding whether to grant an in-position
                       increase or award. TSA policy does not specifically prohibit
                       eligibility when there is a pending disciplinary matter. However,
                       managers and Federal Air Marshals in the field said that, in
                       practice, FAMS employees are ineligible for in-position increases,
                       awards, and promotions in the fiscal year in which they have a
                       pending discipline matter. When the matter spans 2 fiscal years, it
                       may render the employee ineligible for a favorable action in either
                       year. Managers in some field offices we visited recognized this as
                       a problem because in-position increases and awards usually are
                       distributed once a year and employees are only supposed to be
                       ineligible for 1 year. Because TSA policy does not address

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 22
                       eligibility when the discipline process carries over fiscal years,
                       field offices have created local policies. One field office starts the
                       year of ineligibility on the date of the incident; another starts it on
                       the date of final disposition of the discipline.

                       OPA officials told us that employees must remain ineligible for
                       personnel actions such as in-position increases, awards, and
                       promotions while discipline is pending because a favorable
                       personnel action would indicate confidence in the employee. Since
                       the discipline process could result in an adverse action against the
                       employee, the agency could have difficulty demonstrating before
                       the MSPB its lack of confidence in the employee if it has
                       recognized the employee with an in-position increase or an award.

                       Field offices create inconsistency by implementing different local
                       policies regarding an employee’s period of ineligibility. In
                       addition, doing so could make it difficult for the agency to defend
                       its decision regarding discipline in future legal matters. Field
                       offices need a policy defining when employees are ineligible for
                       favorable personnel actions when there is a pending disciplinary
                       matter that crosses fiscal years. The policy should specify when
                       the period of ineligibility begins and ends.

                       Many offices agree that the discipline process needs to be more
                       expedient, but opinions vary as to why it is slow. Accelerating the
                       process has been a challenge for TSA and FAMS. Current policy
                       does not establish timelines for executing the various portions of
                       the discipline process. We heard complaints that TSA OOI
                       investigations take too long to complete, and the report of
                       investigation must be completed and delivered to FAMS before a
                       decision to discipline an employee is made. We also heard
                       complaints that FAMS takes too long to determine the discipline to
                       be imposed after receiving the report of investigation. In addition,
                       we heard that delays occur because the Office of Chief Counsel
                       must perform a legal sufficiency review of the matter before
                       FAMS can propose or issue discipline to an employee. Employee
                       requests for extensions to respond to parts of the process can also
                       delay a final disposition.

                       When an incident involves conduct or behavior that could
                       jeopardize an employee’s security clearance, the matter is referred
                       to the TSA Office of Security. Many employees believe the
                       security clearance review process is part of the discipline process,
                       but the two processes are separate. Both processes usually take
                       place concurrently until the Office of Security decides whether to
                       revoke an employee’s clearance. When this happens, FAMS stops

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 23
                       the discipline process because without a security clearance, a
                       Federal Air Marshal is unable to work. If a Federal Air Marshal
                       successfully appeals the revocation, FAMS restarts the discipline
                       process once the security clearance has been reinstated. This
                       process can be confusing for Federal Air Marshals because they
                       feel they have already been punished by not being able to work
                       during the period when their security clearance was revoked. We
                       did not assess the average length of time it takes to conduct
                       security clearance reviews, but we were told it is not unusual for
                       the process, which may include an appeal to the DHS Security
                       Appeals Board, to take more than a year.

                       We attempted to determine which stages of the discipline process
                       may be delaying the overall process. Different TSA offices track
                       different portions of the process, but no office is tracking all
                       stages. For example, TSA OOI tracks information on referrals it
                       receives and cases it investigates by case agent, case number,
                       region, and subject name but not by date. Employee Relations
                       officials told us they have used multiple systems to track discipline
                       over the years, and data are missing for some periods. In addition,
                       they said that not all FAMS discipline would be entered in their
                       system.

                       Although OPA was still in the process of backfilling fields with
                       old records, its database was the most comprehensive. We
                       reviewed a random sample of 2,676 records from OPA’s database,
                       dated from September 2005 to February 2011. OPA officials told
                       us they evaluated cases opened between January 2009 and January
                       2011, and the average duration from case opening to issuance of
                       discipline was 118 days. We did not review the methodology OPA
                       used in its evaluation. We determined the following:

                                Of 2,038 completed cases that had a case open date and a
                                final disposition date in the database, the average case
                                duration was 145 days.
                                The 497 cases that were pending in the database on
                                February 2, 2011, had been open an average of 309 days.

                       Of the 2,676 records we reviewed, 347 were investigated by TSA
                       OOI. Although there is no written policy stipulating the amount of
                       time for completing an investigation, TSA OOI requires a report of
                       investigation to be submitted within 120 days. We determined the
                       following:




Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 24
                                Of the 143 records with both TSA OOI case acceptance and
                                report of investigation dates, it took TSA OOI an average
                                of 184 days to complete its report of investigation.
                                Of 151 records with both TSA OOI reports of investigation
                                and OPA receipt dates, it took TSA OOI an average of 39
                                days to send the report to OPA.

                       We did not determine how long it takes to perform a legal
                       sufficiency review for disciplinary decisions. Neither OPA nor
                       Employee Relations tracked the amount of time that a given case
                       was under review by the Office of Chief Counsel. We did not seek
                       further clarification from TSA Office of Chief Counsel about how
                       it performs legal sufficiency reviews or how long it takes to
                       perform them.

                       TSA should develop a comprehensive system to track all stages of
                       the discipline process and movement of individual cases through
                       the process. OHC, OOI, and OPR are working together to develop
                       a shared database to track for all misconduct cases from opening
                       through actions taken. The database will be located in OHC. TSA
                       should ensure that all offices with responsibilities in the discipline
                       process update the database in a timely manner.

                       Discipline Process Is Changing but Details Need To Be Completed

                       In September 2010, TSA established OPR to ensure that
                       allegations of misconduct are thoroughly investigated and
                       discipline is appropriate and fair across TSA, including FAMS. As
                       a result, OPA was dissolved from FAMS in February 2011. TSA
                       OOI’s MIU assumed OPA’s functions. Under a new TSA policy,
                       OOI will investigate all allegations of misconduct against all
                       Federal Air Marshals and other FAMS employees at the K-band
                       level or above. OPR will adjudicate all disciplinary matters
                       involving these employees. This change is designed to ensure that
                       independent offices are responsible for investigating and
                       adjudicating these cases. We believe this is a positive
                       development because it removes this responsibility, as well as
                       possible bias, from field offices.

                       OPR officials said they will receive all TSA OOI reports of
                       investigation involving FAMS employees. OPR plans to
                       communicate directly with TSA OOI about exactly what it needs
                       in an investigation to minimize the duration of future investigations.
                       Upon receipt of the report of investigation, OPR will request
                       comments from the employee’s field office regarding penalty
                       factors. The field offices will be expected to provide this

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 25
                       information within 14 days so that OPR can propose discipline in
                       the case within 30 days of receiving TSA OOI’s report of
                       investigation. The employee then will have 7 days to respond to
                       the proposed discipline, and OPR will issue its final decision
                       regarding discipline within another 21 days. Extensions could
                       occur in extraordinary circumstances.

                       OPR officials will act as the proposing or deciding officials in all
                       FAMS discipline cases. According to the OPA database, OPA
                       received 723 incident tracking reports in FY 2010 for FAMS
                       employees. OOI accepted 99 of the 723 reports for investigation.
                       Of the remaining 624, the primary offense against the employee in
                       601 of them could result in informal or formal discipline; however,
                       each would have to undergo some sort of review or investigative
                       process to determine what action should be taken. Under the new
                       TSA policies, all such cases will be referred to OOI for
                       investigation and then forwarded to OPR for adjudication. Both
                       OOI and OPR are reviewing how best to carry out these
                       responsibilities, given available resources. OPR will work with
                       OOI and FAMS to clarify which types of incidents constitute
                       potential misconduct and thus need to be referred to OOI.

                       TSA published a Table of Offenses and Penalties in September
                       2011, which includes offense descriptions, citations to relevant
                       policies, and recommended penalties for each penalty range. The
                       penalties fall under three options: a base penalty range, a penalty
                       range when mitigating factors are present, and a penalty range
                       when aggravating factors are present. OPR and OHC worked with
                       many offices within TSA, including FAMS, to ensure that the most
                       common infractions are included in the table and to generate
                       appropriate penalties for each. We applaud OPR’s decision to
                       collaborate directly with FAMS rather than rely on current
                       discipline databases to determine appropriate penalties. OPR
                       officials expect, and we agree, that the table, which is available to
                       all TSA employees, will increase transparency in the disciplinary
                       process and consistency in adjudications. This is a critical
                       development as it relates to Federal Air Marshals’ allegations
                       regarding discipline. There is near unanimous support for OPR
                       across FAMS. OPR is working with OHC and OOI to generate a
                       shared database that will track a case through each stage of the
                       discipline process.

              Recommendations
                       We recommend that the TSA Administrator:


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 26
                       Recommendation #2 (Revised): Provide guidance regarding the
                       types of incidents the Federal Air Marshal Service should and
                       should not report to the Office of Inspection in an incident tracking
                       report.

                       Recommendation #3: Provide additional guidance and
                       clarification regarding employee ineligibility for favorable
                       personnel actions when there is a pending disciplinary matter that
                       spans performance cycles, including when the period of
                       ineligibility begins and ends. The guidance should be
                       disseminated to all Federal Air Marshal Service personnel.

                       Recommendation #4: In consultation with the Director of the
                       Federal Air Marshal Service, the Assistant Administrator of the
                       Office of Professional Responsibility, and the Assistant
                       Administrator of the Office of Human Capital, provide guidance
                       and clarification regarding how long prior corrective or discipline
                       actions should be considered and for which types of incidents.
                       Current training to supervisors and the workforce concerning
                       conduct should be assessed and additional training provided as
                       necessary.

                       Recommendation #5: Develop a comprehensive system to track
                       all stages of the discipline process.


              Management Comments and OIG Analysis

                       Management Comments to Recommendation #2

                       TSA concurred with the recommendation. In its response, TSA
                       indicated that under new policies, OOI will investigate all
                       allegations of misconduct involving all Federal Air Marshals and
                       OPR will adjudicate them. In light of these developments, TSA
                       suggested that the recommendation be revised. TSA stated that
                       OOI, OPR, and OLE/FAMS will work to provide guidance
                       regarding the types of incidents the Federal Air Marshal Service
                       should and should not report to OOI in an incident tracking report.

                       OIG Analysis

                       We concur with TSA’s response and have revised the
                       recommendation. We also made changes to the draft report to
                       reflect the new procedures. In its action plan, TSA should discuss
                       its strategy and timeline for providing guidance regarding the types
                       of incidents to be reported to OOI.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 27
                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #3

                       TSA concurred with the recommendation. FAMS and OHC are
                       working together to develop more detailed guidance regarding
                       these issues. However, TSA said definitive timelines cannot be
                       given regarding employee ineligibility when there is a pending
                       disciplinary matter because it would limit supervisors’ ability to
                       manage issues on a case-by-case basis.

                       OIG Analysis

                       Although TSA indicated concurrence with the recommendation, its
                       response indicates only partial concurrence. Current policy states
                       that an in-position increase may not be appropriate if an employee
                       has had disciplinary action within the last 12 months, but it does
                       not indicate eligibility during the period while the disciplinary
                       matter is pending. We believe TSA should be able to provide
                       general guidance regarding eligibility during this period to improve
                       consistency across field offices without limiting a supervisor’s
                       ability to manage favorable personnel actions on a case-by-case
                       basis. We will close this recommendation pending receipt and
                       review of this guidance.

                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #4

                       TSA concurred with the recommendation. OHC, OPR, and FAMS
                       are collaborating to develop additional guidance and clarification
                       to supervisors. In addition, they will assess and issue training
                       materials and reminders on conduct.

                       OIG Analysis

                       We concur with TSA’s response. In its action plan, TSA should
                       provide OIG with copies of the guidance and training materials.

                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #5

                       TSA concurred with the recommendation. In April 2011, TSA
                       created an Integrated Project Team with representatives and

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 28
                       subject matter experts from OHC, OPR, OOI, and the Chief
                       Information Office to create a common database to track all phases
                       of the disciplinary process. OPR’s initial requirements were added
                       to the existing Employee Relations Case Management Tracking
                       system and implemented in June 2011, with additional functionality
                       implemented in October 2011. OOI’s functional requirements
                       were approved in September 2011, and the functionality for OOI
                       and the process flow between the offices will be developed, tested,
                       and implemented throughout the remainder of 2011.

                       OIG Analysis

                       We concur with TSA’s response. Our review of the Employee
                       Relations Case Management Tracking system raised concerns
                       regarding the use of this database to track the discipline process.
                       Although the database appeared to be capable of tracking a case’s
                       movement through different phases and offices, users often did not
                       utilize these capabilities. For example, a case may have been sent
                       to the Office of Counsel for review, but that field in the database
                       was not completed. TSA should ensure that processes exist and
                       responsibility is designated for keeping the database complete and
                       up-to-date. In addition, given that multiple offices likely will be
                       responsible for updating different fields within the database,
                       responsibility for overseeing the database should be designated to
                       ensure that all phases of the disciplinary process are consistently
                       entered into the database. We will close this recommendation
                       upon receipt and review of the expanded functionalities and
                       process flows of the database, as well as guidance regarding
                       responsibilities for its updating and oversight.

                       This recommendation is Resolved – Open.


                       FAMS Needs More Transparency and Consistency in the
                       Workplace

                       In addition to limited interaction and administration of discipline,
                       other aspects of agency decisionmaking have contributed to
                       Federal Air Marshals alleging favoritism by senior and immediate
                       managers. Favoritism was alleged in selection for international
                       missions, ground-based assignments, in-position increases and
                       awards, promotions, the Senior Federal Air Marshal program, and
                       leave. Figure 2 shows respondents’ perceptions of favoritism in
                       some of these areas.



Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 29
                                          Figure 2: Personal favoritism is not a factor.
                                                    Positive    Neutral            Negative

                                  Workplace Overall       22             20               55
                                              Ratings               48              17         31
                              International Missions           37             20          29
                               Ground Assignments              31             26          24
                                             Awards        25            21               47
                                               Raises     23         17                  55
                                         Promotions      15         19                   61



                       Aside from leave, two factors make decisionmaking in these areas
                       more challenging for managers. First, it is difficult to differentiate
                       Federal Air Marshals by seniority because they are generally equal
                       in tenure, having been hired at about the same time. Second, the
                       nature of the job makes it difficult for Federal Air Marshals to
                       differentiate their accomplishments from those of their peers. In
                       the absence of clear guidance for those programs requiring a
                       selection process, field office managers have created their own
                       criteria. After the field office manager selects an individual for a
                       ground-based assignment, award, or Senior Federal Air Marshal
                       position, the other Federal Air Marshals seldom receive
                       information as to why they were not selected.

                       Ground-based Assignments

                       FAMS has several ground-based positions that support all aspects
                       of its mission. These positions include scheduling missions,
                       training and managing training, and liaising with local airports. In
                       addition, Federal Air Marshals can be assigned to Visible
                       Intermodal Prevention and Response (VIPR) teams, which provide
                       security nationwide for mass transit systems, or to a Joint
                       Terrorism Task Force led by the Federal Bureau of Investigation.

                       Each field office has only a few ground-based positions. Although
                       headquarters has provided guidance for filling these positions, field
                       office managers have discretion in determining the criteria used for
                       selecting Federal Air Marshals to fill the positions and the duration
                       of the ground-based assignment. Our survey showed that 42% of
                       respondents believed the criteria for being selected for ground-
                       based assignments are clearly communicated (see figure 3).

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 30
                                    Figure 3: The criteria for being selected for ground-based
                                      assignments are clearly communicated, by pay band.
                                                      Positive   Neutral          Negative

                                        All Respondents             42                16          31

                                Pay bands K, L, and TSES                     66                   7 7

                                              Pay band J                52                   16    17

                                           Pay bands D-I           39                17           33


                           The field offices we visited conducted open competitions. Federal
                           Air Marshals must submit an application and be interviewed by a
                           selection panel. The SAC makes the selection decision. Federal
                           Air Marshals have concerns that managers consider factors other
                           than merit when making these selections. Many Federal Air
                           Marshals described the relationship between Federal Air Marshals
                           in ground-based positions and management as a system based on
                           personal friendships, saying that being selected for a position
                           depends on whether management likes an individual.

                           Managers said they consider the qualifications of the employee,
                           including shooting and physical fitness scores, prior experience,
                           computer skills, and how well employees present themselves in
                           interviews. In response to our survey, greater percentages of
                           senior managers and J-band supervisors indicated that those
                           selected for ground-based positions meet the stated criteria,
                           although J-band supervisors’ responses were not as positive.7
                           Overall, 31% of respondents believe that employees selected meet
                           the stated criteria (see figure 4).




7
  TSA uses an “SV” or Shared Value grading system, which is a system of discrete grades with pay ranges
that differ from “GS” or General Schedule pay ranges. Grade levels are identified by a letter. Grade levels
SV-G to SV-K roughly equate to GS-11 to GS-15, respectively.

    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                   Page 31
                                   Figure 4: Those employees selected for ground-based
                                    assignments meet the stated criteria, by pay band.
                                                  Positive   Neutral        Negative

                                    All Respondents          31              26             24
                            Pay bands K, L, and TSES                   62                   12 6
                                          Pay band J              47                   24        10
                                       Pay bands D-I         27             27              26



                       In March 2011, headquarters emailed guidance to the field offices
                       informing SACs that they may determine the length of the ground-
                       based assignment as long as it does not exceed 36 consecutive
                       months. If ground-based assignments exceed 36 consecutive
                       months, the SAC must submit a memo to the Regional Deputy
                       Assistant Director to explain the special circumstance.
                       Additionally, a Federal Air Marshal who completes a 36-month
                       ground-based assignment will not be eligible for another ground-
                       based assignment until after the Federal Air Marshal completes
                       12 consecutive months on mission flight status. More specifically,
                       headquarters informed all SACs that VIPR assignments can be
                       extended to a maximum of 1 year to alleviate the shortage of
                       volunteers for the program. Also, according to an announcement,
                       Joint Terrorism Task Force assignments should generally not
                       exceed 36 months.

                       Many Federal Air Marshals expressed concerns that the same
                       individuals occupy positions too long and that employees move
                       directly from one ground-based position to another. However, this
                       did not appear to be the case everywhere. Many Federal Air
                       Marshals told us they are not interested in ground-based positions
                       because they prefer to fly to earn extra per diem, or they do not
                       want to spend time in the field office on a regular basis. This
                       results in a smaller pool of applicants. Managers acknowledged
                       that the same employees often apply for each new position that
                       opens, but it appeared to be less of a problem for managers in large
                       field offices. At the time of our fieldwork, one office was
                       weighing whether to cease asking Federal Air Marshals to apply
                       for ground-based positions and begin assigning Federal Air
                       Marshals to them. Another field office rotates Federal Air
                       Marshals in and out of operations and training to provide more
                       ground-based opportunities and ensure a smoother transition when
                       rotations occur. An SFAM said that rotations were helpful because
                       “bringing in new air marshals helps to keep things fresh.”


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 32
                       In-Position Increases and Awards

                       An in-position increase is a raise to an employee’s basic pay rate,
                       with no change in position or pay band. In-position increases are
                       to be awarded to the top-performing employees in a fair and
                       equitable manner. Awards, which can either be cash or time off,
                       are made to recognize an employee’s work contributions. Federal
                       Air Marshals claim they do not know the criteria for in-position
                       increases and awards and that it is difficult for them to demonstrate
                       their performance. Managers acknowledge that it is difficult to
                       differentiate and quantify Federal Air Marshals’ performance.
                       Selection and distribution practices vary among field offices,
                       which fuels Federal Air Marshals’ perceptions of favoritism.

                       Federal Air Marshals spend most of their time outside the office.
                       Therefore, it is difficult for them to showcase their abilities
                       because of limited interaction between them and their supervisors,
                       as well as limited quantitative performance indicators. It is equally
                       challenging for managers to rate them. It is a common perception
                       among Federal Air Marshals, as well as some managers, that
                       Federal Air Marshals in ground-based assignments are more likely
                       to receive recognition because they have more frequent contact
                       with their supervisors. Some supervisors emphasize training,
                       physical fitness and weapons scores, and writing and
                       communication skills; some also consider sick leave use. Many
                       Federal Air Marshals believe supervisors focus on negative issues
                       to differentiate between Federal Air Marshals. Indeed, managers
                       repeatedly cited discipline as a key determinant of ineligibility.
                       Multiple Federal Air Marshals confirmed this practice.

                       Many Federal Air Marshals said they do not know the selection
                       criteria for in-position increases or awards and believe the process
                       is not transparent. Headquarters officials said policies and
                       procedures for who should receive in-position increases or awards
                       are set forth in TSA Management Directives 1100.53-8, with
                       accompanying handbook, and 1100.45-1, respectively. Managers
                       in the field reported that headquarters assigns selection criteria
                       based on 10 areas that have changed annually. Managers in
                       another field office reported using the 23-point rating system to
                       make decisions, but consider it to be ineffective. Unclear selection
                       criteria have bolstered perceptions of favoritism within FAMS.
                       Survey results corroborated these findings:

                                Fifty-five percent believe personal favoritism is a factor
                                when awarding in-position increases;


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 33
                                Forty-seven percent believe personal favoritism is a factor
                                when awarding cash or time off;
                                Fifty-three percent do not understand what they need to do
                                to receive an in-position increase;
                                Fifty-six percent believe in-position increases are not based
                                on merit;
                                Fifty-one percent do not understand what they need to do to
                                receive a cash or time-off award; and
                                Forty-seven percent believe cash and time-off awards are
                                not based on merit.

                       In determining how to distribute limited funds for in-position
                       increases and awards, field offices have taken different approaches.
                       Some managers have tried allocating smaller amounts to a greater
                       percentage of their field office workforce. Others have allocated
                       larger amounts to a smaller percentage of their office’s workforce.
                       One field office does not allow back-to-back in-position increases.
                       Some managers and Federal Air Marshals disagree with this
                       approach because top performers are not consistently recognized.
                       In FY 2010, 62% of FAMS employees received awards and 21%
                       received in-position increases. In FY 2011, 52% of FAMS
                       employees received awards and 30% received in-position
                       increases. In both years, more than two-thirds of those receiving
                       awards and in-position increases were I-band employees, and some
                       employees received both awards and in-position increases.

                       According to TSA policy, an employee can receive two
                       consecutive in-position increases as long as there are at least 52
                       weeks between them. In addition, policy allows employees to
                       receive an in-position increase and a performance award in the
                       same year. FAMS should provide additional guidance and
                       clarification to field offices regarding awards and in-position
                       increases. Specifically, FAMS should clarify whether in-position
                       increases and awards can be rotated among staff and given to the
                       same employee in consecutive years. In addition, FAMS should
                       clarify to what extent discipline issues should be considered when
                       determining who will receive in-position increases and awards.

                       Senior FAM Program

                       The Senior FAM program was established to recognize high-
                       performing Federal Air Marshals who have exceptional expertise
                       in flying missions, possess a broad knowledge of the FAMS
                       mission and operational requirements, and have demonstrated an
                       excellent work ethic. The program was well intended, but it was
                       not well received by the workforce. In fact, many Federal Air

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 34
                       Marshals and managers believe the program’s execution has had a
                       detrimental effect on morale. The program has further divided the
                       workforce and spurred complaints. The complaints are the result
                       of a number of concerns about the program, including differing
                       applicant criteria, minimal constructive comments for the
                       applicants, and the limited number of positions and incentives.

                       For appointment as a Senior FAM, current policy states that
                       Federal Air Marshals must possess the following minimum
                       requirements:

                                Seven years of continuous service as a Federal Air Marshal;
                                Three years as a Federal Air Marshal at the Pay Band I
                                level;
                                Eight hundred mission career fly days (military shall be
                                treated as if they were on duty status and shall be credited
                                for missed FAMS service time);
                                An excellent work ethic; an employee record free of
                                suspensions or involuntary demotions and performance
                                improvement plan(s) for at least 24 consecutive months
                                prior to submission;
                                A current performance rating of “Achieved Expectations,”
                                “Exceeded Expectations,” or “Achieved Excellence”; and
                                Demonstrated initiative in performance of duties and
                                responsibilities required of the Federal Air Marshal
                                position.

                       The Senior FAM selection panel evaluates applicants based on
                       (1) the applicant’s verbal response to the question, “Why do you
                       wish to serve as a Senior FAM?” and (2) the overall quality of the
                       Federal Air Marshal’s application package. Some panels added
                       selection criteria to further differentiate candidates. The additional
                       criteria varied among field offices we visited. For example, one
                       field office also required above-average physical fitness and
                       shooting ability. Another field office also considered the
                       applicant’s total time in federal service.

                       Not only do the criteria differ across field offices, but applicants
                       still find the criteria confusing. Many applicants said they did not
                       receive any comments from managers after they were not selected.
                       Managers may not be obligated to provide feedback, but not doing
                       so has led Federal Air Marshals to speculate as to why they were
                       not selected. Some managers said they would have provided
                       comments if the applicant requested them, but we did not find
                       managers who claimed to have provided constructive comments to


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 35
                       applicants proactively. As a result, many Federal Air Marshals
                       were less likely to apply again.

                       The Senior FAM program currently limits the number of Senior
                       FAMs within each field office. This is problematic since many
                       employees’ service time is virtually the same, especially in field
                       offices where attrition is low. FAMS should not restrict the
                       number of Federal Air Marshals who are eligible for the position at
                       each field office. Rather, all flying Federal Air Marshals should be
                       eligible for designation as Senior FAMs upon meeting specific
                       mission and length-of-service criteria, in addition to the
                       performance requirements already in place.

                       The Senior FAM program offers limited incentives. No additional
                       pay or benefits are associated with being a Senior FAM.
                       According to policy, Federal Air Marshals do not earn credit
                       toward promotion by becoming a Senior FAM. There are no
                       specific job requirements, but a Senior FAM might mentor new
                       employees or serve as the team leader on international missions.
                       Because there are no apparent advantages to being a Senior FAM,
                       many regard the position as only a title with little merit. Senior
                       leadership believes the program has value in that it provides
                       management an opportunity to recognize outstanding Federal Air
                       Marshals. FAMS plans to solicit applications again in 2011.

                       J-Band Promotion Process

                       Each year, the agency conducts a FAMS-wide application process
                       for promotion to the J-band, or SFAM. Within FAMS, J-band
                       positions are first-line supervisors. The FAMS J-band promotion
                       process was established in collaboration with OHC and reviewed
                       by the Office of Chief Counsel. Competition for promotion to the
                       J-band is intense due to the large number of applicants and limited
                       number of positions available. Each year more than 600 Federal
                       Air Marshals apply for usually fewer than 80 J-band vacancies.
                       The agency goes to extraordinary lengths to evaluate and rank all
                       of the candidates. However, managers and Federal Air Marshals
                       expressed concerns that the promotion process needs more overall
                       transparency, particularly with regard to scoring Federal Air
                       Marshals’ applications. The process has been a source of
                       resentment and tension between managers and Federal Air
                       Marshals. The Federal Air Marshals believe the agency has not
                       fulfilled its promise to provide upward mobility to its recruits.
                       Although we did not study recent hiring decisions, the promotion
                       process can result in a Federal Air Marshal who ranks low
                       nationally being placed on a best qualified list if he/she is among

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 36
                       the top 40 Federal Air Marshals who applied for a specific field
                       office’s vacancy. The agency recognizes the need for more
                       transparency, and plans to implement changes in FY 2013.

                       Several factors have contributed to perceptions of retaliation,
                       discrimination, and favoritism, which have discouraged some
                       Federal Air Marshals from applying. These factors include the
                       wide variances in SAC and panel scores, minimal comments
                       provided to those not promoted, and a misunderstanding by some
                       that the national ranking is the sole determining factor of the best
                       qualified applicants. We heard allegations that Federal Air
                       Marshals in ground-based assignments, or who have worked in
                       headquarters or for USSS, were more likely to be promoted. There
                       were many allegations that minorities were not likely to be
                       promoted. In fact, in FY 2010 and FY 2011 combined, 29% of
                       Federal Air Marshals promoted to J-band positions and 27% of all
                       FAMS employees promoted to the K-band positions were members
                       of minority groups. Of our survey respondents, 61% indicated that
                       they believe there is favoritism in the promotion process. In
                       addition, 52% indicated that they are dissatisfied with their
                       opportunity to get a better job in the organization. Most surprising,
                       44% of J-band supervisors perceive favoritism in the promotion
                       process.

                       FAMS does not conduct interviews as part of the promotion
                       process. Applicants must submit to their field office SAC a
                       package that includes their résumé and descriptions of their
                       knowledge, skills, and abilities. The SAC evaluates the
                       applications, and then generates a score based on the information
                       presented. A three-person panel also reviews each application.
                       Typically, the panel consists of one K-band and two J-band
                       supervisors. The panel reaches consensus and assigns each
                       application a score.

                       The SAC and panel scores are added together to generate a
                       composite score for each applicant. Applicants then are ranked
                       nationally according to their final composite scores. Each field
                       office SAC receives an unranked certification list of the 40 highest
                       ranked applicants, plus ties, who indicated an interest or
                       willingness to work in the office when they submitted their
                       application. Field office SACs review the list and applicants’
                       packages if desired, and submit to headquarters the names of five
                       applicants from the list to fill the vacant supervisory positions
                       within their field office. The Deputy Assistant Directors review
                       each SAC’s preferences and make the final recommendations for


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 37
                       each field office. The Assistant Director for Field Operations has
                       final approval.

                       Federal Air Marshals are also skeptical of the J-band process for
                       other reasons. First, many Federal Air Marshals and supervisors
                       confirmed that the SAC and panel evaluation criteria and the
                       process have changed every year, resulting in confusion for both
                       applicants and raters. Many changes were based on advice sought
                       from the workforce to improve the process. For example, in
                       various years the agency has tried changing the length and type of
                       questions posed to applicants; asked applicants to self-evaluate;
                       and excluded but then included supervisor input. Prior experience
                       that Federal Air Marshals could cite on their application has
                       evolved. For example, immediately following the 9/11 terrorist
                       attacks, Federal Air Marshals received credit for experience with
                       various firearms. Federal Air Marshals complained of not being
                       informed about changes to the criteria, and senior FAMS officials
                       acknowledged they do not like the fact that applicants may not
                       know all of the criteria. The J-band process is communicated to all
                       employees through a FAMS broadcast message. The message
                       includes the timeline, instructions for applying, and resource
                       materials such as the standardized job description, the candidate
                       preparation manual, and answers to frequently asked questions.
                       FAMS also conducts two information sessions, which are recorded
                       and made available on the FAMS home web page, to provide an
                       overview of the process. The agency should ensure that it clearly
                       communicates specific application criteria and updated process
                       procedures to all applicants at the beginning of each promotion
                       cycle.

                       Second, Federal Air Marshals perceive problems with the scoring
                       process, specifically wide variances between the SAC’s and the
                       panel’s scores from year to year, and between the SAC’s score and
                       the panel’s score during the same year. Federal Air Marshals do
                       not think SACs use the same criteria, but more important, they
                       asserted that SACs should not score them if they are not in a
                       ground-based position because they have such limited interaction.
                       SACs usually solicit input from an employee’s first- and second-
                       line supervisors during the evaluation process. Applicants do not
                       feel the process is transparent because, although not required,
                       managers do not explain the variance in scores.

                       Incorporating the SAC’s views of the applicant’s promotion
                       potential is a reasonable starting point because the SAC represents
                       the Federal Air Marshal’s chain of command. SAC scores may
                       fluctuate from year to year depending on the applicant’s

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 38
                       performance, recommendations from supervisors, or the SAC’s
                       relationship with the applicant. The SAC can raise or lower a
                       Federal Air Marshal’s ranking based on these factors. When the
                       SAC’s score is lower than a panel’s score by a wide margin,
                       Federal Air Marshals invariably believe their SAC is deliberately
                       sabotaging their bid for a promotion. However, that criticism is
                       unfair as long as SAC scores are consistent. Because the SAC can
                       include personal knowledge of and experience with the Federal Air
                       Marshal in his or her score and the panel score is independent,
                       Federal Air Marshals should expect SAC scores and panel scores
                       to differ.

                       Federal Air Marshals become very suspicious when their SAC’s
                       evaluation is significantly different from one year to the next,
                       without any apparent change in the applicant’s performance. One
                       Federal Air Marshal believed that his giving a deposition in an
                       investigation of another Federal Air Marshal was the only reason
                       his SAC rated him high one year and significantly lower the next.
                       There may be instances when the agency should address variances
                       in SAC scores and panel scores in order to provide for a more
                       transparent and equitable promotional process. The more data
                       FAMS can include to complement the SAC’s rating, the less likely
                       Federal Air Marshals will be to second-guess their rating.

                       Federal Air Marshals and some managers familiar with the process
                       told us they do not like the way the agency uses the certification
                       list. After SACs receive the unranked list of applicants willing to
                       work in their field office, they indicate their top five preferences
                       and send those names to headquarters for final selection. SACs
                       may choose from anyone on the list, possibly avoiding certain
                       applicants even if they were initially ranked higher during the
                       application process.

                       It is unclear what factors other than personal knowledge of the
                       applicant Deputy Assistant Directors and Assistant Directors
                       consider when recommending or finalizing their selections, but we
                       were told they frequently override SACs’ preferences. The large
                       certification list affords SACs, Deputy Assistant Directors, and
                       Assistant Directors greater flexibility when making selections.
                       TSA should review evaluation and assessment procedures for the
                       J-band promotion process and revise as necessary to ensure that
                       certification lists contain the best qualified candidates.

                       In 2010, the FAMS Advisory Council formed a working group to
                       analyze the J-band promotion process and make recommendations
                       to senior leadership. The council recommended a new process that

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 39
                       gradually reduces the list of applicants to those who are most
                       qualified. The council recommended inserting steps in the process,
                       including implementing a computer-based test to assess writing
                       skills and reasoning abilities as well as a scenario-driven telephone
                       assessment to assess supervisory skills. If implemented, FAMS
                       would design and implement study guides for each process
                       assessment tool to prepare applicants for the test. FAMS should
                       ensure that the test has been validated sufficiently prior to
                       implementation. Finally, the council recommended that a panel of
                       senior, midlevel, and first-line supervisors interview applicants and
                       evaluate a core competency narrative submitted by the applicant.
                       Each of the three phases will be weighted. Applicants’ final scores
                       will also be retained indefinitely. FAMS plans to incorporate these
                       changes into the 2013 promotion cycle.

                       International Assignments and Use of International Restriction

                       International flight assignments and management’s use of
                       international restriction have been a source of frustration and
                       tension between Federal Air Marshals and supervisors.
                       International missions are the most complex and sensitive missions
                       that Federal Air Marshals fly. They are long in duration, usually
                       over water without an immediate ground landing possible, and
                       without immediate FAMS or other U.S. law enforcement support
                       available. They also require Federal Air Marshals to follow the
                       rules and laws of the nation they are visiting. The execution of
                       international missions could affect FAMS’ ability to continue
                       flying missions to specific countries or create other serious
                       diplomatic ramifications.

                       Although Federal Air Marshals are not guaranteed international
                       missions, because of the potential to earn higher per diem than
                       domestic missions, most Federal Air Marshals believe the inability
                       to fly international missions is akin to punishment. Many Federal
                       Air Marshals asserted that management favors certain Federal Air
                       Marshals for international flights and manipulates the assignments
                       process to carry out such favoritism. Absent any apparent cause
                       for removing them from international missions for extended
                       periods, Federal Air Marshals asserted that managers are
                       retaliating against them.

                       Managers in field offices were forthcoming regarding how they
                       assign international missions, and said that Federal Air Marshals
                       may review the flight schedule at any time. The agency does not
                       have a standard policy to guide managers deciding whether to
                       restrict a Federal Air Marshal from flying internationally. As a

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 40
                       result, field offices administer international restriction differently
                       and with less transparency than the assignments process. In
                       general, both supervisors and non-supervisory Federal Air
                       Marshals acknowledged that the surge in the international tempo
                       since December 2009 has mitigated these issues. Federal Air
                       Marshals who desire international missions are getting them.
                       Because of the recent need to cover more international flights,
                       there have been fewer complaints.

                       The International Assignments Process Is Transparent

                       We interviewed Federal Air Marshals in the operations office of
                       each field office we visited and reviewed spreadsheets supporting
                       each roster period to understand how the process works and the
                       role of field office managers in determining which Federal Air
                       Marshals get international missions, and where. In all but one field
                       office, we encountered Federal Air Marshals who felt management
                       is using international missions as leverage against them and would
                       deny them international missions. In 148 interviews in which we
                       discussed international assignments, only 45 Federal Air Marshals
                       said they thought international assignments were administered
                       fairly. Others said they either did not have international missions
                       or did not get them for a long time, believing that their field office
                       did not schedule international missions fairly or equitably.

                       On the other hand, managers and Federal Air Marshals in
                       operations offices who coordinate the schedules with headquarters
                       said Federal Air Marshals do not understand how scheduling
                       works. They were forthcoming about the process and described
                       steps they have taken to inform Federal Air Marshals about it.
                       Missions are assigned based on the needs of the mission and not
                       individual preferences. Most operations staff members appear to
                       track the number of international assignments for each Federal Air
                       Marshal to ensure equitable distribution, yet they hear complaints
                       of Federal Air Marshals getting too few or too many missions, and
                       not getting to travel to certain locations. Managers asserted that
                       they try to keep it fair. We did not learn of an instance when a
                       Federal Air Marshal was denied access to this information.

                       Because of the diplomatic implications of international missions,
                       the agency does not guarantee international missions to Federal Air
                       Marshals. Federal Air Marshals who are not operationally ready
                       should not be put on international missions. Management prefers
                       to assign international missions to the Federal Air Marshals best
                       equipped for them. One manager stated that sometimes Federal
                       Air Marshals are selected based on their foreign language skills or

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 41
                       previous experience in a country. We repeatedly heard that field
                       offices do not allow Federal Air Marshals with disciplinary issues
                       to travel internationally. Headquarters officials said field offices
                       often consider discipline, including severity and recentness, when
                       assigning Federal Air Marshals to international missions. Several
                       managers advised us that international missions and team leaders
                       are assigned on a rotational basis, and behavior is the only reason
                       this would change.

                       Supervisors and non-supervisory Federal Air Marshals generally
                       agree that international missions are a privilege, but they are also a
                       requirement of the job. In previous years when not as many
                       international missions were available, managers said they assigned
                       them to good performers, whereas Federal Air Marshals felt
                       management was assigning international missions to their
                       favorites. However, the question has become less relevant simply
                       because, since the Detroit bomber incident in 2009, the agency has
                       needed more Federal Air Marshals to cover more international
                       missions.

                       Staffing each 28-day roster period is complex because international
                       missions are scheduled based on availability, and many variables
                       affect availability. The schedule must consider regular days off
                       (RDOs), NMS days, leave, and training. Field offices have
                       implemented schedules that appear to accommodate Federal Air
                       Marshals as much as possible without jeopardizing missions. One
                       field office publishes assigned RDOs, which “cascade” or rotate
                       during the year, so Federal Air Marshals know their days off in
                       advance. Another field office created a flex schedule, which
                       rotates RDOs every two roster periods and essentially minimizes
                       less desirable RDOs. Two field office managers said more than
                       95% of international missions are followed by RDOs. This is done
                       so that Federal Air Marshals do not have to fly domestically the
                       day after an international mission. Some field offices schedule
                       training and NMS days next to RDOs to extend Federal Air
                       Marshals’ weekends. At other field offices, RDOs are determined
                       by squads. Federal Air Marshals in each field are typically
                       organized by squads, which are small groups usually led by a
                       Supervisory Federal Air Marshal. All of the field offices decide
                       Federal Air Marshals’ RDOs from 90 days up to 1 year in advance.
                       Each field office considered Federal Air Marshals’ preferences for
                       their desired RDO schedule. We heard few complaints about RDO
                       schedules from the field offices we visited.




Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 42
                       FAMS Does Not Have a Standard Policy for Placing Federal Air
                       Marshals on International Restriction

                       There is no national policy for determining whether to remove a
                       Federal Air Marshal from international missions. As a result,
                       Federal Air Marshals assert that managers deny them international
                       missions for excessive periods without cause. Federal Air Marshals
                       view international restriction as informal discipline when coupled
                       with official punishment for a misconduct or behavioral incident.
                       For example, a Federal Air Marshal who receives a letter of
                       counsel, which is not considered formal discipline, may or may not
                       be placed on international restriction.

                       Of the five field offices we visited, only one has a written policy
                       regarding restriction of international mission privileges. That
                       policy states that any discipline, including a letter of counsel, will
                       automatically result in 1 year of international mission restriction.
                       This field office takes the Federal Air Marshal off international
                       status on the date of the incident, even before discipline is
                       determined. It may be for this reason that within this field office
                       the term “Team America” exists, referring to a group of Federal
                       Air Marshals ineligible for international missions. The term is
                       widely understood around the office; more than two dozen Federal
                       Air Marshals mentioned it to us because of its negative
                       connotations. It is obviously necessary for field office
                       management to track Federal Air Marshals who are on
                       international restriction. It is possible that a Federal Air Marshal
                       may not be flying international missions for reasons other than
                       discipline.

                       Field office managements’ justifications for placing Federal Air
                       Marshals on international flight restriction varied. Some of the
                       justifications we heard were related to medical reasons and
                       passport/visa issues. We heard that poor job performance, late
                       payment of expenses credited to travel cards, and conduct issues
                       could warrant international restriction. The managers at all of the
                       field offices we visited believe that Federal Air Marshals who
                       commit serious infractions should be removed from international
                       missions, or in some cases, removed from all flying missions.

                       FAMS should develop and implement a national policy to define
                       when Federal Air Marshals can be removed from international
                       flight schedules, including what performance and conduct issues
                       can cause a Federal Air Marshal to be removed and the duration of
                       the restriction.


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 43
                       Annual, Sick, and Military Leave and Light Duty Policies

                       We heard fewer complaints about leave and light duty compared to
                       international mission assignments and the promotion process.
                       Some Federal Air Marshals believed their supervisors discourage
                       or oppose the use of sick or military leave, and leave usage has an
                       effect on how they are treated. We did not review these incidents
                       in detail, and we make no recommendations concerning leave
                       administration or light duty.

                       Federal Air Marshals who had problems with sick leave cited
                       managers tracking how much leave was used; managers requesting
                       doctor’s notes; not being able to call in sick on certain days; and
                       being disciplined for taking, in the manager’s opinion, too much
                       sick leave. Owing to the perceived negativity from management,
                       Federal Air Marshals claim they will continue to fly even when
                       they are sick or injured. We also heard allegations of supervisors
                       denying sick leave to care for family members and attend funerals.
                       Several Federal Air Marshals claimed they were placed on sick
                       leave restriction. One field office allegedly posted sick leave use
                       on a bulletin board in a common area. The affected Federal Air
                       Marshals believe this was done to embarrass them and discourage
                       others from using sick leave. In general, managers said that
                       although they prefer 3 to 4 months’ notice, they rarely deny annual
                       leave. Larger field offices are able to absorb sick days and backfill
                       missions better than smaller field offices. Supervisors may request
                       a doctor’s note if there is a pattern of sick leave.

                       Fewer Federal Air Marshals complained of problems with military
                       leave, although several said they were retaliated against for serving
                       in the military. At least one was told his military service was
                       becoming a problem because flight schedules had to be changed.
                       One Federal Air Marshal said that on at least four occasions, he
                       received military orders, submitted a request for military leave, and
                       was asked by his supervisor when he was going to retire from the
                       military. His leave was not denied. Other Federal Air Marshals
                       said they believe or had been told that management thinks they
                       should choose either military service or working for FAMS. In
                       addition, although military leave may introduce certain
                       inconveniences for field offices, operations personnel build
                       schedules for Federal Air Marshals around military leave, when
                       known. Several Federal Air Marshals said their office previously
                       would schedule their RDOs to coincide with drill days. This kept
                       the Federal Air Marshal available for flight schedules and reduced
                       the amount of annual leave the Federal Air Marshal had to take
                       once the 15 days of military leave allowed annually had been used.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 44
                             Federal Air Marshals claimed management changed this practice
                             and their days off no longer coincide with their drill days, meaning
                             they have to use more annual leave to cover their drill schedules.

                             According to the Uniformed Services Employment and
                             Reemployment Rights Act of 1994 (USERRA), a service member
                             on military orders should be considered for raises, bonuses, and
                             awards as if the Federal Air Marshal had never left for duty.8
                             USERRA does not guarantee that Federal Air Marshals are entitled
                             to performance-based raises when they return from service.
                             However, Federal Air Marshals claim they have been denied raises
                             and other considerations because of their military service. For
                             example, one Federal Air Marshal said he returned from a military
                             deployment and received a cash award that was smaller than what
                             he usually received. He said his supervisor said this was because
                             he had only been in the field office for part of the year. In another
                             case, a Federal Air Marshal returned from a military deployment
                             and learned that several others in the office had received pay
                             raises. He said his supervisor told him he was not considered for a
                             pay raise because he was deployed at the time the pay raise
                             decisions were made. The Federal Air Marshal felt he should have
                             been considered, even if he did not receive a raise.

                             Light duty is the temporary adjustment or modification to essential
                             job functions that may be offered to employees with temporary
                             injuries or medical conditions that did not occur on the job.
                             Limited duty is the temporary adjustment or modification to
                             essential job functions for employees with temporary medical
                             restrictions for injuries or illnesses that occur on the job. In either
                             situation, suitable work must be available. Managers and Federal
                             Air Marshals in offices we visited did not differentiate between
                             light and limited duty; all referred to both as light duty. We were
                             told that if light duty assignments were available, employees with
                             work-related medical restrictions would be offered a light duty
                             assignment before employees with non-work-related medical
                             restrictions. Management may change or cancel light duty
                             assignments because of changing operational needs, space
                             limitations, and staffing requirements or because of changes to the
                             employee’s physical or medical limitations, in accordance with the
                             procedures described in TSA’s light and limited duty policies. It is
                             within the SAC’s purview to deny a Federal Air Marshal light duty
                             when no suitable work is available.



8
    38 U.S.C. § 4316.

      Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 45
                       Several Federal Air Marshals have filed EEO complaints after
                       being denied light duty. We heard allegations of light duty not
                       being administered fairly or having a negative connotation. Many
                       felt light duty was given to those whom management favors.
                       Federal Air Marshals also expressed confusion about the light duty
                       policy.

                       Several years ago, one field office attempted to make
                       accommodations based on pregnancy by providing light duty.
                       When another Federal Air Marshal who was denied light duty
                       alleged discrimination, the field office abandoned light duty
                       altogether. More recently, several Federal Air Marshals in this
                       field office requested and were denied light duty. Headquarters
                       directed the field office to bring them into the office to work light
                       duty. In the SAC’s view, this field office did not have light duty
                       work available to accommodate all who requested it, but he called
                       those Federal Air Marshals into the office. He directed them to sit
                       in a small room and let people into the office, answer phones, and
                       make photocopies. Federal Air Marshals we interviewed who
                       were in the room felt that they were being punished and made an
                       example of. Management said that it was following headquarters’
                       direction, despite having no light duty. Although it was within the
                       SAC’s authority to refuse light duty, from our perspective it was
                       not necessarily within the spirit of the policy.

              Recommendations
                       We recommend that the TSA Administrator:

                       Recommendation #6: Establish additional guidelines that set
                       forth selection criteria for Federal Air Marshal ground-based
                       positions.

                       Recommendation #7: Provide additional guidance and
                       clarification for awards and in-position increases, including
                       whether they can be rotated among staff and given to the same
                       employee in back-to-back years, and to what extent managers
                       should consider discipline issues.

                       Recommendation #8: Evaluate whether the Federal Air Marshal
                       Service should remove specific limits on the number of Senior
                       Federal Air Marshals allowed in each office and establish
                       eligibility criteria for designation as a Senior Federal Air Marshal
                       based on specific mission and length-of-service achievements, in
                       addition to the performance requirements already in place.


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 46
                       Recommendation #9: Communicate specific application criteria
                       to all J-band promotion applicants at the beginning of each
                       promotion cycle.

                       Recommendation #10: Review evaluation and assessment
                       procedures for the J-band promotion process and revise as
                       necessary to ensure that certification lists contain the best qualified
                       candidates.

                       Recommendation #11: Develop guidelines to define when
                       Federal Air Marshals can be removed from international flight
                       schedules, including what performance and conduct issues can
                       cause a Federal Air Marshal to be removed and the duration of the
                       restriction.


              Management Comments and OIG Analysis
                       Management Comments to Recommendation #6

                       TSA concurred with the recommendation. In March 2011,
                       guidance regarding the length of ground-based assignments and
                       extensions of those assignments was sent to field office SACs.
                       Field office SACs must communicate the selection process
                       structure and employ a panel of supervisors to review, interview,
                       and rank ground-based assignment candidates. Those not selected
                       will receive feedback on areas for improvement for possible future
                       selection. If special circumstances require a ground-based
                       assignment to be extended, the field office’s Regional Deputy
                       Assistant Director must approve the extension. In addition,
                       Federal Air Marshals who complete a 36-month ground-based
                       assignment must be on mission flight status for 12 consecutive
                       months before being eligible for another ground-based assignment.
                       In April 2011, new guidance was sent allowing SACs to extend
                       VIPR assignments up to a maximum of 1 year. FAMS is preparing
                       additional consolidated guidelines on selection criteria for ground-
                       based assignments that will be provided to field offices.

                       OIG Analysis

                       We concur with TSA’s response. We will close this
                       recommendation upon receipt and review of the consolidated
                       guidance regarding selection criteria for ground-based
                       assignments.

                       This recommendation is Resolved – Open.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 47
                       Management Comments to Recommendation #7

                       TSA concurred with the recommendation. OHC and FAMS are
                       collaborating to develop guidance to clarify existing policy and
                       mitigate issues surrounding the perception of favoritism while
                       allowing management to use their judgment and discretion in
                       granting awards and in-position increases. In addition, OHC and
                       FAMS will discuss and clarify for the workforce the applicability
                       of discipline matters.

                       OIG Analysis

                       We concur with TSA’s response. We will close this
                       recommendation upon receipt and review of the additional
                       guidance and clarification.

                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #8

                       TSA concurred with the recommendation. FAMS is examining the
                       program to determine what changes may be needed. FAMS senior
                       leadership has tasked the SAC Advisory Council and the FAMS
                       Advisory Council to consider all facets of the program to develop a
                       program better suited for the development and recognition of
                       Federal Air Marshals. An ad hoc committee of representatives of
                       both councils will meet to develop recommendations for
                       consideration and implementation by senior leadership. Any new
                       criteria for the program will be communicated to the entire FAMS
                       workforce.

                       OIG Analysis

                       We concur with TSA’s response. We will close the
                       recommendation upon receipt and review of the committee’s
                       recommendations for the program and communication of the new
                       criteria to the FAMS workforce.

                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #9

                       TSA concurred with the recommendation and believes the
                       recommendation has been addressed. The Federal Air Marshal
                       J-band promotion opportunity is posted on USAJobs.gov and is

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 48
                       sent to all FAMS employees via a FAMS broadcast message.
                       Available resources include the standardized job description, a
                       candidate preparation manual, and answers to frequently asked
                       questions. FAMS also conducts two informational sessions, which
                       are recorded and made available on the FAMS home web page, to
                       provide an overview of the process. Employees are also made
                       aware of TSA career coaching services. In addition, FAMS
                       implemented the Candidate Dashboard on October 1, 2011, which
                       allows applicants to track their status through each phase of the
                       application process.

                       OIG Analysis

                       We concur with TSA’s response.

                       This recommendation is Resolved – Closed.

                       Management Comments to Recommendation #10

                       TSA concurred with the recommendation. OHC is working with
                       FAMS to review and recommend improved candidate evaluation
                       and assessment, specifically regarding J-band promotions. TSA
                       will further these efforts to ensure that certification lists contain the
                       best qualified candidates.

                       OIG Analysis

                       We concur with TSA’s response. We will close the
                       recommendation upon receipt and review of the results of the OHC
                       and FAMS review and recommendations regarding the promotions
                       process, as well as revisions to the process to ensure that
                       certification lists contain the best qualified candidates.

                       This recommendation is Resolved – Open.

                       Management Comments to Recommendation #11

                       TSA concurred with the recommendation. FAMS assigns
                       international missions to Federal Air Marshals who are performing
                       at or above expected levels; have gained their supervisor’s
                       confidence; and have demonstrated the requisite professionalism,
                       ability, and skills. Employees not performing to these expectations
                       are scheduled less sensitive work assignments. This determination
                       must be made on a case-by-case basis and final supervisory
                       authority must rest with field office management who know the
                       strengths and weaknesses of each Federal Air Marshal.

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 49
                             Clarification regarding the removal of Federal Air Marshals from
                             international missions will be provided to field offices.

                             OIG Analysis

                             We concur with TSA’s response. We will close the
                             recommendation pending receipt and review of the clarification
                             provided to field offices regarding removal from international
                             missions.

                             This recommendation is Resolved – Open.


           Results of Workforce Survey
                    From February to April 2011, we conducted a survey of the FAMS
                    workforce to measure employees’ perceptions of discrimination,
                    retaliation, and favoritism. We also attempted to obtain employees’ views
                    on the current workplace environment and asked about communication,
                    diversity, reporting and addressing misconduct, and job satisfaction. The
                    survey enabled us to obtain opinions from FAMS employees we were
                    unable to interview. In addition, the survey provided an outlet for
                    employees to voice their opinions regarding these matters independent of
                    TSA and FAMS.

                    To help develop the survey, we consulted with the EEOC, the DHS Office
                    for Civil Rights and Civil Liberties (CRCL), and FAMS. We administered
                    the survey via the Internet and invited the entire FAMS workforce to
                    participate. Approximately 50% of the workforce completed the survey.9

                    A substantial percentage of Federal Air Marshals who responded to the
                    survey believe they are victims of discrimination, retaliation, or
                    unfavorable treatment. As illustrated in figures below, opinions varied
                    among senior managers, intermediate managers, and non-managers, but
                    some supervisors also perceive these issues. Almost half of respondents
                    feared retaliation if they disclosed a violation of law, rule, or regulation.
                    Negative perceptions are also prevalent regarding discipline and favoritism,
                    even among managers and respondents who do not believe that they are
                    victims of discrimination, retaliation, or unfavorable treatment. Employees
                    who fear retaliation are also less likely to report misconduct or illegal
                    activity. Overall, perceptions of policies and procedures for addressing
                    complaints and disputes are mixed. These perceptions have real effects on
                    the organization, such as increased dissatisfaction and negative perceptions
                    of the discipline, awards, promotions, and assignments processes. Among

9
    See appendix F for a complete list of survey questions and overall responses.

      Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 50
                   survey respondents, 25% are dissatisfied with their job. If FAMS
                   management does not address these perceptions, the problems reflected by
                   our survey will continue to affect morale and possibly lead to more
                   allegations and litigation.

                   We also looked at the survey results across field offices.10 We collected a
                   significant amount of information and observations during site visits to
                   Charlotte, Cincinnati, Dallas, Minneapolis, and Orlando/Tampa. In
                   general, survey responses in each of these field offices were consistent
                   with our observations. Perceptions of favoritism, discrimination,
                   retaliation, and discipline were consistently negative in certain field
                   offices, as well as consistently positive in others.

                   We also compared respondents’ answers to identical or nearly identical
                   questions the Office of Personnel Management (OPM) posed during its
                   2010 survey of DHS employees. In 15 of the 16 questions, FAMS’
                   responses were more negative than those of DHS employees overall.11

                            Perceptions of Discrimination and Diversity Programs Are
                            Mixed

                            By “discrimination” we refer to unlawful actions taken against
                            employees on the basis of race, color, national origin, sex, religion,
                            age, or disability. Although perceptions of diversity programs and
                            the existence of discrimination are often mixed, minority
                            populations had a higher rate of negative perceptions of diversity
                            and discrimination than nonminorities. Most respondents (77%)
                            believe they know whom to contact if they feel they are or have
                            been discriminated against or harassed on the job.

                            One-quarter of respondents believe they have been discriminated
                            against (see figure 5).12 More than one-third of respondents from
                            several minority groups feel they have been discriminated against,
                            the highest being African-Americans and American Indian/Alaska
                            natives with 44%. The issues we identified in the areas of
                            promotions, in-position increases, awards, assignments, and
                            discipline have likely contributed to perceptions of discrimination.
                            FAMS can help mitigate these issues by being more transparent.




10
   See appendix G for select survey results by location. 

11
   See appendix H for a comparison of the 16 identical or nearly identical questions and responses between

our survey of the FAMS workforce and the 2010 DHS-wide Office of Personnel Management survey.

12
   Our survey asked respondents whether they have been treated unfavorably because they belong to one of 

six protected classes. Positive responses are referred to as discrimination. 


     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 51
                                               Figure 5: Have you been discriminated against?
                                                                    No    Yes
                                               All Respondents                     75                   25
                                              African American                56                   44
                                                       Hispanic               61                       39
                                American Indian/Alaska Native                 56                   44
                                                        Female                 67                      33
                                             40 yrs old or older               69                      31


                             Seventy-nine percent of respondents who feel discriminated
                             against believe the unfair treatment occurred since February 2009,
                             but other incidents occurred earlier than that.13 A majority of these
                             same respondents (62%) believe a senior manager in their office
                             was responsible for the discrimination. Additionally, 44% believe
                             their immediate supervisor was responsible and 25% believe a
                             manager outside of their office was responsible.14

                             A majority of respondents (57%) believe policies and programs
                             promote diversity in the workplace (see figure 6). However, 25%
                             of three minority groups—American Indian/Alaska Native,
                             Hispanic or Latino, and female—do not believe policies and
                             programs promote diversity in the workplace. Thirty-seven
                             percent of African-American respondents do not believe policies
                             and programs promote diversity in the workplace.

                                            Figure 6: Policies and programs promote diversity
                                                             in the workplace.
                                                         Positive    Neutral            Negative

                                               All Respondents                57                  23        13
                                              African American           37             21         37
                                                Hispanic/Latino          44                  26         25
                               American Indian/Alaska Native             43              25            25
                                                        Female            53                  19        25




                             Most respondents (63%) believe their supervisor supports
                             diversity. The majority of all minority groups also believe their

13
     See survey question 52 in appendix F. 

14
     Responses to this question added up to more than 100% because more than one option could be selected.


      Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 52
                       supervisor supports diversity in the workplace. Among minority
                       groups, African-Americans were mostly likely to agree that their
                       supervisor does not support diversity.

                       A majority of respondents (57%) believe supervisors work well
                       with employees of different backgrounds (see figure 7). Among
                       minority groups, African-Americans were mostly likely to disagree
                       that their supervisors work well with employees of different
                       backgrounds, with a negative response rate of 30%.

                                        Figure 7: Supervisors work well with employees
                                                   of different backgrounds.
                                                    Positive   Neutral      Negative

                                           All Respondents             57           23    17

                                          African American        37         30          30

                                                   Hispanic        42         26         28

                           American Indian/Alaska Native           43          29        26



                       Federal Air Marshals Perceive That Unfavorable Treatment Is
                       Widespread, but Most Incidents Do Not Meet the Legal
                       Standards for Unlawful Retaliation

                       We designed our survey to allow respondents to identify perceived
                       unlawful retaliation, whether or not they had knowledge of specific
                       legal standards. Our survey used “retaliation” to refer to violations
                       of the whistleblower provisions applicable to TSA employees, 5
                       U.S.C. §§ 2303(b)(8) and (9). We also sought to determine what
                       actions respondents believed to be unfair or unfavorable treatment
                       that would not meet the definition of unlawful retaliation.

                       If respondents believed they were retaliated against or treated
                       unfavorably because they engaged in one or more of six activities
                       protected by law, our survey asked them to describe the retaliation.
                       If these respondents indicated they felt a personnel action was
                       involved, the supervisor’s actions might have been unlawful
                       retaliation. If respondents selected an action other than a personnel
                       action, such as verbal counseling, written counseling,
                       unprofessional conduct, or “other” as the form of the retaliation,
                       the supervisor’s alleged actions constituted unfavorable treatment.

                       We also asked whether TSA or FAMS retaliated against them or
                       treated them unfavorably because they—
Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 53
                                     Questioned policies or procedures;
                                     Proposed changes to policy or procedures;
                                     Questioned decisions made by their immediate supervisor
                                     or senior management;
                                     Requested annual or sick leave;
                                     Requested leave under the Family and Medical Leave Act
                                     or leave for military duty;
                                     Requested schedule adjustments; or
                                     Requested light duty.

                            If respondents believe they have been retaliated against or treated
                            unfavorably for one or more of these reasons, we consider this to
                            be possible unfavorable treatment.15

                            It is important that FAMS recognize unfavorable treatment,
                            perceived or otherwise, that is not necessarily unlawful forms of
                            retaliation. Perceptions of retaliation can result in resentment,
                            mistrust, group tension, reduced motivation, and low morale for
                            the organization, regardless of whether a court determines
                            unlawful retaliation took place. In addition, the legal ramifications
                            can embroil an agency in time-consuming and expensive appeals
                            and complaints.

                            Few Instances of Perceived Retaliation Meet the Threshold of
                            Covered Retaliation

                            Seven percent of respondents believe TSA or FAMS unlawfully
                            retaliated against them because they engaged in one or more
                            protected activities and a personnel action was involved.
                            Approximately 9% believe TSA or FAMS treated them
                            unfavorably because they engaged in one or more activities
                            protected by law but a personnel action was not involved. These
                            respondents believe they have been retaliated against or treated
                            unfavorably, but the perceived harms are not actionable retaliation
                            or actions capable of a remedy under 5 U.S.C. § 2302(b)(8) or (9)
                            because a personnel action was not involved.

                            Survey respondents selected the following reasons most often for
                            why they were retaliated against or treated unfavorably: exercising
                            an appeal, complaint, or grievance right granted by any law, rule,
                            or regulation (9%); disclosing information believed to be a
                            violation of any law, rule, or regulation (8%); and disclosing

15
  We treated a leave request under the Family and Medical Leave Act as “unfavorable treatment” in our
report even though it constitutes unlawful retaliation under 29 U.S.C. § 2615.

     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 54
                            information believed to be a gross mismanagement, a gross waste
                            of funds, an abuse of authority, or a substantial and specific danger
                            to public health or safety (6%).16

                            More than half of the 16% who believe they were retaliated against
                            or treated unfavorably because they engaged in one or more
                            activities protected by law feel the retaliation was in the form of
                            what was perceived to be unprofessional conduct. This means the
                            incident did not actually raise to the level of covered, actionable
                            retaliation, although it may have been covered by agency policy.

                            Forty-four percent of respondents who believe they were retaliated
                            against or treated unfavorably because they engaged in one or
                            more activities protected by law believe the retaliation was in the
                            form of a personnel action.

                            Perceived Unfavorable Treatment Is Prevalent

                            Almost one-third of respondents (32%) believe they have been
                            retaliated against or treated unfavorably because they questioned or
                            proposed changes to policies or procedures, questioned decisions
                            of management, or requested leave, schedule adjustments, or light
                            duty. The most common reason respondents cited for unfavorable
                            treatment were questioning decisions, policies, or procedures
                            (20%). Ten percent of respondents selected proposing changes to
                            policies and procedures and requesting annual leave as reasons for
                            the unfavorable treatment. The three most common forms of
                            perceived unfavorable treatment were “other” (46%), “conduct that
                            was unprofessional” (40%), and “a personnel action” (29%).

                            Incidents of Perceived Retaliation and Unfavorable Treatment Are
                            Recent and Believed To Be Perpetrated by Managers

                            Approximately 75% of the respondents who believe they have
                            been retaliated against or unfavorably treated feel the incidents
                            occurred since February 2009. More than two-thirds (68%) of the
                            respondents believe a senior manager in their office is responsible
                            for the retaliation or unfavorable treatment. Additionally, 56%
                            believe their immediate supervisor is responsible, and 20% believe
                            a manager outside of their office is responsible.17



16
   See survey question 58 in appendix F. Totals for this question add up to more than 100% because more 

than one option could be selected.

17
   Totals for this question could equal more than 100% because respondents could select more than one

answer.


     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 55
                       Perceptions of Favoritism in Personnel Decisions Are
                       Widespread

                       The belief that personnel decisions are not based on merit or
                       involve favoritism is present throughout all levels of the
                       workforce. Non-managers, specifically employees in pay bands D
                       through I, believe favoritism exists at a significantly higher rate
                       than managers do. However, 30% of first-line managers in the
                       J band and 17% of managers in pay bands K, L, and Transportation
                       Senior Executive Service (TSES) believe favoritism is tolerated
                       (see figure 8). When we asked whether favoritism, in general, is
                       tolerated, 55% responded that they believe it is tolerated. An
                       analysis of responses shows managers believe favoritism is
                       tolerated at a lower rate than non-managers.

                                         Figure 8: Personal favoritism is not tolerated
                                                in my workplace, by pay band.
                                                    Positive    Neutral   Negative


                                    All Respondents       22        20         55

                                Pay bands K, L, TSES                70              12 17

                                          Pay band J           43         24         30

                                       Pay bands D-I     18     20             59



                       Perceptions of favoritism are most prevalent regarding raises,
                       awards, and promotions. Perceptions that favoritism exists in
                       performance ratings and work assignments are also elevated.
                       Earlier we discussed problems in these areas that have likely
                       contributed to perceptions of possible favoritism. These may not
                       be the only causes, but FAMS can mitigate them by increasing
                       transparency.

                       A majority of respondents (61%) believe personal favoritism is a
                       factor in the promotion process (see figure 9). Although managers
                       believe personal favoritism is a factor in the promotion process at a
                       lower rate than do non-managers, more immediate managers than
                       not see favoritism in the promotion process. Additionally, 27% of
                       senior managers indicated that favoritism is a factor in the
                       promotion process.




Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 56
                                         Figure 9: Personal favoritism is not a factor
                                           in the promotion process, by pay band.
                                                   Positive        Neutral          Negative

                                     All Respondents     15        19                61
                            Pay bands K, L, and TSES                56               14        27
                                           Pay band J         27          25              44
                                       Pay bands D-I     12 18                      64



                       A majority of respondents believe in-position increases are not
                       based on merit (56%) (see figure 10) and that personal favoritism
                       is a factor when awarding these raises (54%) (see figure 11).
                       Fewer managers than non-managers believe in-position increases
                       are not based on merit. The survey revealed that 21% of senior
                       managers and 37% of intermediate managers believe favoritism is
                       a factor in in-position increases.

                                    Figure 10: In-position increases are based on merit,
                                                        by pay band.
                                                  Positive         Neutral          Negative

                                    All Respondents          22     17               56
                            Pay bands K, L, and TSES                 67                  11 21
                                          Pay band J          35             25           37
                                       Pay bands D-I     19         17               59



                                     Figure 11: Personal favoritism is not a factor when
                                        awarding in-position increases, by pay band.
                                                  Positive         Neutral          Negative

                                    All Respondents          23      17              54

                            Pay bands K, L, and TSES                 67                  11 18

                                          Pay band J           39              24         31

                                       Pay bands D-I     20         17               58


                       Almost half of all respondents (47%) believe cash and time-off
                       awards are not based on merit (see figure 12) and personal
                       favoritism is a factor when awarding cash and time off (see figure
                       13). Fewer managers than non-managers believe cash and time-off
Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 57
                       awards are not based on merit. The survey revealed that 21% of
                       senior managers and 29% of immediate managers believe that cash
                       and time-off awards are not based on merit.

                                   Figure 12: Cash and time-off awards are based on merit,
                                                         by pay band.
                                                  Positive         Neutral         Negative
                                    All Respondents          26          21          47
                            Pay bands K, L, and TSES                   69                9     21
                                          Pay band J              41          25             29
                                       Pay bands D-I         22        21            50


                                Figure 13: Personal favoritism is not a factor when awarding
                                               cash and time off, by pay band.
                                                  Positive         Neutral         Negative

                                    All Respondents          25        21            47
                            Pay bands K, L, and TSES                   66             12 18
                                          Pay band J              41          24          28
                                       Pay bands D-I         21        21           50



                       Perceptions of favoritism in performance ratings and work
                       assignments are mixed. Almost half of all respondents (48%)
                       believe their supervisors do not consider personal favoritism when
                       rating them. Employees’ perception of favoritism in ratings differs
                       depending on their pay band, but more respondents agree that
                       favoritism is not a factor their supervisor considers when rating
                       them (see figure 14). Although the majority of managers believe
                       favoritism is not a factor when rating employees, 33% of non-
                       managers think it is.

                                    Figure 14: Personal favoritism is not a factor my
                                   supervisor considers when rating me, by pay band.
                                                 Positive         Neutral     Negative

                                    All Respondents               48          17         31

                            Pay bands K, L, and TSES                     80                  7 13

                                          Pay band J                60             16        20

                                       Pay bands D-I              46          18         33


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 58
                       Thirty-one percent of respondents believe employees selected for
                       ground-based assignments meet the stated criteria. Twenty-four
                       percent believe employees selected for ground-based assignments
                       do not meet the stated criteria. Forty-four percent of respondents
                       believe personal favoritism is considered when ground-based
                       assignments are selected. Twenty percent believe personal
                       favoritism is not considered when ground-based assignments are
                       selected (see figure 15).

                                   Figure 15: Personal favoritism is not considered when
                                   ground-based assignments are selected, by pay band.
                                                  Positive        Neutral     Negative

                                    All Respondents          20          21              44
                            Pay bands K, L, and TSES                    57               12         9
                                          Pay band J               37            21            23
                                       Pay bands D-I         16         21               47



                       Thirty-seven percent of respondents believe personal favoritism is
                       not a factor when international missions are assigned. Twenty-
                       nine percent believe personal favoritism is a factor when
                       international missions are assigned (see figure 16).

                                     Figure 16: Personal favoritism is not considered when
                                       international missions are assigned, by pay band.
                                                  Positive        Neutral     Negative

                                    All Respondents                37          13         29
                            Pay bands K, L, and TSES                     58               10 7
                                          Pay band J                    54                18        7
                                       Pay bands D-I              32           21              32


                       Fear of Retaliation and Discrimination Reduce the Likelihood
                       That Employees Will Report Misconduct or Illegal Activity

                       More than two-thirds of respondents (72%) indicated that they
                       would report misconduct or illegal activity to the appropriate
                       FAMS officials. More than three-quarters of respondents (84%)
                       who do not believe they have been retaliated against or
                       discriminated against would report misconduct or illegal activity to

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 59
                            FAMS. However, a much smaller percentage of respondents who
                            feel they have been retaliated or discriminated against (55%)
                            would report misconduct or illegal activity to FAMS. Managers
                            are more likely to report misconduct or illegal activity (83%) than
                            non-managers (71%). There is little difference between races and
                            genders when it comes to the likelihood of reporting misconduct or
                            illegal activity.

                            Employees are supposed to make complaints or discuss concerns
                            with their supervisors and managers. According to FAMS, the
                            immediate supervisor is the employee’s primary contact for
                            workplace concerns or conflicts. But it is the responsibility of
                            managers to maintain an environment where employees trust
                            supervisors and feel free to raise issues without fear of reprisal.

                            If an employee does not express complaints or concerns to a
                            supervisor or manager, the employee has several other options for
                            making the complaint or concern known. Those options include
                            contacting TSA’s Office of the Ombudsman, Office for Civil
                            Rights and Liberties, or Office of Inspections, the DHS Office of
                            Inspector General, or the U.S. Office of Special Counsel. FAMS
                            has also provided avenues for its employees to raise concerns,
                            including field office focus groups and anonymous emails to the
                            FAMS Director. FAMS makes employees aware of these outlets
                            for registering complaints or raising concerns when they join the
                            organization, and through periodic training and email
                            announcements.

                            Despite available avenues, our survey showed that 47% of
                            respondents do not think they can disclose a suspected violation of
                            law, rule, or regulation without fear of retaliation. These
                            respondents are less likely to report misconduct or illegal activity
                            than those who do not fear retaliation. Ninety-seven percent of
                            respondents who believe they can disclose violations without fear
                            of retaliation would report misconduct or illegal activity to FAMS.
                            Fewer respondents (54%) who believe they cannot disclose
                            violations without retaliation would report misconduct or illegal
                            activity to FAMS.

                            Fourteen percent of respondents took no action in response to
                            perceived discrimination, retaliation, or unfair treatment, because
                            they feared retaliation or further retaliation.18 On average, only 10%


18
  This is the total number of respondents who answered “Fear of retaliation” or “Fear of further retaliation”
for questions 56, 65, and 73, represented as a percentage of all respondents.

     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 60
                            of respondents who did attempt to resolve the problem of retaliation
                            or unfavorable treatment felt their actions were effective.19

                            Perceptions of Policies and Procedures for Addressing
                            Complaints and Disputes Are Mixed

                            Forty-six percent of respondents believe appropriate policies or
                            procedures exist to address complaints and disputes. Non-
                            managers are evenly split, with 38% who believe appropriate
                            policies or procedures exist and 38% who believe they do not exist.
                            Two-thirds of first-line managers (66%) believe appropriate
                            policies or procedures exist. More than three-quarters of senior
                            managers (82%) believe appropriate policies or procedures exist.

                            Only 18% of respondents who do not think they can disclose a
                            suspected violation of law, rule, or regulation without fear of
                            retaliation believe there are appropriate policies and procedures for
                            addressing complaints and disputes. This is a lower percentage
                            than respondents who believe they can disclose a suspected
                            violation of law, rule, or regulation without fear of retaliation.

                            More than half of respondents (56%) trust their supervisor to
                            respond appropriately to reported misconduct, complaints, or
                            disputes. However, on average, fewer than one-third of
                            respondents who believe they have been discriminated or retaliated
                            against notified their immediate supervisor.20 This difference may
                            be due to the belief among 66% of these respondents that a senior
                            manager in their office is responsible and 52% of these
                            respondents that their immediate supervisor is responsible for the
                            perceived discrimination or retaliation.21 Respondents who do not
                            think they can disclose a suspected violation of law, rule, or
                            regulation without fear of retaliation (47%) are less likely to trust
                            their supervisor.

                            Discipline Is Perceived as Unfair, Inconsistent, and Not at the
                            Appropriate Level of Severity

                            The majority of respondents believe discipline is unfair (see
                            figure 17) and inconsistent (see figure 18), and almost half believe
                            discipline is not at the appropriate level of severity (see figure 19).
                            Non-managers are more likely to have these perceptions, but a
                            considerable number of managers do as well. TSA is restructuring

19
   This is an average of “No” responses for questions 55, 64, and 72. 

20
   This is an average of responses to survey questions 54, 63, and 70. 

21
   These are an average of responses to survey questions 51, 60, and 68. Respondents could select more 

than one option.


     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 61
                       how it administers discipline across the agency. The new process
                       is a positive development that will address some of these concerns.

                       The 41% of respondents who believe they have been discriminated
                       or retaliated against or treated unfavorably have a far more
                       negative view of the discipline process within FAMS. They are
                       much more likely to believe managers are not held accountable for
                       misconduct or illegal activity and that the discipline process is
                       unfair, inconsistent, and not at the appropriate level of severity.

                                    Figure 17: The discipline process is fair, by pay band.
                                                    Positive    Neutral        Negative
                                    All Respondents        18             21                   53

                            Pay bands K, L, and TSES                      58                   15         21

                                          Pay band J            37                  24               32

                                       Pay bands D-I      14          21                      56



                                    Figure 18: Disciplinary actions are applied consistently
                                               for similar offenses, by pay band.
                                                    Positive    Neutral        Negative
                                    All Respondents       15         16                   57

                            Pay bands K, L, and TSES                  50                 17          20

                                          Pay band J            33             18              34

                                       Pay bands D-I     11      16                      60



                                    Figure 19: Disciplinary actions are at the appropriate
                                       level of severity given the offense, by pay band.
                                                    Positive     Neutral       Negative
                                    All Respondents        16          23                     49

                            Pay bands K, L, and TSES                  53                      20         18

                                          Pay band J            32              25                  32

                                       Pay bands D-I      12         24                   51


                       Fifty-two percent of respondents believe senior managers are not
                       held accountable if they engage in misconduct or illegal activity.
                       Additionally, 40% of respondents believe law enforcement
                       supervisors are not held accountable. This is a much lower

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 62
                            percentage than the 76% of respondents who believe Federal Air
                            Marshals are held accountable.

                            Job Satisfaction

                            Our survey incorporated job satisfaction questions similar to those
                            in the 2010 DHS Viewpoint Survey.22 Measuring job satisfaction
                            is important because it allows organizations to focus on employee
                            perceptions that ultimately drive productivity. Comparing rates of
                            job satisfaction across demographic characteristics such as race
                            and gender can also be informative because it allows organizations
                            to examine whether job experiences may be different for certain
                            groups of people. Even further, comparing the experiences and
                            perceptions of whites and nonwhites is a popular approach that can
                            yield informative results.

                            According to our survey, 53% of respondents reported that they
                            were very satisfied or satisfied with their job, compared with 68%
                            of respondents to the same question on the 2010 DHS Viewpoint
                            Survey. Additionally, 23% of our survey respondents expressed
                            that they were very satisfied or satisfied with their opportunity to
                            get a better job in the organization compared with 40% of DHS
                            respondents to the same question.

                            All groups reported similar levels of overall job satisfaction,
                            considering everything. However, notable percentages of
                            American Indian/Alaska Natives, Hispanics, African-Americans,
                            and females responded less favorably to specific questions related
                            to job satisfaction. For example, our survey results indicated—

                                     Thirty-five percent of Hispanics, compared with 43% of all
                                     respondents and 44% of white respondents, agreed or
                                     strongly agreed that they are given an opportunity to
                                     improve their skills in the organization;
                                     Twenty-seven percent of Hispanics, compared with 36% of
                                     all respondents and 37% of white respondents, feel
                                     encouraged to come up with new and better ways of doing
                                     things;
                                     Thirty-one percent of African-Americans and 31% of
                                     Hispanics believe their talents are used well in the
                                     workplace, compared with 39% of all respondents and
                                     41% of white respondents; and


22
  The survey results in our report are unweighted and represent only FAMS employees who completed
surveys. As a result, data may be biased because some subgroups of the survey population could be under-
or overrepresented. Unweighted survey findings that compare subgroups should not be generalized.

     Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 63
                                Sixty-seven percent of females agreed or strongly agreed
                                that the people they work with cooperate to get the job
                                done, compared with 75% of all respondents.

              Recommendation
                       We recommend that the TSA Administrator:

                       Recommendation #12: Create and implement an action plan to
                       address workplace issues identified in our survey. The plan should
                       include training for supervisors on communication and conflict
                       management that is tailored to the unique Federal Air Marshal
                       Service mission.


              Management Comments and OIG Analysis

                       Management Comments to Recommendation #12

                       TSA concurred with this recommendation. The FAMS Director’s
                       Office is creating an action plan to address issues identified in the
                       OIG survey and will provide a copy to us upon completion. The
                       plan will include information about the SFAM Leadership
                       Initiative, of which FAMS recently completed a pilot session.

                       OIG Analysis

                       We concur with TSA’s response. The plan should include
                       management’s strategy for addressing perceptions of discrimination,
                       retaliation, and favoritism, as well as strengthening the current
                       workplace environment, communication, diversity, reporting and
                       addressing misconduct, and job satisfaction. We will close this
                       recommendation pending receipt and review of TSA’s action plan.

                       This recommendation is Resolved – Open.


     FAMS Leadership Is Addressing Workforce Issues
              FAMS senior leadership has implemented various initiatives to address
              workforce issues, deter misconduct and illegal discrimination and
              retaliation, and respond to complaints, investigations, and adjudications.
              Those initiatives include the creation of the SAC Advisory Council,
              FAMS Advisory Council, J-Band Working Group, and Succession
              Planning Working Groups. In addition, all-hands meetings were held to
              discuss and identify workplace issues, develop recommended courses of
Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 64
              action, and designate committees to plan for implementation of the agreed
              course of action based on operational requirements. These initiatives have
              provided useful forums for increasing communication and collaboration
              between senior leadership and the workforce, particularly the field offices,
              and addressing workplace issues.

              As a result of the continued allegations of retaliation and discrimination in
              the Orlando field office and elsewhere, the FAMS Director visited several
              field offices to meet with employees. In August 2010, in an unprecedented
              move, the Director temporarily suspended operational activity at the
              Orlando and Tampa field offices to conduct a mandatory meeting for all
              FAMS employees assigned to those offices. The purpose of the meeting
              was to speak candidly with staff and to restore trust.

              Senior management has sought to build a culture of accountability.
              According to the Director, this culture is expected at all levels of the
              organization, from senior management to Federal Air Marshals and
              support personnel. People at every level must be accountable to their
              colleagues, agency, fellow law enforcement and industry partners,
              families, and Nation. It is an expectation that pertains not only to what
              they must do to improve the organization but also what they should do for
              the organization and for each other.

              The FAMS Advisory Council enhances communications and outreach
              efforts, promotes greater job satisfaction, and improves organizational
              effectiveness. Senior leadership also implemented additional processes
              and initiatives to address workforce issues. At the first FAMS Advisory
              Council meeting in September 2009, the Director challenged council
              members to identify how to cultivate and sustain a professional code of
              conduct and esprit de corps that would be inherent in their culture of
              accountability. As a result, the council identified continuous peer-to-peer
              and employee-to-supervisory communications as a top practice, with
              professional competence and personal responsibility having the most
              impact on job performance, personal advancement, and agency success.

              To promote a common culture within FAMS and address the “us versus
              them” perceptions, the Director accepted and implemented the FAMS
              Advisory Council’s recommendation to change the titles of first-line
              supervisors. He removed the term Special Agent from FAMS terminology,
              and in January 2011 he announced the following title changes:

                       Assistant to the Special Agent in Charge is now Supervisory
                       Federal Air Marshal.
                       Assistant Special Agent in Charge is now Assistant Supervisory
                       Air Marshal in Charge.


Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 65
                       Deputy Special Agent in Charge is now Deputy Supervisory Air
                       Marshal in Charge.
                       Special Agent in Charge is now Supervisory Air Marshal in Charge.
                       Senior FAMS titles of Deputy Assistant Director, Assistant
                       Director, Deputy Director, and Director are unchanged.

              In limited conversations, we noted that reaction to the title changes has
              been positive.

              In 2010, FAMS executive staff created the Succession Planning Working
              Group to address and recommend the initial steps to implement succession
              planning within FAMS. The Succession Planning Working Group held its
              first meeting in November 2010 and reviewed 10 succession plans of law
              enforcement entities from federal, state, local, civilian, and private sectors.
              The group made six recommendations to senior leadership, including
              creating a Leadership Development Program while focusing on
              organizational operations, strategic direction, leadership, and professional
              development for all employees; providing personnel opportunities through
              temporary developmental assignments; and establishing career paths for
              Federal Air Marshals and mission support personnel so that the employees
              can determine which career path coincides with their background and
              work experiences. At the time of our report, senior leadership was
              considering the group’s recommendations. Implementing these
              recommendations would assist personnel in directing the course of their
              careers.

              On February 11, 2011, the Director met with all headquarters personnel to
              discuss changing the cultural mindset at all levels of the organization from
              one of a top-down management structure to one of solving problems for
              Federal Air Marshals who protect flights worldwide every day.

              Senior management believes some personnel have interpreted the culture
              of accountability as a “gotcha” mentality, in which managers should
              discipline rigidly to achieve compliance. Although employees who are
              involved in misconduct will be disciplined, the Director expects personnel
              at all levels to practice leadership and where appropriate develop their staff
              to grow with the organization. The culture of accountability is a “help you”
              mentality in which accountability and leadership go hand in hand.

              The Director intends to deliver this message during field office visits
              throughout the year and is developing a leadership initiative in which all
              supervisors will participate. The leadership initiative will permit all
              supervisors to pause and reflect upon their leadership style while learning
              about resilient leadership and critical incident awareness. The training
              will conclude with a case study workshop designed to identify, through
              open dialogue with peers, possible solutions to a set of scenarios that

Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 66
              supervisors may encounter concerning other employees. During the
              initiative, each SFAM will also have the opportunity to meet with the
              Director or Deputy Director to discuss expectations for leading the FAMS
              workforce.

              In 2011, FAMS, in partnership with TSA’s Office of Civil Rights and
              Liberties, established collateral duty assignments for Federal Air Marshals
              to serve as liaisons between FAMS field offices and the TSA EEO program.
              The liaison role was created to facilitate the flow of information between
              FAMS employees and EEO program staff regarding the informal and
              formal complaint processes. In addition, liaisons provide referrals to EEO
              staff at TSA headquarters and assist with accessing information about
              EEO and diversity training. Liaisons were selected for each FAMS field
              office, and they participated in 3 days of training in June 2011.




Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                               Page 67
Appendix A
Purpose, Scope, and Methodology

                         We reviewed allegations of widespread misconduct and illegal
                         discrimination and retaliation in FAMS. In January 2010, Senator
                         Nelson asked that we review allegations of illegal discrimination
                         and retaliation in the Orlando, Florida, FAMS field office and the
                         extent to which those alleged conditions existed nationwide. In
                         February 2010, Representative Towns asked that we review the
                         creation and use of an offensive training tool. In July 2010,
                         Representative Issa asked that we review the use of an offensive
                         assignment board and how FAMS and TSA handled the matter.
                         Our objectives were to determine whether (1) the facts confirm
                         specific allegations of misconduct and illegal discrimination and
                         retaliation in Orlando; (2) the TSA Office of Inspections provided
                         objective, complete investigations of the allegations in Orlando;
                         (3) FAMS management responded appropriately to the allegations
                         in Orlando; (4) misconduct and illegal discrimination and
                         retaliation are widespread in FAMS; and (5) FAMS has established
                         effective processes for deterring misconduct and illegal
                         discrimination and retaliation and for responding to complaints,
                         investigations, and adjudications.

                         We reviewed applicable laws, regulations, and directives regarding
                         EEO and the various complaint processes. We also reviewed
                         demographics, conduct and performance information, and TSA
                         and FAMS standards, policies, and procedures. In addition, we
                         reviewed TSA OOI investigation and inspection reports and
                         discussed their results with TSA OOI officials.

                         We conducted more than 300 interviews of officials within DHS,
                         TSA and FAMS headquarters, the EEOC, the MSPB, and current
                         and former FAMS personnel from various field offices. TSA and
                         FAMS senior leadership cooperated and consulted with us
                         throughout the review. We conducted site visits to the FAMS
                         Orlando and Tampa, Cincinnati, Minneapolis, Charlotte, and
                         Dallas field offices. During our site visits, we obtained or
                         reviewed employee, operational, and discipline records.
                         Additionally, individual Federal Air Marshals provided us with a
                         variety of documents. The majority of Federal Air Marshals we
                         interviewed in field offices asked to be interviewed. We requested
                         and conducted interviews with all supervisors and managers in
                         each of the five field offices. Of the more than 300 interviews, 23
                         were telephone interviews with FAMS personnel from the
                         following field offices: Atlanta, Chicago, Los Angeles, Miami,
                         New York, Reston, and Washington, DC.

                         We selected FYs 2006 to 2010 for purposes of analyzing discipline
                         data, court decisions, and other records. We did not investigate
  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 68
Appendix A
Purpose, Scope, and Methodology

                         any ongoing cases or complaints; however, we did refer numerous
                         inquiries to the OIG Hotline.

                         From February to April 2011, we conducted a confidential survey
                         of the FAMS workforce to measure employees’ perceptions of
                         discrimination, retaliation, and favoritism. The survey was
                         administered electronically over a 36-day period. We consulted
                         DHS’ CRCL and FAMS on our survey questions before launching
                         the survey. The survey results in our report are unweighted and
                         represent only FAMS employees who completed surveys.
                         Unweighted data may be biased because some subgroups of the
                         survey population are under- or overrepresented. Unweighted
                         survey findings that compare subgroups cannot be generalized to
                         the survey population.

                         We began our fieldwork in May 2010 and ended it in April 2011.
                         This review was conducted under the authority of the Inspector
                         General Act of 1978, as amended, and according to the Quality
                         Standards for Inspections issued by the President’s Council on
                         Integrity and Efficiency.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 69
Appendix B
Recommendations

                         We recommend that the TSA Administrator:

                         Recommendation #1: Identify other means to obtain information
                         on Federal Air Marshals’ performance that could assist supervisors
                         when preparing evaluations.

                         Recommendation #2 (Revised): Provide guidance regarding the
                         types of incidents the Federal Air Marshal Service should and
                         should not report to the Office of Inspection in an incident tracking
                         report.

                         Recommendation #3: Provide additional guidance and
                         clarification regarding employee ineligibility for favorable
                         personnel actions when there is a pending disciplinary matter that
                         spans performance cycles, including when the period of
                         ineligibility begins and ends. The guidance should be
                         disseminated to all Federal Air Marshal Service personnel.

                         Recommendation #4: In consultation with the Director of the
                         Federal Air Marshal Service, the Assistant Administrator of the
                         Office of Professional Responsibility, and the Assistant
                         Administrator of the Office of Human Capital, provide guidance
                         and clarification regarding how long prior corrective or discipline
                         actions should be considered and for which types of incidents.
                         Current training to supervisors and the workforce concerning
                         conduct should be assessed and additional training provided as
                         necessary.

                         Recommendation #5: Develop a comprehensive system to track
                         all stages of the discipline process.

                         Recommendation #6: Establish additional guidelines that set
                         forth selection criteria for Federal Air Marshal ground-based
                         positions.

                         Recommendation #7: Provide additional guidance and
                         clarification for awards and in-position increases, including
                         whether they can be rotated among staff and given to the same
                         employee in back-to-back years, and to what extent managers
                         should consider discipline issues.

                         Recommendation #8: Evaluate whether the Federal Air Marshal
                         Service should remove specific limits on the number of Senior
                         Federal Air Marshals allowed in each office and establish
                         eligibility criteria for designation as a Senior Federal Air Marshal


  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 70
Appendix B
Recommendations

                         based on specific mission and length-of-service achievements, in
                         addition to the performance requirements already in place.

                         Recommendation #9: Communicate specific application criteria
                         to all J-band promotion applicants at the beginning of each
                         promotion cycle.

                         Recommendation #10: Review evaluation and assessment
                         procedures for the J-band promotion process and revise as
                         necessary to ensure that certification lists contain the best qualified
                         candidates.

                         Recommendation #11: Develop guidelines to define when
                         Federal Air Marshals can be removed from international flight
                         schedules, including what performance and conduct issues can
                         cause a Federal Air Marshal to be removed and the duration of the
                         restriction.

                         Recommendation #12: Create and implement an action plan to
                         address workplace issues identified in our survey. The plan should
                         include training for supervisors on communication and conflict
                         management that is tailored to the unique Federal Air Marshal
                         Service mission.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 71
Appendix C
Management Comments to the Draft Report



                                                                                 u.s. Dtplrtmtnt or Homtl.nd Stturlty
                                                                                 601 South 12th SlTeel
                                                                                 .... lhJl&tOll,VA 20598


                                                                                 Transportation
                                                                                 Security
                                                                                 Administration

              NOV 29 201\



                                                 INFORMAT ION


         MEMORANDUM FOR:                        Charles Edwards
                                                Acting Inspector General
                                                U,S. Department of Homeland Security (DHS)

                                                                          A7.~/
         FROM :


         SUBJECT:
                                           (ff"    hIlS . PiSlOI.di.tJ.
                                                  dmlnlstrat~
                                                            I

                                                 Response to Draft Report, Allegations of Misconduct ami
                                                 JIlega/ Discrimination and Retaliation ill the Federal Air
                                                 Marshal Service, August 2011




         This memorandum constitutes the Transpol1ation Security Administration ' s (TSA's) response to
         the DHS Office of the Inspector General (O IG) draft report, AI/ega/ions of Misco"duct and
         Illegal Discrimination and Retaliation in the Federal Air Marshal Service, dated August 2011.

          Background:

          In March 2010, OIG initiated a review of all egations of widespread misconduct and illegal
          discrimination and retal iation in the Office of Law Enforcement/Federal Air Marshal Service
          (OLEIF AMS). The review began after allegations were made regarding the FAL'Y1S Orlando
          Field Office. The review was requested by Senator Bill Nelson and Congressmen Edolphus
          Towns and Darrellissa.

          As noted by the QIG in their report , TSA and FAMS leadership closely cooperated with the OIG
          during the course of this extensive review. During this rev iew, the OIG vis ited five FAMS Field
          Offices; interviewed more than 300 DHS, TSA and FAMS officials; and conducted a survey of
          the FAMS workforce, which waS admin istered electronicall y over a 36 day period and in which
          approximately SO percent of the FAMS workforce participated.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                      Page 72
Appendix C
Management Comments to the Draft Report



                                                                                                                      2


         The D IG's draft report concludes that their review did not sup
                                                                      suppport a finding of widespread
         discrimination or re
                           retalia
                              taliattion in the FAMS. However, th
                                                                thee draft repo
                                                                            eport
                                                                                rt did sta
                                                                                       stale
                                                                                           le that employees'
         perceptions of discrimination and retaliation are extensive.

         The dr aft report issued b y OIG identified 12 recommendations for TSA. The recommendations
              draft
         include formalizing in writing or clarifying pol icies or guidance in a variety of topics related to
         human capital, work assignments. di scipli ne processes, and awards
                                                                        awards.. The recommendations also
         includee FAMS creating an action plan to addr
         includ                                      ddress
                                                         ess workplace issues iden
                                                                               identtifie
                                                                                     ifiedd in th
                                                                                               thee DIG's
         work fo
              force
                 rce survey_


         Discussion:

         TSA greatly appreciates the work done by OIG during the course o f this review and intends to
         use t his valuable infonnation to assist our effo
                                                      effort
                                                           rtss to continue to improve TSA a nd the FAMS .

         While DIG found no evi dence o f widespread retaliation or discrimination in FAMS, we
         understand the importance o f O IG's additional findings that employees
                                                                            employees'' perceptions o f
         discrimination and reta
                             etalliation are extensive and th that
                                                                at limited transparency in management
         decisions and poor co
                            communi
                               mmunicatio
                                        cationn arc at the ce
                                                           cent
                                                              nter
                                                                er of these perceptions.

         The FAMS is the Office of Law Enforcement within TSA a nd is a cri tical layer ofTSA ' s
         securr ity for the Nation's tran
         secu                        transporta
                                          sportatition
                                                    on systems
                                                       systems.. It is therefore imp
                                                                                 important
                                                                                     ortant to note OIG's finding
         that the FAMS' mission perfonnance was found to not be adversely affected.

         As OIG notes in their report
                                 report,, FAMS has experie
                                                       experien nced many organizational c hallenges si nce 9 / 11 ,
         including being built up at an i ncredi
                                            credibb ly fas
                                                        astt rate to meet the Nations' security challe
                                                                                                  challen
                                                                                                        nges
                                                                                                          ges,,
                  thee culture of many different law en for
         merging th                                          force
                                                                cemm ent and security age
                                                                                      agennc ies, and migrating
         between three d ifferent parent o rgan
                                             ganii zations.

         OIG ' s repo
         OIG'     eport
                      rt notes that the vast majority of cases fil ed invo
                                                                         involl ving the F AMS have bee beenn decided in
         the Agency
              Agency'' s favor
                          avor.. Since 2005 (when FAMS returned to TSA from U.S . Imm          Immigration
                                                                                                     igration and
         Customs Enforcement) less than 3 percent of th       thee discrimination cases brou
                                                                                           brougg ht before the Equal
         Empployment Opportunity Co
         Em                             Comm
                                          mm iss
                                               ission
                                                  ion,, to date, have resulted in a finding of discrimination .
         Furth
         Fu rtheeml
                 mlore.
                    ore. as is noted in the re
                                             report
                                               port,, si nce 2005 more than 94 percent o f Merit Systcms
         Protection Board appea
                              appealls invol
                                        nvolving
                                             ving FAMS have bee   beenn decided in the Age
                                                                                         Agen ncy's favo
                                                                                                      avorr. Also,
         noted in the OIG report, since 2005 t he re has not been a si ngle find i ng of discrimination against
         FAI\1S or TSA in a Federal district coun case involving FAMS      FAMS..

         The OIG notes that FAMS and TSA senior leadeleaders
                                                          rship
                                                             hip have implemented numerous proactive
         measures to work on addressi
                             addressinng Ihe issues raised in the report

         Most notably, the Director o f the F AMS has implemented a C ulture of Accountability within th
                                                                                                      thee
         FAMS . The C ulture of Accountability at FAMS requires that a ll FAMS employees be
         FAMS.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                            Page 73
Appendix C
Management Comments to the Draft Report



                                                                                                              3


         accountable to the mission, the Agency, fellow law enforcement and ind ustry panners, thei r
         families and the Nation. As the OIG notes in their report, the Culture of Accountability outli nes
         what FAMS e mployees are obligated to do to both improve the organization as well as how they
         should treat each othe r.

         Other proactive measures taken by FAMS and TSA, man y of which were noted by 01G in their
         report, incl ude:


             •   FAMS/Office of Civil Rights and Liberties (OCRL) Equal Employment Opportunity
                 (EEO) Points of Co ntact (POCs)-F AMS. in partnership with TSA OCRL, has established
                 co llate ral duty assignments to serve as liaisons between FAMS Field Offices and the
                 TSA OCRL Program . The purpose of this new assignment is to assist with the easy flow
                 of information between F AMS employees and the OCRL staff. F AMS/OCRL EEO
                 POCs are now established in each F AMS Field Office.

             •   Supervisory Federa l Air Marshal (SFAM) Leadership Initiativc--FAMS has recently
                 completed a pilot session of the SFAM Leadership Initiative for new FAMS supervisors.
                 Th is in itiative requires each SFAM to participate in training at OLfIFAMS Headquarters .
                 The training emphasizes the importance of communication, relationship-bui ld ing, and
                 support of personnel to continue the transformation of the OLFJFAMS culture.
                 Discussions d uring the initiative emphasize the welfare of employees and focuses on
                 mission performance in an environment of res ilient leadership.

             •   OLFJFAMS Advi sory Council- The OLEIFAMS Advisory Council provides the
                 opportunity for sustained engagement with the OLFlFAMS workforce and provides
                 OLflFAMS personn el a structured forum to identify issues, comm unicate key topics to
                 OLEIFAMS Senior Leadership, and identify recommendations for action that impact
                 service-wide operations. The OLEIFAMS Advisory Council is composed of non-
                 supervisory Federal Air Marshals (F AMs) and non-supervisory Mission Support
                 Personnel fro m throughout the OLEIF AMS workforce.

             •   OLEIF AMS Listen ing Sessions- The FAMS Director hosts several listening sessions per
                 year for SFAMs and FA Ms from fi eld offices throughout the cou ntry. Attendees travel to
                 OLF.JF AMS Headquarters and are encouraged to ask quest ions and present issues to
                 subject matter ex.perts at each listening session. The listening sessions promote the direct
                 exchange o f information and reso lution of issues ari sing in the field. The Director and
                 Deputy Director also hold quarterly sessions with a group of F AMs to discuss issues in a
                 less fomlal offsite envi ronment to enhance communication and outreach efforts with
                 mission night status F AMs.

             •   OLFIFAMS Work ing Groups-8ince April 2006, OLE/FAMS has conducted a number of
                 assessments focused on various program areas through the formation of working groups.
                 These working groups are structured to review a specific program area or issue. T hey
                 develop recommendations to enhance Agency operations and the quality of life for




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 74
Appendix C
Management Comments to the Draft Report



                                                                                                           4


                OLEIFAMS personnel. The working groups have included OLE/ FAMS personnel
                representing all levels of the workforce.

            •   Senior Executive Person nel Field Office Visits- There is a new struc tured effort to
                coordinate OLEIFAMS seni or executives' visits to FAMS Fie ld Offices. Senior
                executive personnel have visited a numberofOLEIFAMS Field Offices during the past
                year. During the Field Office visits, the senior executives meet with the Field Office
                non-supervisory and management personnel 10 d iscuss current issues and exchange
                infomlation.

            •   OCRUSupervisory Air Marshals in Charge (SAC) Conference- A 3 day SAC and
                executive level (Assistant DirectorsIDeputy Assistant Directors) conference, coordinated
                with TSA OeRL, devoted exclusively to discussion/training around EEO and diversity
                issues. As a result of Ihe conference, all Field O ffi ce SACs are req ui red to develop and
                implement an EEOfDiversity Action Plan for their offtces.

         Furthermore, as is also noted in the repon, FAMS has made a number o f significant leadership
       . reassignments to mai ntain consistency with the new Culture of Accountability. In addition, TSA
         believes that the new discipline process for FAMS and TSA, most notably the creation of the
         new Office of Professional Responsibility. will creatc far greater transparency and consistency
         for the FAMS discipline process.

         TSA intends to continue to vigorously pursue these proactive measures to address workforce
         issucs identifi ed by the OIG in this report. TSA and FAMS will also work closely with the OIG
         to implement the important recommendations made in this report . TSA believes these actions
         will create better communi cation and will improve the understanding and implementation of
         policies set fonh by TSA. tn add ition, TSA is reviewi ng the OIG survey and plans to fu nher
         address the topics and concerns that it raises.

         For additional and specific comments regardi ng the report, please see TSA's response to the OIG
         recommendations that follows.

         Conclusion:


         FAMS and TSA recognize the imponant issues set forth in this report and are committed to
         working to resolve these issues. The unprecedented level of cooperation between OIG and TSA
         and FAMS leadership has made this review especially productive.

         TSA has already begun to fannulate plans to implement the recommendations contained in the
         report. Our specific response to each recommendation follows.

         Attachment




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 75
Appendix C
Management Comments to the Draft Report




                                    U.S. Department of Homeland Security
                                T rans po r tatio n Security Ad minis trati on (TSA)

                       Response to O ffic e of the I nspecto r Genera l (OIG) Draft Report,
                          Allegations of Misconduct and Illegal Discrinrinaiion and
                                Retaliation in th e Federal Air Marshal S ervice


         Reco mmend ation 1: Iden tify other means to obtain information on Fe der al Air M arshals'
         performance that co uld assist sup ervisors when pr eparing evalu atio ns.

         TSA concurs. O IG acknowledges the un ique nature of the Office of Law Enfo rcementlFederal
         Air Marshal Service (OLEIF AMS) mission. The challenges in supervising and managing a
         largely mobi le workforce are simi larly unique.

         We bel ieve it would be benefi cial to OLEfFAMS ifan independent ent ity were able to assess this
         issue and make recommendations concerning its reso lut ion. Therefore, TSA and FAM S are in
         the process of ident ifying an independent entity to conduct a review o f this iss ue and make
         necessary recommendations. This acti on is contingent upon obtaining adequate funding.
         OLFlFAMS will notify the 0 1G of its progress in identifying an independent ent ity and will
         provide regul ar updates on iI's progress.

         Recommendatio n 2: 'Provide guid ance rega rd ing th e ty pes of incidents th e Federa l Ai r
         Mars ha l Sen-ice s hould and should not report t o tb e Offi ce of In spectio n in an in cid ent
         tracking report, th e types of incid ents tb e O ffice of In specti on can delegate to the Fed eral
         Ai r Marshal Sen-icc for investi ga tion, a nd the Office of Profess io nal Responsibili ty's
         C?versight responsibility for di sc iplin ar y actions ta ken aga in st Federa l Air Marshals.

         TSA co ncu rs. TSA has promul gated new policies providing that all allegations o f misconduct
         involvi ng Fed eral Air Marshals wi ll be investigat ed by the Offi ce of Inspection (001) and
         adj udicated by the O ffi ce of Pro fessional Responsibility (OPR). Thi s is set fOl1h in TSA
         Management Directive (M D) 11 00.75-7, Office o f Professional Responsib il ity. and will ensure
         independence in the investi gati on and adjudication process.

         Accordi ngly. we suggest that the currenl dra n Recommendation be revised to read: "Provide
         gui dance regard ing the types o f incidents the Federal Air Marshal Service should and should nOl
         report to the O ffi ce o f Inspection in an incident tracking repon :'

         Reco mmendat ion 3: Provid e add itional guid ance and clarific atio n regard ing employee
         incllgibi lit), fo r favo rable personn el actions when th ere is a pend ing d iSciplina ry matter
         tb at spans performan ce cycles, includ ing wh en the period of in eligibility begin s and end s.
         T he guidance should be d isse min ated to aU Fed eral Air M ars ha l Senoice personn el.

         TSA concurs. OLE/FAMS and the TSA Offi ce of Human Capital (OHC) are working together
         to address these issues. Guidance wi ll be developed to streamline the use and interpretat ion of




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                        Page 76
Appendix C
Management Comments to the Draft Report



                                                                                                                    2

         TSA MD 1100.53-8 Selling Pay After Appointment, pinpointing any needs specific to the FAMS .
         More detailed guidance will be issued to supervisors in particular, and clarification will be
         provided to the staff as well.

         White guidance and clarification can and will be provided, defin itive timelines cannot be given
         regarding emp loyee ineligibility for favorable personnel actions when there is a pending
         discip linary matter because it limits superv isors' abili ty 10 manage issues on a case-by-casc
         basis.

         Recommendation 4: In consultation with the Director of tbe Federal Air Ma n bal Serv ice,
         th e Assistant Administrator of tb e Office of Profess ional Responsi bil ity, and th e Assistant
         Administ r a tor of t he Offi ce of Huma n Capita l. p rovide guid a nce a nd cl a rification
         rega rd ing how long prior c orr~ t iye or discipline actions sho uld b e con sid er ed a nd fo r
         which typ es of incidents. C u rrent t raining to supervisors a nd the workfo rce concernin g
         condu ct s ho uld be assessed a nd additio na l t raining provided as necessary.

         TSA concu rs. Based on discussions with OIG representatives, the underlying concern for this
         recommendation relates to the retention and continued use of Letters of Counseling andlor
         Letters of Warning. Letters of Counseling are considered corrective, not disciplinary, action and
         depending on the particular infraction, management has the discretion to consider such actions in
         assessing future incidents of misconduct. Letters of Reprimand are the least sevcre fOlTTl of
         disciplinary action that may be issued to address unacceptab le perfonnance or conduct, and are
         maintained for a limited time and purpose.

          OHC. OPR, and OLEJF AMS are working together to develop additional guidance and
          clarification to supervisors. Training materials and reminders on conduct will be assessed and
          issued .

          R ecomm enda tion 5 : Develo p a co m pr e hensive sys te m to t rac k a ll stages of t he d isciplin e
          process.

          TSA concurs. In April , 2011, TSA began a collaborative effort between the TSA OHC, OPR,
          001 , and Chief Infonnation Office to c reate one common database to track all phases of the
          disciplinary process. An Integrated Project Team OPT) was created with representatives andlor
          subject matter experts from each of these offices. The IPT has met on a regular basis since Apri l
          201 I, with thc majority of meetings occurring on a weekly basis.

          The Employee Relations Case Management Tracking system was designated to be the platfoml
          to expand and provide functionality for OPR and 001. Since OPR 's requirements were simi lar
          to the existing system, the functionality to enter and track OPR cases was an easy solution and
          was implemented in June 201 1. Since developing the OPR's initial requirements, which was
          done prior to rece iving cases, additional funct ionality was identified and implemented in October
          201 1.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                          Page 77
Appendix C
Management Comments to the Draft Report



                                                                                                             3

         The majorityofthe focus of the IPT has been to understand 001'5 funct ional requirements and
         the process flow from each office. This is a more extensive cfCon and in September 2011, the
         funct ional requirements were approved. Throughout the remainder 0[20 II, the functionali ty for
         001 and process flow between these offices will be developed, tested, and implemented.

         Reco mmendation 6: Esta blish additiona l guidelines th at set fort h selection criteri a fo r
         Federal Air Marsha l ground-based positio ns.

         TSA concurs. In March 2011, a guidance e-mail was scnt to all Fie ld Office Supervisory Air
         Marshals in Charge (SACs) regarding the length of Ground Based Assignments (GBAs) and the
         granting of extensions for these assignments. All announcements for GBA assignments both at
         the national and local level include verbiage on how to apply. what core competencies are
         required and the length of time a FAM can occupy the assignment.

         Field Office SACs have been infonned to communicate with their workforce on how the
         selection process is structured, and to employ a panel of supervisors to review, intcrview, and
         rank the GSA candidates. Those not selected will be provided feedback in what way they can
         improve for possible future selections.

         The Field Office SAC has some discretion on the length ofGBAs for G, l-I and l-Band FAMs at
         Field Office; specifically in Operations, Training, Airpon Operations and Joint Terrorism Task
         Force positions. Generally, the length of the GSA assignment by new guidance should not
         exceed thirty-six consecutive months. However, individual assignment length may be subject to
         adjustment based on operationa l necessity. If a special circumstance requires a GSA assignment
         to be extended, a memorandum requesting the extension must be submitted to their Regional
         Deputy Assistant Director (DAD) for approval.

         A FAM who completed a 36 month assignment in one of the above GSA pOSitions shall not be
         eligible fo r another GSA until helshe has been on mission flight status for twelve consecutive
         months.

         In addition, on April 1, 2011, new guidance was set for the length of GSA Visible lntennodal
         Prevention and Response (VIPR) Program assignments at Field Offices. At the SACs'
         discretion, they may extend the assignment up to a maximum of one year. All of these noted
         guidance e-mails have previously been provided to the OIG.

         Although these guidance e-mails have previously been provided to FAMS Field Offices in
         regard to GBAs, OLEIFAMS is preparing additional consolidated guidelines setting fonh GSA
         selection criteria that will be provided to the Field Offices.

         Reco mmendati on 7: Provide additional guidance aDd cl arifi ca tion for award s and in-
         position incr eases, in cludin g wh eth er th ey can be r otated among st aff a nd given to th e sa me




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                        Page 78
Appendix C
Management Comments to the Draft Report



                                                                                                         4


         employee in back-to-back years, and to what extent managers shou ld cons iller discipline
         issues.

         TSA concurs. OHC and FAMS are working together 10 address these issues. Guidance will be
         developed to clarify TSA MD 1100.45-1 . Awards ami RecognitiOn., and TSA MD 1100.53-8,
         Setti"g Pay After Appoimmelll, to especially focus on pinpointing any needs specific (0 the
         FAMS.

         Clarification will be given on awards and in-position increases explain ing why nexibility is
         necessary 10 allow management to reward top performers on a regular basis. Guidance and
         clarification on existing policy will serve to mitigate issues surrounding the perception of
         favoritism, while still allowing management to usc their judgment and discretion concerning the
         granting of an appropriate award or in-position increase. Issues relating to the applicability of
         disciplinary actions will be discussed between OHC and OLEIFAMS to provide clarification to
         the workforce.

         Recommendation 8: Evaluate whether the Federal Air Marshal Service should remo\'e
         specific limits on th e number of Senior Federal Air Marsbals allowed in each office and
         establish eligibility criteria for designation as a Senior Federal Air Marshal based on
         specific mission and length-of-service achievements, in add ilion 10 th e performance
         requirements already in place. The Federal Air Marshal Service shou ld clearly articulsle
         any new criteria 10 field offices.

         TSA concurs. The OLEfFAMS is examining the Senior Federal Air Marshal (Senior FAM)
         Program to detennine any changes that may be necessary.

         OLEIFAMS Senior Leadership believes that the Sen ior FAM Program has served a beneficial
         purpose recognizing many deserv ing Federal Air Marshals meeting the detcnn ined mission and
         perfonnanee qualifications. However, OLEIFAMS Senior Leadership has tasked the
         Supervisory Air Marshal in Charge (SAC) Advisory Council and the OL EIFAMS Advisory
         Council to consider all facets of the Senior FAM Program in an effort to develop a program
         better suited for the development and recognition of Federal Air Marshals.

         An ad hoc committee made up ofrepresent3tives from the SAC and OLEIFAMS Advisory
         Councils will convenc in the coming months to discuss recommendations from each Council
         regarding the Sen ior FAM Program. All facets of the program will be considered. including the
         items cited in this recommendation. A primary consideration of the ad hoc committee regarding
         the Senior FAM Program will be consistency in application throughout OLEIFAMS. The ad hoc
         committee will develop recommendations fo r consideration and implementation by senior
         leadership. Any new criteria for the program will be communicated to the entire FAMS.

         Recommendation 9: Communicate speCific application criteria to all J-band promotion
         applieanls at tbe beginning of each promolion cycle.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 79
Appendix C
Management Comments to the Draft Report



                                                                                                              5

         TSA ConCurS but would Dote tb at TSA bas already addressed th is recommend ation. The
         FAM J-Band promotion job opportunity is posted on USAJobs.gov to reach all interested FAM
         applicants. The process is also communicated to all FAMS employees via a FAMS broadcast
         message which includes a timelinc for the process, instructions on how to apply, and resource
         materials for the applicant. Resource materials include the standardized job desc ription for the
         position, a candidate preparation manual, and a frequently asked questions reference sheet.
         There are also two informational sessions conducted to provide an overview of the J-Band
         application process. One of the sessions is also recorded and added to the FAMS homepage so
         individuals may listen to the session in the event he or she is not able to participate. Employees
         are also made aware of the TSA Career Coaching Services to assist personnel wlIh a variety of
         career development issues including completing application packages. Detailed information
         regarding the career coaching services available to assist FAMs with completing the application
         is also available on the FAM J Band Promot ion Process site on the FAMS Homcpage.

          in addition to the items noted above, the Candidate Dashboard was recently implemented for the
          FAM J-Band Promotion Process effective on October 1,2011. The Candidate Dashboard is an
          electronic hiring system that enables each applicant to track their status through each phase of
          the application process.

          Reco mmend ation 10: Review evalu ation and assessment procedures for th e J -band
          promotion process and rev ise os necessary to ensure thai certification lists contain th e b est
          qu alified cand id ates.

          TSA concurs. OHC is currently pannering with OLEIF AMS to review and recommend
          improved candidate evaluation and assessments specifically in regards to J-band promotions.
          TSA will continue to furthe r these efforts to ensure that certification lists contain the best
          qualified candidates.

          Recommend ation 11 : Develop g uid elin es to defin e wh en Fed eral Air Marshals can be
          removed from internat ionol fli ght sc hedules, in clud ing what perfo rman ce a nd conduct
          issues ca n ca use a Fed eral Air Ma rshal to b e removed and th e duration of th e restriction.

          TSA concurs. As OIG notes in their report, international missions are the most sensitive
          missions that a Federal Air Marshal (F AM) will fly. OIG rightly points out that these missions
          are long and often in areas where there is no immediate ground landing possible and no
          immed iate FAM or other U.S. support available. International missions are highly sensitive
          missions whereby a FAM must subscribe to the rules and laws of the nation they are visiting and
          where issues could potentially affect FAMS missions overseas andlor create oth~r serious
          diplomatic ramifications.

          Therefore, international missions are assigned to FAMs who are perfomling at or above expected
          levels; who have gained their supervisor' s confidence; and have demonstrated the requisite
          professionalism, ability, and skills. Employees not performing up to these expectations- who do




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 80
Appendix C
Management Comments to the Draft Report



                                                                                                         6


         not demonstrate the ability to follow supervisory direction or work independently while
         following FAM polices or procedures- have to be scheduled less sensitive work assignments.
         This type of personnel detennination must be evaluated on a case-by~case basis. For these
         reasons, final supervisory authority regarding FAMs and international missions must rest with
         the Field Office management who best know the strengths and weaknesses creach FAM.
         However, clarification regarding the removal ofFAMs from international missions will be
         provided to the Field Offices,

         Reco mmendation 12: Create and implement an action pla n to address workplace iss ues
         identified in our survey. The plan should includ e tra ining for supervisors OD
         communica tion a nd co nflict man age ment that is ta ilor ed to th e unique Federal Air
         Marsh al mission.

         TSA Concurs. The F AMS Director's Office is actively creating an action p lan 10 address the
         imponant workplace issues identified in the DIG workforce satisfaction survey and a copy will
         be provided to OIG upon completion.

         TSA notes that FAMS has recently completed a pilot session of the Supervisory Federal Air
         Marshal (SFAM) Leadership Ini tiat ive. This initiative requires each SFAM to participate in
         training at OLEIF AMS Headquaners. The training emphasizes the importance of
         communication, relationship·buitding, and support of personnel to continue the transformation of
         the OLEJFAMS culture. Further infomlation about the SF AM Leadership Initiative and other
         actions taken by OLEIFAMS will be: provided to the 01G in the action plan.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                      Page 81
Appendix D
Selected EEO Laws, Regulations, and Executive Orders

                EEO is set forth in a number of laws, federal regulations, and Executive
                orders that, among other things, prohibit retaliation against an individual
                who complains about discrimination, files a charge of discrimination, or
                participates in an investigation or lawsuit pertaining to discrimination in
                the workplace. The laws, federal regulations, and Executive orders
                pertaining to EEO include the following:

                Laws

                Title VII of the Civil Rights Act of 1964
                This law prohibits employment discrimination based on race, color,
                religion, sex, or national origin. Employers also must provide reasonable
                accommodation of an employee’s religious beliefs or practices, unless
                doing so would cause an undue hardship on the employer.

                The Pregnancy Discrimination Act
                An amendment to Title VII, this law prohibits employment discrimination
                against a woman on the basis of pregnancy, childbirth, or a medical
                condition related to pregnancy or childbirth.

                The Equal Pay Act of 1963
                This law protects men and women who perform substantially equal work
                in the same establishment from wage discrimination based on their sex.

                The Age Discrimination in Employment Act of 1967
                This law protects people who are 40 years of age or older from
                employment discrimination based on age.

                Sections 102 and 103 of the Civil Rights Act of 1991
                This law amends Title VII and the Americans with Disabilities Act by
                permitting jury trials and the award of compensatory and punitive
                damages in cases of intentional employment discrimination.

                Sections 501 and 505 of the Rehabilitation Act of 1973
                This law prohibits employment discrimination against qualified
                individuals with disabilities in the federal government. Employers also
                must provide reasonable accommodation for known physical or mental
                limitations of an otherwise qualified individual, unless doing so would
                cause undue hardship on the employer.

                The Notification and Federal Employee Antidiscrimination and
                Retaliation Act of 2002 (The No FEAR Act of 2002)
                This law holds federal agencies accountable for violations of
                antidiscrimination and whistleblower protection laws by requiring that
                each agency post certain statistical data pertaining to EEO complaints filed


  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 82
Appendix D
Selected EEO Laws, Regulations, and Executive Orders

                against it. Federal agencies also must make employees aware of the
                various antidiscrimination and whistleblower protection laws.

                The Whistleblower Protection Act of 1989
                This law protects employees, former employees, and job applicants from
                retaliation or adverse treatment for disclosing information reasonably
                believed to constitute a violation of law, rule, or regulation, or gross
                mismanagement, gross waste of funds, abuse of authority, or substantial
                danger to public health or safety.

                Executive Orders

                Executive Order 11478, as amended (1971): This directive reiterated the
                federal government’s policy to provide equal employment opportunity on
                the basis of merit and fitness and “without discrimination because of race,
                color, religion, sex, or national origin.”

                Executive Order 12106 (1978): This directive amended Executive Order
                11478 to expand its coverage to include nondiscrimination based on age
                and disability.

                Executive Order 12968 (1995): This directive bars denial of a security
                clearance on the basis of sexual orientation.

                Executive Order 13087 (1998): This directive further amended Executive
                Order 11478 to prohibit discrimination based on sexual orientation in the
                federal civilian workforce.

                Executive Order 13163 (2000): This directive promotes a policy designed
                to increase opportunities for individuals with disabilities employed at all
                levels and occupations in the federal government.

                Executive Order 13164 (2000): This directive requires federal agencies to
                establish written procedures to facilitate the provision that “reasonable
                accommodations” be made under the Rehabilitation Act of 1973.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 83
Appendix E
Factors to Consider in Determining Discipline

        The following factors should be considered in determining an appropriate penalty.
        Not all factors are relevant to every case.

        1) The nature and seriousness of the offense, and its relation to the employee’s
           duties, position, and responsibilities, including whether the offense was
           intentional or technical or inadvertent, was committed maliciously or for gain,
           or was frequently repeated;

        2)	 The employee’s job level and type of employment, including supervisory or
            fiduciary role, contacts with the public, and prominence of the position;

        3)	 The employee’s past disciplinary record;

        4)	 The employee’s past work record, including length of service, performance on
            the job, ability to get along with fellow workers, and dependability;

        5) The effect of the offense upon the employee’s ability to perform at a
           satisfactory level and its effect upon supervisors’ confidence in the
           employee’s work ability to perform assigned duties;

        6) Consistency of the penalty with those imposed upon similarly situated
           employees for the same or similar offenses;

        7) Consistency of the penalty with any applicable agency table of penalties;

        8) The notoriety of the offense or its impact upon the reputation of the agency;

        9) The clarity with which the employee was on notice of any rules that were
           violated in committing the offense, or had been warned about the conduct in
           question;

        10) The potential for the employee’s rehabilitation;

        11) Mitigating circumstances surrounding the offense, such as unusual job
            tensions, personality problems, mental impairment, harassment, or bad faith,
            malice, or provocation on the part of others involved in the matter; and

        12) The adequacy and effectiveness of alternative sanctions to deter such conduct
            in the future by the employee or others.

        Source: Douglas vs. Veterans Administration, 5 MSPR 280 (1981).




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 84
Appendix F
Survey Questions and Responses

                         Our survey included 85 questions. Respondents answered a
                         minimum of 65 questions. Respondents could have answered as
                         many as 20 additional questions based on how they answered
                         survey questions 50, 58, and 66, which asked respondents whether
                         they believe they have been treated unfavorably because of any
                         one of a provided list of reasons.

                         Forty-eight of our survey questions, 1–48, used the Likert scale, a
                         common survey methodology, which measures respondents’
                         agreement or disagreement or their satisfaction or dissatisfaction
                         with a statement. The table below shows how to interpret the
                         results of all Likert items except for question 33. For question 33,
                         “Strongly agree” and “Agree” are negative and “Strongly disagree”
                         or “Disagree” are positive. “Neither agree nor disagree” and “Do
                         not know” are interpreted the same for question 33 as for the other
                         Likert Items.

                                                        Neutral
                            Positive Responses        Response          Negative Response           Agnostic
                                                        Neither
                           Strongly                                                   Strongly       Do Not
                                         Agree         agree nor      Disagree
                            Agree                                                     Disagree       Know
                                                       disagree
                                                        Neither
                           Strongly                                                   Strongly
                                         Agree         agree nor      Disagree
                            Agree                                                     Disagree
                                                       disagree
                                                        Neither
                            Very                       Satisfied                       Very
                                        Satisfied                    Dissatisfied
                           Satisfied                      nor                       Dissatisfied
                                                      Dissatisfied

                         Seven of our survey questions asked respondents to answer “Yes”
                         or “No” to a question. Thirty of our survey questions presented
                         many possible answers for respondents to choose from. In many
                         questions, respondents could select more than one answer.

                         Our survey asked 12 demographic questions covering areas such as
                         length of service, job function, pay band, duty location, gender, race,
                         and age. Appendix I gives select survey respondent demographics.




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 85
Appendix F
Survey Questions and Responses

                                                                       Neither
                                                                                                          Do
                                       Percent    Strongly              Agree                Strongly
                                                               Agree              Disagree                Not
                                       Positive    Agree                 Nor                 Disagree
                                                                                                         Know
                                                                       Disagree
Performance Standards
1.    The performance standards,
      upon which my rating is
                                       49.5%       8.3%        41.2%    14.3%      20.1%       14.8%      1.2%
      based, are appropriate for the
      work that I do.
2.	 My supervisor has enough
    information concerning the
                                       51.1%       12.8%       38.3%    13.3%      20.1%       14.7%      0.9%
    performance of my duties to

    accurately rate me. 

3.	   Personal favoritism is not a 

      factor my

                                       48.0%       15.2%       32.8%    17.1%      13.5%       17.6%      3.7%
      supervisor considers when 

      rating me. 

4.	 My current performance 

    appraisal is an accurate
          52.0%       13.2%       38.8%    20.2%      18.0%       9.8%

    reflection of my performance. 

5.	 My supervisor provides me
    with constructive suggestions
                                       46.4%       11.7%       34.7%    21.7%      20.4%       11.4%
    to improve my job
    performance.
Awards and Promotions
6.    I understand what I have to do
      to receive an in-position        31.4%       7.0%        24.4%    15.1%      27.2%       26.2%
      increase.
7.    In-position increases are
                                       21.9%       5.6%        16.3%    17.3%      20.5%       35.4%      4.9%
      based on merit.
8.    Personal favoritism is not a
      factor when awarding in-         23.2%       6.9%        16.3%    17.0%      21.0%       33.5%      5.2%
      position increases.
9.    I understand what I have to do
      to receive a cash or time-off    31.8%       6.9%        24.9%    17.4%      29.9%       20.9%
      award.
10. Cash and time-off awards are
                                       25.7%       6.1%        19.6%    20.6%      18.7%       28.1%      6.9%
    based on merit.
11. Personal favoritism is not a
    factor when awarding cash or       24.8%       6.8%        18.0%    20.9%      19.7%       27.3%      7.3%
    time off.
12. I understand the promotion
                                       39.8%       7.7%        32.1%    17.2%      21.7%       21.3%
    process.
13. Promotions are based on                                                                    39.7%
                                       17.1%       3.9%        13.2%    18.6%      20.4%                  4.3%
    merit.
14.	 Personal favoritism is not a 

     factor in the promotion 
         15.4%       4.0%        11.4%    18.5%      20.8%       40.1%      5.2%
     process.




      Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 86
Appendix F
Survey Questions and Responses

Ground-Based Assignments and International Missions
15. The criteria for being selected
    for ground-based assignments          41.9%   7.7%        34.2%   16.3%      15.3%       15.9%     10.6%
    are clearly communicated.
16. Those employees selected for
    ground-based assignments              31.4%   5.8%        25.6%   26.1%      12.2%       12.0%     18.4%
    meet the stated criteria.
17. Personal favoritism is not
    considered when ground-
                                          20.3%   5.1%        15.2%   20.7%      19.1%       24.6%     15.3%
    based assignments are
    selected.
18. The criteria for being assigned
    to international missions are         46.2%   10.9%       35.3%   18.7%      11.4%       11.1%     12.5%
    clearly communicated.
19. Personal favoritism is not a
    factor when international             36.6%   10.0%       26.6%   19.8%      13.1%       16.1%     14.3%
    missions are assigned.
Reporting and Addressing Misconduct
20.	 Appropriate policies and
     procedures are in place to
                                          42.2%   8.0%        34.2%   18.5%      16.0%       19.0%      4.3%
     address workplace complaints 

     and disputes. 

21.	 I can disclose a suspected
     violation of any law, rule, or
                                          31.2%   8.5%        22.7%   21.6%      22.5%       24.8%
     regulation without fear of

     retaliation. 

22.	 I trust my immediate
     supervisor to respond
     appropriately to reported            56.3%   17.0%       39.3%   19.8%      11.1%       12.8%
     misconduct, complaints, or
     disputes.
23.	 I trust my immediate
     supervisor to respond timely
                                          56.8%   16.5%       40.3%   20.6%      10.8%       11.7%
     to reported misconduct, 

     complaints, or disputes. 

24.	 If I suspected that my co­
     workers or managers were
     engaged in misconduct or
                                          72.0%   32.5%       39.5%   14.9%       7.1%       6.0%
     illegal activity, I would report 

     it to the appropriate

     OLE/FAMS officials.

25. If I suspected that my co­
    workers or managers were
    engaged in misconduct or
                                          66.2%   29.0%       37.2%   18.5%       8.9%       6.4%
    illegal activity, I would report
    it to the appropriate TSA
    officials.
26. If a senior manager in
    OLE/FAMS engages in
                                          20.5%   6.7%        13.8%   15.3%      17.4%       34.4%     12.4%
    misconduct or illegal activity,
    they are held accountable.




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 87
Appendix F
Survey Questions and Responses

27. If a law enforcement
    supervisor engages in
                                        29.6%    8.6%        21.0%   17.7%       16.6%       23.0%     13.2%
    misconduct or illegal activity,
    they are held accountable.
28. If a Federal Air Marshal
    engages in misconduct or
                                        76.3%    37.5%       38.8%    9.7%        4.0%       4.1%       5.8%
    illegal activity, they are held
    accountable.
29. If a professional, technical,
    or administrative staff
    member engages in                   38.9%    11.7%       27.2%   24.0%        7.8%       7.1%      22.2%
    misconduct or illegal activity,
    they are held accountable.
30. The disciplinary process is fair.   17.8%    3.9%        13.9%   20.5%       20.2%       32.7%      8.8%
31.	 Disciplinary actions are
     applied consistently for           14.6%    3.2%        11.4%   16.3%       20.8%       35.7%     12.5%
     similar offenses.
32.	 Disciplinary actions are at the
     appropriate level of severity      16.0%    3.3%        12.7%   23.3%       19.7%       28.8%     12.1%
     given the offense.
33.	 Disciplinary actions are used
     as a tool to retaliate against     21.9%    20.6%       21.9%   26.0%       12.8%       9.1%       9.5%
     employees.
Workplace Culture
34. My supervisor supports
                                        63.0%    19.0%       44.0%   20.6%        4.5%       5.6%       6.2%
    diversity in the workplace.
35.	 Policies and programs
     promote diversity in the
     workplace (for example,
                                        57.0%    17.1%       39.9%   22.5%        6.5%       6.8%       7.0%
     recruiting minorities and 

     women, diversity training, 

     mentoring).

36.	 Supervisors work well with
     employees of different             57.0%    15.3%       41.7%   22.5%        8.4%       8.3%       3.7%
     backgrounds.
37. Personal favoritism is not
                                        21.8%    5.8%        16.0%   20.0%       23.4%       31.5%      3.3%
    tolerated in my workplace.
38.	 Prohibited Personnel Practices
     (for example, illegally
     discriminating for or against
     any employee/applicant,
     obstructing a person’s right to    40.9%    12.4%       28.5%   22.1%       10.3%       13.4%     13.4%
     compete for employment,
     knowingly violating veterans’
     preference requirements) are
     not tolerated.
39.	 My supervisor supports my
     need to balance work and           58.8%    18.6%       40.2%   15.8%        9.9%       14.3%      1.3%
     other life issues.
Job Satisfaction
40. I am given an opportunity to
    improve my skills in my             43.2%    9.8%        33.4%   21.0%       21.6%       14.2%
    organization.
41. I feel encouraged to come up
    with new and better ways of         36.1%    9.8%        26.3%   22.3%       24.7%       16.9%
    doing things.

    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                   Page 88
Appendix F
Survey Questions and Responses

42. My work gives me a feeling
                                        55.9%       17.5%           38.4%    17.4%         14.2%       12.5%
    of personal accomplishment.
43. My talents are used well in
                                        39.0%        9.9%           29.1%    20.3%         22.0%       18.7%
    the workplace.
44. The people I work with
                                        75.5%       17.8%           57.7%    14.5%         6.3%        3.7%
    cooperate to get the job done.
45. Creativity and innovation are
                                        24.3%        5.8%           18.5%    32.0%         26.3%       17.5%
    rewarded.
                                                                             Neither
                                     Percent     Very                        Satisfied                           Very
                                                              Satisfied                     Dissatisfied
                                     Positive   Satisfied                       Nor                           Dissatisfied
                                                                            Dissatisfied
46. How satisfied are you with
    the recognition you
                                     34.6%         8.2%        26.4%          24.7%           23.1%             17.6%
    receive for doing a good
    job?
47.	 How satisfied are you with
     your opportunity to get a
                                     23.3%         5.3%        18.0%          24.5%           24.6%             27.5%
     better job in your
     organization?
48. Considering everything,
    how satisfied are you with       53.4%       14.4%         39.0%          21.6%           14.9%             10.1%
    your job?
Discrimination and Unfavorable Treatment
49. Do you know who to contact if you feel you are or have been discriminated against or harassed on the job?

           Yes                                                                                	77.0%
           No                                                                                 	23.0%

50.	 Do you believe that you have been treated unfavorably because of any of the following? [More than one can be
     selected]
           Race or Color	                                                                     14.0%
           National origin	                                                                   3.7%
           Sex, including pregnancy or sexual orientation	                                    6.2%
           Religion, including because you requested a reasonable accommodation               1.6%
           Age                                                                                	13.1%
           Disability, including because you requested a reasonable accommodation             3.9%
           I have not been treated unfavorably because of any of the above reasons.           74.6%


51.	 Who was it that treated you unfavorably? [More than one can be selected]

           Senior manager in my office 	                                                      62.4%
           Senior manager outside of my office 	                                              24.9%
           Immediate supervisor 	                                                             43.6%
           Co-worker                                                                          	18.9%
           Other                                                                              	12.8%




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                          Page 89
Appendix F
Survey Questions and Responses

52. Did the incident(s) of unfavorable treatment occur within the last 24 months?

           Yes                                                                      51.5%
           An incident or incidents occurred within the last 24 months, but other
                                                                                    27.6%
           incidents occurred earlier than that.
           No                                                                       20.9%


53. Where did the incident(s) take place? [More than one can be selected]
                                                  Atlantic City                     6.0%
                                                  Herndon                           5.7%
Headquarters                                      Ashburn                           0.3%
                                                  Reston                            5.0%
                                                  Arlington                         1.7%
                                                  Atlanta                           8.6%
                                                  Baltimore                         1.3%
                                                  Boston                            2.5%
                                                  Charlotte                         2.6%
                                                  Chicago                           4.8%
                                                  Cincinnati                        1.6%
                                                  Cleveland                         1.1%
                                                  Dallas                            7.8%
                                                  Denver                            1.7%
                                                  Detroit                           3.3%
                                                  Houston                           5.4%
                                                  Las Vegas                         2.3%
                                                  Los Angeles                       4.5%
Field Offices
                                                  Miami                             3.8%
                                                  Minneapolis                       0.9%
                                                  Newark                            3.7%
                                                  New York                          9.0%
                                                  Orlando                           4.2%
                                                  Philadelphia                      2.5%
                                                  Phoenix                           0.7%
                                                  Pittsburgh                        1.6%
                                                  San Diego                         0.4%
                                                  San Francisco                     1.1%
                                                  Seattle                           1.9%
                                                  Tampa                             1.1%
                                                  Washington                        14.0%
   Other                                                                            8.7%




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                      Page 90
Appendix F
Survey Questions and Responses

54. What actions did you take regarding your treatment? [More than one can be selected]

           Notified your immediate supervisor                                                30.1%
           Notified someone in your office other than your immediate supervisor              25.7%
           Notified the Director of OLE/FAMS by sending an anonymous email                   4.6%
           Contacted the Ombudsman                                                           14.3%
           Contacted an equal employment opportunity office                                  14.2%
           Filed an equal employment opportunity complaint (informal or formal)              12.8%
           Filed an appeal with the Merit Systems Protection Board                           1.5%
           Filed a lawsuit against the agency                                                3.3%
           Contacted the TSA Office of Inspection                                            3.7%
           Contacted the DHS Office of Inspector General                                     4.0%
           Contacted a member of Congress                                                    6.6%
           None                                                                              39.6%
           Other                                                                             14.2%


55. Were the actions you took effective in resolving the problem of unfavorable treatment?

           Yes                                                                               9.8%
           No                                                                                90.2%


56. Why did you take no action regarding your treatment?

           I did not feel that the incident was severe enough to warrant action              11.8%
           The issue was resolved without action on my part                                  3.0%
           Unsure who to contact to take action                                              2.7%
           Fear of retaliation                                                               64.9%
           I am considering taking action                                                    4.4%
           Other                                                                             13.2%




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 91
Appendix F
Survey Questions and Responses

Retaliation and Unfavorable Treatment
57. Do you know who to contact if you feel you are or have been retaliated against?

            Yes                                                                              	69.7%
            No                                                                               	30.3%

58.	 Do you believe that TSA or FAMS has retaliated against you or treated you unfavorably because you did any of
     the following? [More than one can be selected]
            Disclosed information that you believe to be a violation of any law, rule, or
                                                                                             6.3%
            regulation
            Disclosed information that you believe to be a gross mismanagement, a
            gross waste of funds, an abuse of authority, or a substantial and specific       7.8%
            danger to public health or safety
            Exercised any appeal, complaint, or grievance right granted by any law, rule,
                                                                                             8.6%
            or regulation
            Testified for or otherwise lawfully assisted any individual in the exercise of
                                                                                             3.3%
            their right of appeal, complaint, or grievance right
            Cooperated with or disclosed information to the Inspector General of an
            agency, or the Special Counsel, in accordance with applicable provisions of      2.7%
            law
            Refused to obey an order that would require the individual to violate a law      1.0%
            I have not been retaliated against or treated unfavorably because of any of
                                                                                             84.0%
            the above reasons

59.	 What form did the retaliation or unfavorable treatment take? [More than one can be selected]

            A personnel action 	                                                             44.5%
            Verbal counseling 	                                                              27.9%
            Written counseling 	                                                             24.1%
            Conduct that was unprofessional 	                                                50.4%
            Other                                                                            	43.6%


60. Who do you believe retaliated against you or treated you unfavorably? [More than one can be selected]

            Senior Manager in my office 	                                                    72.1%
            Senior Manager outside of my office 	                                            24.1%
            Immediate supervisor 	                                                           56.4%
            Co-worker                                                                        	13.7%
            Other                                                                            	10.8%


61.	 Did this retaliation or unfavorable treatment take place within the last 24 months?

            Yes                                                                              	51.3%
            An incident or incidents occurred within the last 24 months, but other
                                                                                             26.9%
            incidents occurred earlier than that.
            No                                                                               	21.7%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service 


                                                        Page 92

Appendix F
Survey Questions and Responses

62. Where did the incident(s) of retaliation or unfavorable treatment take place? [More than one can be selected]

                                                  Atlantic City                            5.3%
                                                  Herndon                                  5.5%
Headquarters                                      Ashburn                                  0.0%
                                                  Reston                                   5.1%
                                                  Arlington                                2.2%
                                                  Atlanta                                  7.3%
                                                  Baltimore                                2.2%
                                                  Boston                                   3.1%
                                                  Charlotte                                1.3%
                                                  Chicago                                  4.2%
                                                  Cincinnati                               2.4%
                                                  Cleveland                                1.5%
                                                  Dallas                                   8.2%
                                                  Denver                                   3.1%
                                                  Detroit                                  3.3%
                                                  Houston                                  5.8%
                                                  Las Vegas                                2.2%
                                                  Los Angeles                              5.3%
Field Offices
                                                  Miami                                    3.1%
                                                  Minneapolis                              0.0%
                                                  Newark                                   2.9%
                                                  New York                                 9.7%
                                                  Orlando                                  4.6%
                                                  Philadelphia                             5.3%
                                                  Phoenix                                  0.4%
                                                  Pittsburgh                               2.0%
                                                  San Diego                                0.2%
                                                  San Francisco                            0.9%
                                                  Seattle                                  2.7%
                                                  Tampa                                    2.2%
                                                  Washington                               13.3%
   Other                                                                                   5.5%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 93
Appendix F
Survey Questions and Responses

63.	 What actions did you take in response to the retaliation or unfavorable treatment? [More than one can be
     selected]
            Notified your immediate supervisor 	                                           37.8%
            Notified someone in your office other than your immediate supervisor           35.8%
            Notified the Director of OLE/FAMS by sending an anonymous email                6.6%
            Contacted the Ombudsman 	                                                      19.7%
            Contacted an equal employment opportunity office 	                             17.9%
            Filed an equal employment opportunity complaint (informal or formal)           15.7%
            Filed an appeal with the Merit Systems Protection Board	                       3.5%
            Filed a lawsuit against the agency 	                                           5.5%
            Contacted the TSA Office of Inspection	                                        6.4%
            Contacted the DHS Office of Inspector General 	                                7.3%
            Contacted the Office of Special Counsel 	                                      5.3%
            Contacted a member of Congress 	                                               8.8%
            None                                                                           	27.0%
            Other                                                                          	23.7%


64. Were the actions you took effective in resolving the problem of retaliation or unfavorable treatment?

            Yes                                                                            	11.2%
            No                                                                             	88.8%


65.	 Why did you take no action regarding the retaliation or unfavorable treatment?

            I did not feel that the incident was severe enough to warrant action           5.8%
            The issue was resolved without action on my part	                              0.0%
            Unsure who to contact to take action 	                                         2.5%
            Fear of further retaliation	                                                   80.8%
            I am considering taking action	                                                3.3%
            Other                                                                          	7.5%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                        Page 94
Appendix F
Survey Questions and Responses

66.	 Do you believe that TSA or FAMS has retaliated against you or treated you unfavorably because you did any of
     the following? [More than one can be selected]
            Questioned policies or procedures 	                                            20.6%
            Proposed changes to policy or procedures	                                      9.8%
            Questioned decisions made by your immediate supervisor or senior
                                                                                           21.6%
            management
            Requested annual leave 	                                                       3.7%
            Requested sick leave 	                                                         10.2%
            Requested leave under the Family and Medical Leave Act	                        3.3%
            Requested leave for military duty	                                             2.1%
            Requested schedule adjustments	                                                5.4%
            Requested light duty	                                                          4.2%
            I have not been retaliated against or treated unfavorably because any of the
                                                                                           68.5%
            above reasons

67.	 What form did the retaliation or unfavorable treatment take? [More than one can be selected]

            A personnel action 	                                                           28.9%
            Verbal counseling 	                                                            24.2%
            Written counseling 	                                                           15.4%
            Conduct that was unprofessional 	                                              39.6%
            Other                                                                          	46.0%


68. Who do you believe retaliated against you or treated you unfavorably? [More than one can be selected]

            Senior Manager in my office 	                                                  64.3%
            Senior Manager outside of my office 	                                          16.5%
            Immediate supervisor 	                                                         54.9%
            Co-worker                                                                      	9.4%
            Other                                                                          	9.6%


69.	 Did this retaliation or unfavorable treatment take place within the last 24 months?

            Yes                                                                            	49.0%
            An incident or incidents occurred within the last 24 months, but other
                                                                                           22.1%
            incidents occurred earlier than that.
            No                                                                             	28.9%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                        Page 95
Appendix F
Survey Questions and Responses

70. Where did the incident(s) of retaliation or unfavorable treatment take place? [More than one can be selected]
                                                  Atlantic City                            3.4%
                                                  Herndon                                  4.6%
Headquarters                                      Ashburn                                  0.3%
                                                  Reston                                   4.0%
                                                  Arlington                                1.5%
                                                  Atlanta                                  6.5%
                                                  Baltimore                                1.4%
                                                  Boston                                   2.2%
                                                  Charlotte                                1.9%
                                                  Chicago                                  4.5%
                                                  Cincinnati                               2.0%
                                                  Cleveland                                1.1%
                                                  Dallas                                   8.3%
                                                  Denver                                   2.4%
                                                  Detroit                                  3.5%
                                                  Houston                                  5.3%
                                                  Las Vegas                                2.0%
                                                  Los Angeles                              4.1%
Field Offices
                                                  Miami                                    2.7%
                                                  Minneapolis                              0.2%
                                                  Newark                                   3.2%
                                                  New York                                 12.1%
                                                  Orlando                                  4.0%
                                                  Philadelphia                             4.6%
                                                  Phoenix                                  0.3%
                                                  Pittsburgh                               2.3%
                                                  San Diego                                0.4%
                                                  San Francisco                            0.7%
                                                  Seattle                                  1.9%
                                                  Tampa                                    1.4%
                                                  Washington                               11.9%
   Other                                                                                   6.2%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                       Page 96
Appendix F
Survey Questions and Responses

71.	 What actions did you take in response to the retaliation or unfavorable treatment? [More than one can be
     selected]
            Notified your immediate supervisor                                             26.7%
            Notified someone in your office other than your immediate supervisor           24.3%
            Notified the Director of OLE/FAMS by sending an anonymous email                4.2%
            Contacted the Ombudsman                                                        10.4%
            Contacted an equal employment opportunity office                               9.6%
            Filed an equal employment opportunity complaint (informal or formal)           7.3%
            Filed an appeal with the Merit Systems Protection Board                        1.5%
            Filed a lawsuit against the agency                                             2.5%
            Contacted the TSA Office of Inspection                                         2.7%
            Contacted the DHS Office of Inspector General                                  3.7%
            Contacted the Office of Special Counsel                                        2.5%
            Contacted a member of Congress                                                 3.9%
            None                                                                           47.9%
            Other                                                                          14.5%


72. Were the actions you took effective in resolving the problem of retaliation?

            Yes                                                                            11.5%
            No                                                                             88.5%


73. Why did you take no action regarding the retaliation or unfavorable treatment?
            I did not feel that the incident was severe enough to warrant action           16.6%
            The issue was resolved without action on my part                               2.3%
            Unsure who to contact to take action                                           1.9%
            Fear of further retaliation                                                    62.5%
            I am considering taking action                                                 2.3%
            Other                                                                          14.5%




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                        Page 97
Appendix G
Select Survey Responses by Location

                  Percentage of respondents who believe they were treated unfavorably
                    because they are in a protected class (discrimination), by location.

                   *Dallas                                                                                45
                 Houston                                                                             43
                  Atlanta                                                                       37
      *Orlando/Tampa                                                                       35
              *Charlotte                                                                 33
     Las Vegas/Phoenix                                                                   33
          San Francisco                                                                 32
 Los Angeles/San Diego                                                             31
                    Other                                                     29
                    Miami                                                26
        All respondents                                                  25
                   Detroit                                              25
                  Chicago                                               25
                  Newark                                               25
                New York                                               24
               Baltimore                                              24
                Arlington                                             24
                 Herndon                                         22
                   Seattle                                  20
              *Cincinnati                                  20
             Washington                                   19
                   Boston                                18
                   Reston                               17
                   Denver                              17
               Cleveland                              16
             Atlantic City                          15
            Philadelphia                          14
          *Minneapolis                            14
               Pittsburgh                        13
                 Ashburn               7

                                       *Denotes a field office we visited prior to conducting our survey.





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 98
Appendix G
Select Survey Responses by Location

                 Percentage of respondents who believe prohibited personnel practices 

                                      are tolerated, by location.

                *Dallas                                                                       57
                Seattle                                                       38
      *Orlando/Tampa                                                     34
                Atlanta                                                 32
               Houston                                             30
            *Cincinnati                                           28
               Chicago                                            27
             Cleveland                                        26
             *Charlotte                                      25
          San Francisco                                      24
                  Other                                      24
       All respondents                                       24
              New York                                       24
                Boston                                       24
 Los Angeles/San Diego                                   23
                Detroit                                 22
               Herndon                                  22
              Arlington                                 21
                Newark                              20
    Las Vegas/Phoenix                              19
                 Miami                             18
           Washington                          17
                Denver                         17
             Baltimore                        16
           Philadelphia                       16
             Pittsburgh                       15
          *Minneapolis                   11
           Atlantic City                11
                Reston                  10
               Ashburn              7

                                         *Denotes a field office we visited prior to conducting our survey.





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 99
Appendix G
Select Survey Responses by Location

          Percentage of respondents who believe they cannot disclose a violation of any rule, 

                      law, or regulation without fear of retaliation, by location.


                *Dallas                                                                                82
               Houston                                                                            66
    Las Vegas/Phoenix                                                                        59
              New York                                                                   57
 Los Angeles/San Diego                                                                  55
                 Miami                                                              53
                Seattle                                                             53
                Detroit                                                            52
             Cleveland                                                             51
           Philadelphia                                                            51
                Denver                                                             51
      *Orlando/Tampa                                                              51
                Atlanta                                                       48
       All respondents                                                       47
            *Cincinnati                                                      47
             *Charlotte                                                      47
                Newark                                                   45
               Chicago                                                   45
             Pittsburgh                                                 44
           Washington                                                   43
                  Other                                            39
               Herndon                                            38
                Boston                                            37
          San Francisco                                      35
              Arlington                                      34
             Baltimore                                  30
               Ashburn                                 29
                Reston                                 27
           Atlantic City                          24
         *Minneapolis                        19

                                         *Denotes a field office we visited prior to conducting our survey.





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 100
Appendix G
Select Survey Responses by Location

             Percentage of respondents who would not report misconduct or illegal activity 

                             to the appropriate FAMS official, by location.

                *Dallas                                                                                  24
             Cleveland                                                                              21
                 Miami                                                                         19
 Los Angeles/San Diego                                                                         19
           Philadelphia                                                                        19
      *Orlando/Tampa                                                                           19
    Las Vegas/Phoenix                                                                      19
             *Charlotte                                                                   18
            *Cincinnati                                                              16
             Pittsburgh                                                              16
                Denver                                                               15
                Detroit                                                          15
               Chicago                                                          14
               Houston                                                     13
       All respondents                                                     13
               Atlanta                                                    13
              Herndon                                                    13
              New York                                               12
                Newark                                              11
                Reston                                              11
                  Other                                         11
              Arlington                                         11
                Seattle                                        10
           Washington                                    9
               Ashburn                              7
           Atlantic City                        6
         *Minneapolis                           6
                Boston                      5
             Baltimore                      5
          San Francisco             3

                                         *Denotes a field office we visited prior to conducting our survey. 





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                    Page 101
Appendix G
Select Survey Responses by Location

                      Percentage of respondents who think the disciplinary process

                                         is unfair, by location.

                *Dallas                                                                                      83
 Los Angeles/San Diego                                                                                  71
    Las Vegas/Phoenix                                                                              67
           Philadelphia                                                                           66
      *Orlando/Tampa                                                                              65
                Atlanta                                                                       64
               Houston                                                                       63
              New York                                                                       62
                Newark                                                                  59
                 Miami                                                                  59
             *Charlotte                                                             58
          San Francisco                                                             57
                Seattle                                                            55
             Cleveland                                                         54
            *Cincinnati                                                        53
       All respondents                                                         53
             Pittsburgh                                                        52
               Chicago                                                        52
                Boston                                                        51
                Denver                                                        51
                Detroit                                                  47
                  Other                                                 45
             Baltimore                                              43
          Washington                                               41
              Herndon                                         35
           Atlantic City                               30
         *Minneapolis                                28
                Reston                        21
              Arlington                     18
               Ashburn      0

                                         *Denotes a field office we visited prior to conducting our survey. 





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                   Page 102
Appendix G
Select Survey Responses by Location

                           Percentage of respondents who think disciplinary actions
                                   are applied inconsistently, by location.

                *Dallas                                                                                        84
    Las Vegas/Phoenix                                                                                     76
 Los Angeles/San Diego                                                                               69
                Atlanta                                                                          67
              New York                                                                           66
               Houston                                                                          65
                 Miami                                                                     62

      *Orlando/Tampa                                                                       62

           Philadelphia
                                                                   62
             Cleveland                                                                    61
                Newark                                                                    60

             *Charlotte                                                               60

          San Francisco
                                                              59
                Denver                                                              58
                Seattle                                                             58
                Boston                                                              57

               Chicago                                                              57

       All respondents
                                                             57

            *Cincinnati
                                                        55

             Pittsburgh                                                       52

                Detroit
                                                      52

          Washington 
                                                    49

             Baltimore                                                    49

                  Other
                                                46

              Herndon                                             39

           Atlantic City                                        36

         *Minneapolis
                                      33

                Reston                               25

              Arlington
                          24

               Ashburn
                         21

                                           *Denotes a field office we visited prior to conducting our survey.




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 103
Appendix G
Select Survey Responses by Location

                    Percentage of respondents who think disciplinary actions are not 

                            at the appropriate level of severity, by location.

                *Dallas                                                                                 78
    Las Vegas/Phoenix                                                                              70
              New York                                                                        64
               Houston                                                                    63
 Los Angeles/San Diego                                                                    62
                 Miami                                                                   60
           Philadelphia                                                             55
          San Francisco                                                            54
                Newark                                                             54
            *Cincinnati                                                            53
      *Orlando/Tampa                                                               53
               Chicago                                                         52
             Cleveland                                                         51
             *Charlotte                                                        51
                Boston                                                        51
                Denver                                                        49
       All respondents                                                    49
                Atlanta                                                  46
                Seattle                                              45
             Pittsburgh                                             43
                  Other                                        39
                Detroit                                       38
             Baltimore                                        38
           Washington                                         38
         *Minneapolis                                    33
               Herndon                                   33
           Atlantic City                         24
                Reston                      19
              Arlington                   16
               Ashburn            7

                                         *Denotes a field office we visited prior to conducting our survey.





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 104
Appendix G
Select Survey Responses by Location




               *Dallas                                                                                75
                                                                                           55
              Houston                                                                  54
                                                                                      53
                                                                                      52
               Atlanta                                                           47
                                                                                 47
               Newark                                                       44
              Chicago                                                       44
               Boston                                                       44
                                                                           43
                                                                           43
                                                                           42
     *Orlando/Tampa                                                        42
          Philadelphia                                                     42
                Miami                                                  41
                                                                       41
                                                                      40
            Cleveland                                                 40
               Denver                                                 39
                                                                      39
                                                                 36
               Detroit                                           36
                 Other                                       34
             Herndon                                        33
             Arlington                            24
                                                 22
               Reston                            22
        *Minneapolis                       17
              Ashburn                    14




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 105
Appendix G
Select Survey Responses by Location

                      Percentage of respondents who believe favoritsm is tolerated 

                                     in their workplace, by location.


                *Dallas                                                                                       81
           Philadelphia                                                                                  71
    Las Vegas/Phoenix                                                                                    70
               Houston                                                                              68
                Atlanta                                                                             67
              New York                                                                              67
               Chicago                                                                              67
                Denver                                                                         63
                Detroit                                                                       62
 Los Angeles/San Diego                                                                        61
                Newark                                                                    60
      *Orlando/Tampa                                                                     57
       All respondents                                                               55
                 Miami                                                              54
              Herndon                                                           52
                Seattle                                                        50
                  Other                                                    47
           Washington                                                      47
            *Cincinnati                                                    47
             Baltimore                                                    46
          San Francisco                                                   46
             Pittsburgh                                                   45
             Cleveland                                                44
             *Charlotte                                              42
                Boston                                          39
              Arlington                                        37
                Reston                                    34
           Atlantic City                                 33
         *Minneapolis                               28

                                         *Denotes a field office we visited prior to conducting our survey. 





   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                  Page 106
Appendix H
Select Questions – OIG FAMS Survey Compared to 2010 DHS-wide Survey

Following are 16 questions from our survey and the identical or nearly identical questions
OPM posed during its 2010 survey of DHS employees and the corresponding responses.
For purposes of this comparison, we unweighted DHS’ results.

                                                                     Neither
                                                                                                         Do
                                     Percent    Strongly              Agree                 Strongly
                                                           Agree                Disagree                 Not
                                     Positive    Agree                 Nor                  Disagree
                                                                                                        Know
                                                                     Disagree
OIG FAMS #4
My current performance appraisal
                                     52.0%       13.2%     38.8%      20.2%       18.0%       9.8%
is an accurate reflection of my
performance.
2010 DHS Viewpoint Survey #15
My performance appraisal is a        67.1%       24.4%     42.7%      13.9%       8.9%        8.4%      1.8%
fair reflection of my performance.


OIG FAMS #13
                                     17.1%       3.9%      13.2%      18.6%       20.4%      39.7%      4.3%
Promotions are based on merit.
2010 DHS Viewpoint Survey #22
Promotions in my work unit are       34.0%       8.6%      25.4%      23.9%       18.0%       19%       5.1%
based on merit.


OIG FAMS #21
I can disclose a suspected
violation of any law, rule, or       31.2%       8.5%      22.7%      21.6%       22.5%      24.8%
regulation without fear of
retaliation.
2010 DHS Viewpoint Survey #17
I can disclose a suspected
violation of any law, rule, or       57.4%       22.1%     35.3%      18.2%       9.7%       10.7%      4.0%
regulation without fear of
reprisal.


OIG FAMS #35
Policies and programs promote
diversity in the workplace (for
                                     57.0%       17.1%     39.9%      22.5%       6.5%        6.8%      7.0%
example, recruiting minorities
and women, diversity training,
mentoring).
2010 DHS Viewpoint Survey #34
                                     60.4%       22.0%     38.4%      17.9%       6.3%        8.6%      6.8%
Same question.


OIG FAMS #36
Supervisors work well with
                                     57.0%       15.3%     41.7%      22.5%       8.4%        8.3%      3.7%
employees of different
backgrounds.
2010 DHS Viewpoint Survey #55
Managers/supervisors/team
                                     61.5%       16.9%     44.6%      19.8%       8.4%        7.2%      3.1%
leaders work well with employees
of different backgrounds.




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service 


                                                    Page 107

Appendix H
Select Questions – OIG FAMS Survey Compared to 2010 DHS-wide Survey

                                                                   Neither
                                                                                                       Do
                                    Percent    Strongly             Agree                 Strongly
                                                          Agree                Disagree                Not
                                    Positive    Agree                Nor                  Disagree
                                                                                                      Know
                                                                   Disagree
OIG FAMS #38
Prohibited Personnel Practices
(for example, illegally
discriminating for or against any
employee/applicant, obstructing a   40.9%       12.4%     28.5%     22.1%       10.3%       13.4%     13.4%
person’s right to compete for
employment, knowingly violating
veterans’ preference
requirements) are not tolerated.
2010 DHS Viewpoint Survey #38
                                    60.4%       22.0%     38.4%     17.9%        6.3%       8.6%       6.8%
Same question.


OIG FAMS #39
My supervisor supports my need
                                    58.8%       18.6%     40.2%     15.8%        9.9%       14.3%      1.3%
to balance work and other life
issues.
2010 DHS Viewpoint Survey #42
                                    74.3%       31.4%     42.9%     12.6%        7.0%       5.5%       0.6%
Same question.


OIG FAMS #40
I am given an opportunity to
                                    43.2%       9.8%      33.4%     21.0%       21.6%       14.2%
improve my skills in my
organization.
2010 DHS Viewpoint Survey #1
I am given a real opportunity to
                                    61.7%       18.1%     43.6%     16.9%       15.7%       5.7%
improve my skills in my
organization.


OIG FAMS #41
I feel encouraged to come up with
                                    36.1%       9.8%      26.3%     22.3%       24.7%       16.9%
new and better ways of doing
things.
2010 DHS Viewpoint Survey #3
                                    55.0%       19.4%     35.6%     18.3%       17.8%       8.8%
Same question.


OIG FAMS #42
My work gives me a feeling of       55.9%       17.5%     38.4%     17.4%       14.2%       12.5%
personal accomplishment.
2010 DHS Viewpoint Survey #4
                                    70.6%       27.7%     42.9%     14.6%        9.6%       5.2%
Same question.




   Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                   Page 108
Appendix H
Select Questions – OIG FAMS Survey Compared to 2010 DHS-wide Survey

                                                                       Neither
                                                                                                                Do
                                    Percent     Strongly                Agree                    Strongly
                                                             Agree                    Disagree                  Not
                                    Positive     Agree                   Nor                     Disagree
                                                                                                               Know
                                                                       Disagree
OIG FAMS #43

My talents are used well in the      39.0%        9.9%       29.1%      20.3%          22.0%       18.7%

workplace.

2010 DHS Viewpoint Survey #11
                                     55.2%        14.6%      40.6%      16.4%          16.2%       12.2%
Same question.


OIG FAMS #44

The people I work with cooperate     75.5%        17.8%      57.7%      14.5%          6.3%        3.7%

to get the job done.
2010 DHS Viewpoint Survey #20
                                     74.3%        22.9%      51.4%      12.9%          9.8%        3.0%
Same question.


OIG FAMS #45
Creativity and innovation are        24.3%        5.8%       18.5%      32.0%          26.3%       17.5%
rewarded.
2010 DHS Viewpoint Survey #32
                                     39.6%        10.2%      29.4%      25.9%          19.0%       13.0%       2.7%
Same question.



                                                                        Neither
                                   Percent      Very                    Satisfied                            Very
                                                           Satisfied                     Dissatisfied
                                   Positive    Satisfied                   Nor                            Dissatisfied
                                                                       Dissatisfied
OIG FAMS #46
How satisfied are you with the
                                   34.6%        8.2%        26.4%        24.7%             23.1%            17.6%
recognition you receive for
doing a good job?
2010 DHS Viewpoint Survey
#65                                51.0%        15.5%       35.5%        22.2%             17.6%             9.3%
Same question.


OIG FAMS #47
How satisfied are you with your
                                   23.3%        5.3%        18.0%        24.5%             24.6%            27.5%
opportunity to get a better job
in your organization?
2010 DHS Viewpoint Survey
#67                                40.3%        10.7%       29.6%        27.3%             18.2%            14.1%
Same question.


OIG FAMS #48
Considering everything, how        53.4%        14.4%       39.0%        21.6%             14.9%            10.1%
satisfied are you with your job?
2010 DHS Viewpoint Survey
#69                                67.6%        22.9%       44.7%        16.7%             10.5%             5.2%
Same question.




    Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                     Page 109
Appendix I
Survey Demographics

                Respondents by Race/National Origin
                                                                  FAMS
                          Race/National Origin                                    Survey Respondents
                                                                 Workforce
                    American Indian or Alaska Native1              1.1%                    3.1%
                                 Asian1                            3.5%                    2.3%
                      Black or African-American                   12.0%                    11.8%
                           Hispanic / Latino                      11.3%                    11.7%
                          Native Hawaiian or
                                                                     0.0%                  0.8%
                        Other Pacific Islander1
                      Other / More than one race2                    0.4                    N/A
                                 Other                               N/A                    7.9%
                                 White                              71.7%                  78.8%
                1
                  The limited size of these populations should be considered when interpreting survey results 

                that list these demographic populations. 

                2
                  Our survey did not have an option of “Other/More than one race.” Instead, respondents 

                could select more than one option. 


                Respondents by Gender
                            Gender                   FAMS Workforce              Survey Respondents
                             Male                       87.5%                          87.7%
                            Female                      12.5%                          12.3%

                Respondents by Age
                             Age                     FAMS Workforce              Survey Respondents
                        29 or Younger                   11.3%                           6.2%
                            30–39                       37.1%                          34.1%
                            40–49                       41.1%                          47.1%
                            50–59                        8.3%                          10.2%
                         60 or Older                     2.2%                           2.4%

                Respondents by Pay Band
                           Pay Band                  FAMS Workforce              Survey Respondents
                              D                          0.1%                           0.2%
                              E                          0.4%                           0.6%
                               F                         2.7%                           3.0%
                              G                         10.1%                           4.5%
                              H                          9.1%                           6.2%
                               I                        65.0%                          70.0%
                               J                         8.8%                          11.2%
                              K                          2.7%                           3.3%
                              L                          0.2%                           0.3%
                            TSES                         0.5%                           0.7%




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service 


                                                   Page 110

Appendix J
Major Contributors to this Report

                         William McCarron, Chief Inspector
                         Jennifer A. Lindsey, Senior Inspector/Team Lead
                         Paul Bergstrand, Senior Inspector
                         Katherine Yutzey, Senior Inspector
                         Jasmine K. Davis, Inspector
                         Lindsay K. Clarke, Inspector

                         Other contributors to the report
                         Elizabeth Kingma, Senior Inspector
                         Wayne Ekblad, Senior Inspector
                         Shawntae Brown, Inspector
                         Anne Cho, Inspector
                         Nicholas Ketter, Inspector
                         Vanetta Myrick, Inspector




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 111
Appendix K
Report Distribution


                         Department of Homeland Security

                         Secretary
                         Deputy Secretary
                         Chief of Staff
                         Deputy Chief of Staff
                         General Counsel
                         Executive Secretariat
                         Director, GAO/OIG Liaison Office
                         Assistant Secretary for Office of Policy
                         Assistant Secretary for Office of Public Affairs
                         Assistant Secretary for Office of Legislative Affairs
                         TSA Audit Liaison
                         Director of Local Affairs, Office of Intergovernmental Affairs

                         Office of Management and Budget

                         Chief, Homeland Security Branch
                         DHS OIG Budget Examiner

                         Congress

                         Congressional Oversight and Appropriations Committees, as
                         appropriate




  Allegations of Misconduct and Illegal Discrimination and Retaliation in the Federal Air Marshal Service

                                                 Page 112
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
